<html>
<title> - K-12 SCIENCE AND MATH EDUCATION ACROSS THE FEDERAL AGENCIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    K-12 SCIENCE AND MATH EDUCATION
                      ACROSS THE FEDERAL AGENCIES

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2006

                               __________

                           Serial No. 109-43

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
26-798                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
BOB INGLIS, South Carolina           AL GREEN, Texas
DAVE G. REICHERT, Washington         CHARLIE MELANCON, Louisiana
MICHAEL E. SODREL, Indiana           DENNIS MOORE, Kansas
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                             March 30, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    12
    Written Statement............................................    17

Prepared Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    19

Prepared Statement by Representative Lynn Woolsey, Member, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    20

                               Witnesses:

Ms. Margaret Spellings, Secretary, Department of Education
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    29

Dr. Arden L. Bement, Jr., Director, National Science Foundation
    Oral Statement...............................................    30
    Written Statement............................................    31
    Biography....................................................    35

Ms. Shana L. Dale, Deputy Administrator, National Aeronautics and 
  Space Administration
    Oral Statement...............................................    36
    Written Statement............................................    37
    Biography....................................................    41

Brigadier General John J. Kelly, Deputy Under Secretary for 
  Oceans and Atmosphere, National Oceanic and Atmospheric 
  Administration
    Oral Statement...............................................    41
    Written Statement............................................    43
    Biography....................................................    47

Dr. James F. Decker, Principal Deputy Director, Office of 
  Science, U.S. Department of Energy
    Oral Statement...............................................    48
    Written Statement............................................    50
    Biography....................................................    57

Discussion.......................................................    58

              Appendix: Answers to Post-Hearing Questions

Ms. Margaret Spellings, Secretary, Department of Education.......    82

Dr. Arden L. Bement, Jr., Director, National Science Foundation..    90

Ms. Shana L. Dale, Deputy Administrator, National Aeronautics and 
  Space Administration...........................................    93

Brigadier General John J. Kelly, Deputy Under Secretary for 
  Oceans and Atmosphere, National Oceanic and Atmospheric 
  Administration.................................................    95

Dr. James F. Decker, Principal Deputy Director, Office of 
  Science, U.S. Department of Energy.............................    96


      K-12 SCIENCE AND MATH EDUCATION ACROSS THE FEDERAL AGENCIES

                              ----------                              


                        THURSDAY, MARCH 30, 2006

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    K-12 Science and Math Education

                      Across the Federal Agencies

                        thursday, march 30, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, March 30, 2006, the Committee on Science of the U.S. 
House of Representatives will hold a hearing to examine how federal 
agencies can improve their individual and collective efforts to 
strengthen K-12 science and math education.

2. Witnesses

Ms. Margaret Spellings is the Secretary of the U.S. Department of 
Education (ED).

Dr. Arden L. Bement is the Director of the National Science Foundation 
(NSF).

Ms. Shana Dale is the Deputy Administrator of the National Aeronautics 
and Space Administration (NASA).

Brigadier General John J. Kelly (ret.) is the Deputy Undersecretary of 
Commerce for Oceans and Atmosphere of the National Oceanic and 
Atmospheric Administration (NOAA).

Dr. James Decker is the Principal Deputy Director of the Office of 
Science at the U.S. Department of Energy (DOE).

3. Overarching Questions

        <bullet>  To what extent and how are the federal agencies 
        involved in K-12 math and science education coordinating their 
        efforts? What are their individual roles? To what extent and 
        how do they ensure that their individual programs are 
        complementary?

        <bullet>  Are there uniform evaluation tools that agencies do 
        or could use to determine the effectiveness of their programs?

        <bullet>  How do individual federal agencies strike a balance 
        in their portfolios among K-12 math and science programs that 
        are designed to encourage students who show great promise and 
        interest, programs that are designed to help students who are 
        struggling academically, and programs that are designed to 
        attract girls, under-represented minorities or students from 
        low-income families? Should every federal agency administer 
        programs for each subgroup of students or are some agencies 
        better served by targeting specific populations, such as those 
        who are academically promising and/or under-represented?

4. Background

Brief Overview
    The quality of K-12 math and science education has been a growing 
national concern. Most recently, the National Academy of Sciences' 
report Rising Above the Gathering Storm pointed to the relatively poor 
performance of U.S. students in math and science as a threat to the 
Nation's long-term economic health. Numerous reports in recent years, 
including the Academy report, have called for renewed efforts to 
improve K-12 education, particularly by attracting top students into 
teaching and improving the training of both current and future teachers 
to deepen their understanding of, and comfort with, math and science 
content. Prompted by such recommendations, the Science Committee has 
pushed for years to enhance federal K-12 math and science education 
efforts, particularly at NSF.
    NSF and ED are the two primary federal agencies with responsibility 
to improve K-12 math and science education. Other federal agencies have 
also run a variety of programs to improve and promote math and science 
education, often because they have scientists and research facilities 
that can be tapped for such activities. Those agencies, including DOE 
and the NOAA, also feel a commitment to keeping science strong in the 
U.S. since performing research is part of their missions. In addition, 
Congress has earmarked funds for education programs and grants in some 
of the agencies, particularly NOAA and NASA.
    The range of education programs across the agencies can be seen as 
a strength--allowing program diversity and ensuring that all available 
federal science resources are contributing to K-12 education. But that 
diversity has also provoked concerns periodically that the federal 
efforts are uncoordinated and include many programs that are too small 
to make a difference or are otherwise ineffective and that the 
education programs are a distraction from agencies' primary missions. A 
report released by the Government Accountability Office (GAO) in 
October 2005 found that at least 13 agencies conduct programs designed 
to strengthen math and science education and raised questions about the 
lack of evaluation of a number of the programs. In February 2006, 
Congress created the Academic Competitiveness Council (ACC), a cabinet-
level group tasked with coordinating and evaluating the federal role in 
math and science education.
    Coordination could provoke a different set of concerns if it leads 
to all federal programs fitting a single mold, dominated by No Child 
Left Behind, which some critics charge has led to a reduced focus on 
science education in the schools. For example, a survey released this 
week by the Center on Education Policy found that most schools are 
increasing their focus on reading and math by reducing instruction in 
other areas, including science. However, others point out that 
proficiency in math is needed to progress in science so that the 
emphasis on math skills hardly detracts from the effort to improve 
science achievement. Moreover, testing in science under the No Child 
Left Behind Act will begin in 2007, and the preparation for these 
assessments should place a renewed emphasis on science, as seen in the 
design of new science tests and the reform of science courses to align 
them to state standards.
GAO Report
    In October 2005, the Government Accountability Office (GAO), at the 
request of Rules Committee Chairman David Dreier, attempted to 
inventory the federal programs that were designed to increase the 
number of students or graduates in science, technology, engineering and 
mathematics (STEM) fields or to improve the quality of education in 
those areas. The GAO report examined education programs at all levels, 
from kindergarten to graduate school, not just the K-12 fields that are 
the focus of this hearing. Among other things, GAO found the following:

        <bullet>  In fiscal year 2004 (FY04), 13 agencies\1\ spent a 
        total of $2.8 billion for 207 programs that were designed to 
        increase the number of students and graduates or to improve 
        educational programs in STEM fields.
---------------------------------------------------------------------------
    \1\ The 13 federal agencies are as follows--National Science 
Foundation, Department of Energy, National Aeronautics and Space 
Administration, Department of Commerce, Department of Education, 
Environmental Protection Agency, National Institutes of Health, 
Department of Agriculture, Department of the Interior, Department of 
Homeland Security, Department of Transportation, Indian Health Service, 
and Health Resources and Services Administration. The Department of 
Defense, while identified by GAO as having STEM programs, did not 
participate.

        <bullet>  Of the 207 programs, 103 had not been evaluated, 
        including 17 programs that had been operating for more than 15 
---------------------------------------------------------------------------
        years.

        <bullet>  94 of the programs identified were funded at less 
        than $1 million and 51 were funded between $1 and $5 million.

        <bullet>  Six federal agencies spent the bulk (about $2.6 
        billion) of the reported funding for STEM education. The 
        largest amount of funding was at the National Institutes of 
        Health, followed by NSF, NASA, ED, the Environmental Protection 
        Agency, and the Health Resources and Services Administration 
        (within the Department of Health and Human Services). The 
        remaining agencies spent a combined total of $154 million.

    According to GAO, the report took one year to complete due, in 
large part, to the amount of time agencies took to provide GAO with 
comprehensive information on their education programs. Also, since GAO 
relied primarily on self-reporting by agencies, the inventory is not a 
definitive list of STEM education programs or activities. (For example, 
the Science Committee is aware of programs that were not included in 
the survey, including several programs at NASA and the Department of 
Defense.)
Academic Competitiveness Council
    Partly in response to the GAO report, Congress established the 
Academic Competitiveness Council (ACC), a cabinet-level group tasked 
with coordinating and evaluating the federal role in math and science 
education. Established in the Budget Deficit Reduction Act (Public Law 
109-171), the ACC is chaired by the Secretary of Education and includes 
``officials from federal agencies with responsibilities for managing 
existing federal programs that promote mathematics and science.'' ACC 
is responsible, within a year, for (1) identifying all federal programs 
with a mathematics or science focus; (2) identifying the target 
populations being served by such programs; (3) determining the 
effectiveness of such programs; (4) identifying areas of overlap or 
duplication in such programs; and (5) recommending ways to efficiently 
integrate and coordinate such programs.
    The ACC met for the first time on March 6, 2006, about a month 
after the Act creating it was signed into law. The ACC, in conjunction 
with the Office of Management and Budget, will inventory existing 
federal math and science education programs, sort these programs by 
program focus or goals, and then evaluate the effectiveness of the 
programs. Within one year, the ACC is required to submit to each 
Congressional committee with jurisdiction over a federal program 
identified as promoting math and science education a report detailing 
the ACC findings and recommendations, including recommendations for 
legislative or administrative action. The Budget Deficit Reduction Act 
provided ED with $50,000 to support the ACC's activities.
    Prior to the creation of the ACC, there was already an existing 
mechanism for coordinating math and science education, established by 
Executive Order. The National Science and Technology Council (NSTC) is 
a cabinet-level council, overseen by the White House Office of Science 
and Technology Policy (OSTP), which serves as the principal means to 
coordinate the federal research and development enterprise. NSTC 
established a subcommittee on education in 2003, but it has been 
relatively dormant.
American Competitiveness Initiative
    In addition to proposing the doubling of the combined budgets of 
the NSF, the National Institute of Standards and Technology, and DOE's 
Office of Science over the next 10 years, President Bush's American 
Competitiveness Initiative (ACI), proposes the creation and expansion 
of a number of programs specifically targeted at improving K-12 math 
and science education. To implement ACI, the President's budget request 
proposes $380 million for programs at ED, including:

        <bullet>  expansion of the Advanced Placement/International 
        Baccalaureate (AP/IB) program to support an additional 70,000 
        AP/IB math and science teachers;

        <bullet>  creation of an Adjunct Teachers Corps to encourage up 
        to 30,000 math and science professionals to become adjunct high 
        school teachers;

        <bullet>  creation of ``Math Now for Elementary Students'' to 
        help elementary school teachers learn proven methods and 
        practices of math instruction; and,

        <bullet>  creation of ``Math Now for Secondary Students'' to 
        promote research-based instruction to improve upper level math 
        proficiency.

    ACI also provides for the evaluation of federal science, 
technology, engineering and math programs, and proposes an additional 
$5 million to support the ACC's evaluation efforts.
Key Federal Agencies
    NSF and ED are the two agencies of the Federal Government that 
share primary responsibility for programs in K-12 education. While ED 
is responsible for K-12 education across all disciplines and is 
experienced in addressing the systemic problems of education, including 
such varied challenges as student diversity (i.e., English language 
learners, students from low socioeconomic backgrounds and students with 
special needs) and school financing, NSF is specifically concerned with 
improving math and science education. Another key difference between 
the two agencies is that ED funding is generally distributed by 
statutory formulas (usually based on student population and income), 
while NSF funding is competed for nationally and projects are chosen by 
peer review.
            U.S. Department of Education
    ED currently administers a budget of about $88.9 billion per year 
(that covers more than K-12 programs)--$57.6 billion in discretionary 
appropriations and $31.3 billion in mandatory spending--and operates 
programs that touch on every area and level of education. ED's current 
programs strongly emphasize equitable educational opportunity for all, 
and most major K-12 spending programs are designed either to equalize 
available funding among schools or school districts or to help specific 
groups of students, such as English language learners or those with 
special needs. In addition, while some ED programs, such as Reading 
First, are subject-specific, the vast majority of ED's programs allow 
states and school districts flexibility in choosing what sorts of 
programs or disciplines federal funding will be used to support.
    The Math and Science Partnership at ED (ED MSP) is the one program 
that specifically seeks to increase the academic achievement of 
students in mathematics and science by enhancing the content knowledge 
and teaching skills of classroom teachers. Allowable uses of funding 
include professional development opportunities, recruitment bonuses and 
performance incentives for qualified math and science teachers, and 
scholarships for advanced course work in math and science. Funding for 
ED MSP ($182 million in FY06), is, like most ED programs, distributed 
from the Federal Government to all 50 states by a statutory formula, 
based on state factors such as population and poverty. The amount of 
funds awarded to the states in FY05 ranged from approximately $888,000 
for small states like Delaware to $24 million for large states like 
California. Each state then distributes the funding, on a competitive 
basis, to partnerships of school districts, schools, and an institution 
of higher education. According to Congressional Research Service 
analysis of ED awards, funding at the local level can range from 
$20,000 to $3.3 million, but it is not clear if this amount is for a 
single year or for a multi-year award.
            National Science Foundation
    The National Science Foundation Act of 1950, which established NSF, 
directs NSF to support and strengthen math and science education 
programs at all levels. Other statutes, notably the Education for 
Economic Security Act (Public Law 98-377, signed in 1984), have 
expanded this authority. Most recently, the Science Committee created 
additional education programs at NSF in the National Science Foundation 
Authorization Act of 2002 (Public Law 107-368).
    NSF carries out its K-12 mission by supporting a variety of math 
and science education activities, including teacher training (both in-
service and pre-service), curriculum development, education research, 
and informal education at museums and science centers. A recent 
reorganization of K-12 education has divided NSF's activities into 
three categories: the development of more effective tests in math and 
science, improving science teaching and learning, and translating the 
results of education and cognitive research into classroom practice.
    Like all NSF programs, funds for education projects are awarded 
through a national, competitive process that draws on a wide variety of 
experts from outside government for peer review of proposed activities. 
While most federal agencies make little effort to evaluate the 
effectiveness of their math and science education programs, NSF 
requires an evaluation component to be included in individual education 
projects, and also has commissioned evaluations of NSF's overall NSF 
education programs. NSF has sought outside advice on how to perform the 
evaluations. For example, a National Academy of Sciences committee in 
2004 provided recommendations to further improve program and project 
evaluations at NSF.
    Most NSF education programs are housed in the Education and Human 
Resources (EHR) Directorate. The President's budget proposes $816 
million for EHR in FY07, a level that only begins to restore cuts EHR 
experienced in previous years (dropping from $944 million in FY04 to 
$797 million in FY06). Funding for the K-12 programs within EHR 
experienced similar declines in that period, with ``formal'' K-12 
programs\2\ going from $118 million in FY04 to $93 million in FY06 and 
the NSF's Math and Science Partnership Program (NSF MSP) dropping from 
$139 million in FY04 to $63 million in FY06.
---------------------------------------------------------------------------
    \2\ The ``formal K-12 programs'' are the Instructional Materials 
Development Program, the Teacher Professional Continuum Program, and 
the Centers for Learning and Teaching Program, which were combined to 
form the Discovery Research K-12 program in the recent reorganization 
of NSF EHR.
---------------------------------------------------------------------------
    President Bush proposed the creation of the NSF MSP as part of his 
original No Child Left Behind initiative, and NSF MSP was authorized as 
part of the NSF Authorization Act of 2002. Congress then created a 
complementary (and similarly titled) program at ED as part of the No 
Child Left Behind Act. The NSF MSP program funds partnerships between 
universities and local school districts to strengthen the content 
knowledge of elementary and secondary schoolteachers. The grantees are 
expected to run innovative reform programs that, if successful, would 
be the key to large-scale reform at the State level. Unlike ED MSP, NSF 
MSP funds are competitively awarded at the national level, and the 
grants range from $2.5 million per year for up to five years for 
targeted programs to $7 million per year for comprehensive efforts to 
improve math and science teaching and learning across the K-12 
continuum.
    In addition to NSF MSP and the ``formal'' K-12 programs, NSF also 
runs the Robert Noyce Scholarship Program, created by the NSF 
Authorization Act of 2002. The Noyce program awards grants to colleges 
and universities to award scholarships to top math and science majors 
or minors in return for a commitment to teach at the elementary or 
secondary school level two years for each year of support received. 
Universities may also use the grant funds to support programs to help 
these prospective teachers obtain their certification and prosper in 
their new profession. In FY06, the program was funded at $9 million, 
and $10 million is requested for FY07.
    Outside of EHR, NSF supports education through its ``broader 
impacts'' criteria for all research grants awarded through its Research 
and Related Activities account. Applications for NSF research awards 
are reviewed not only to determine the merit of the proposed research 
activity, but also to determine how the activity will promote teaching, 
training and learning, broaden the participation of under-represented 
groups, and provide larger benefits to society.
Other Federal Agencies
            U.S. Department of Energy
    DOE runs its K-12 programs out of both headquarters and its 
National Laboratories, focusing primarily on supporting of mathematics, 
science and engineering education programs by using the personnel, 
facilities, equipment and resources of its laboratories to assist local 
schools, teachers and students. DOE's activities include providing 
research experiences for students intending to become math or science 
teachers, providing training for teachers who agree to become ``teacher 
leaders'' in math and science, and supporting academic competitions in 
science and math for high school students. The impetus for these 
programs often comes from individual National Labs, whose commitment to 
education often depends on the leadership at the lab. According to DOE, 
$86 million was spent on education activities at all levels in FY05, 
with $8 million specifically allocated for K-12 education.\3\
---------------------------------------------------------------------------
    \3\ Additional funding from DOE's undergraduate activities, funded 
at $40 million in FY05, may have supported teacher training in math and 
science but a breakdown of this funding was not available at the time 
of the charter.
---------------------------------------------------------------------------
    DOE's involvement in education, particularly at the graduate level, 
go back to its predecessor agency, the Atomic Energy Commission. 
Congressional support for DOE's educational programs has varied over 
time, with Congress sometimes encouraging these programs and sometimes 
discouraging them. In FY95, Congress appropriated $70 million to the 
DOE Office of Science Education and Technical Information for science 
education activities, including undergraduate research activities at 
DOE laboratories, graduate and faculty fellowships, teacher development 
programs and K-12 outreach. In FY96, Congress abolished the Office of 
Science Education and Technical Information, reduced funding for 
science education, and centralized the remaining education programs 
within the Office of Energy Research (now the Office of Science). In 
FY97, Congress eliminated all funding for university and science 
education programs at DOE but, in FY97 and FY98, required that line 
programs should sponsor the education programs. Most recently, the 
Energy Policy Act of 2005 included a set-aside of 0.3 percent of the 
applied energy program research and development funding to support DOE 
Office of Science education programs, and several new programs were 
created at the undergraduate and graduate levels, again affirming the 
role of the agency in education.
            National Aeronautics and Space Administration
    NASA's organic act, the National Aeronautics and Space Act of 1958, 
directs the agency to expand human knowledge about space. As part of 
this effort, NASA's K-12 education activities include workshops and 
internships for teachers and students offered by NASA's centers, 
professional development for science and math teachers, and providing 
materials and visiting astronauts to schools, museums and science 
centers. Specifically, NASA K-12 education programs include the 
Educator Astronaut Program, which selects three teachers to become 
members of the Astronaut Corps, and the NASA Explorer Schools program, 
which brings together teachers and administrators to improve STEM 
teaching and learning in low-income schools.
    In recent years, NASA education has been organized in a number of 
different ways, from being consolidated into an ``Enterprise'' on par 
with other NASA activities, such as space flight, to being spread out 
throughout the agency. Today, NASA education is centralized in the 
Office of Education, which contains five program areas,\4\ including 
one for Elementary and Secondary Education. Funding for Elementary and 
Secondary Education at NASA totaled $29 million in FY06. (Many NASA 
earmarks are focused on education activities; according to NASA, in 
FY06, 72 earmarks, totaling $82 million, were located within the $162 
million budget of the Office of Education.) The National Aeronautics 
and Space Administration Authorization Act of 2005 (Public Law 109-155) 
requires NASA to have the National Academy of Sciences conduct a review 
and evaluation of NASA's precollege science, technology, and 
mathematics education programs.
---------------------------------------------------------------------------
    \4\ The other program areas include Higher Education, e-Education, 
Informal Education and Minority University Research and Education.
---------------------------------------------------------------------------
    In addition to the activities funded through the Office of 
Education, NASA promotes education and outreach as an integral 
component of every major research and development mission, spending an 
additional $150 million on activities at all educational levels through 
its Mission Directorates. For instance, as part of the Materials 
International Space Station Experiment, NASA researchers worked with 
high school students to analyze the effects of low orbit on a variety 
of materials.
            National Oceanic and Atmospheric Administration
    NOAA's K-12 activities focus on improving understanding of Earth 
and ocean sciences through such activities as teacher training and the 
development of educational materials.
    NOAA's Office of Education serves as the primary point of contact 
for NOAA on education activities and coordinates the programs within 
the agency whose primary purpose is education. The FY06 budget for the 
Office was about $38 million, but there is no breakdown available for 
K-12 education. Historically, many of NOAA's education programs at the 
K-12 level have been funded through Congressional earmarks. The 
Administration believes that earmarks accounted for about half of the 
FY06 budget for the Office.
    Earmarked programs include the creation of a high school Earth 
system science laboratory course ($4 million in FY06), and several 
regional education and training programs to support hands-on 
environmental experiences ($7 million in FY06). Congress has also added 
funding to programs that promote the sciences through scientific 
expeditions, like JASON, which uses live broadcasts to share the 
discoveries of research at sea with students and teachers. Past JASON 
expeditions have ``taken'' students on such missions as an exploration 
of the Titanic and the discovery of zooplankton in Monterey Bay.
    In addition to formal K-12 education activities, NOAA conducts 
informal education through its support of marine sanctuaries and 
reserves, funds lesson plans and teacher professional development in 
ocean sciences, and supports a ``Teacher at Sea'' program, which allows 
elementary teachers to go aboard NOAA research and survey ships to 
deepen their understanding of the ocean.
Legislation
    While this hearing is not designed to focus on any specific 
legislation, several bills have been introduced to strengthen STEM 
education in response to the various reports and commissions on U.S. 
competitiveness. Most of these bills seek to improve K-12 math and 
science education through teacher recruitment or training programs. For 
instance, S. 2198, Protecting America's Competitive Edge (PACE) Act, 
and H.R. 4434, introduced by Congressman Bart Gordon, authorize NSF to 
award scholarships to students majoring in STEM education who 
concurrently pursue their teacher certification, per the 
recommendations of the National Academy of Sciences' Rising Above the 
Gathering Storm report. S. 2197, PACE-Energy, also establishes a 
scholarship program for students in STEM fields and supports the 
creation of a part-time, three-year Master's degree in math and science 
for teachers at DOE, not NSF. In addition, S. 2197 creates other new K-
12 programs at DOE, including incentives to help states create math and 
science ``specialty schools'' and new training and research 
opportunities for K-12 teachers and students at the National 
Laboratories.
    In addition to the competitiveness bills, other relevant introduced 
legislation includes H.R. 50, the NOAA Organic Act, which establishes 
as a NOAA mission educating the public about the Earth's oceans and 
atmosphere and fostering the public's ability to understand and 
integrate scientific information into considerations of national 
environmental issues. The Science Committee passed H.R. 50 last 
session.

5. Questions for Witnesses

    The panelists were each asked to address the following questions in 
their testimony before the Committee:

        <bullet>  What are the one or two most important steps the 
        Federal Government should be taking to improve K-12 science and 
        math education and what is the role of your agency in taking 
        those steps? What is the single most effective program your 
        agency runs to help take those steps? How do you know that that 
        program has been effective?

        <bullet>  In general, how does your agency evaluate its 
        programs? Have you examined the evaluation techniques of other 
        federal agencies and departments and, if so, do they have 
        techniques that you have made use of or plan to make use of?

        <bullet>  How have you ensured that your agency's activities in 
        K-12 math and science complement those of other federal 
        agencies and departments in the following areas:

                1)  attracting students to the teaching profession;

                2)  providing pre- and in-service teacher training;

                3)  developing curricula; and

                4)  supporting informal learning.

        <bullet>  How do you decide how to strike a balance in your 
        portfolio among K-12 math and science programs that are 
        designed to encourage students who show great promise and 
        interest, programs that are designed to help students who are 
        struggling academically, and programs that are designed to 
        attract girls, under-represented minorities or students from 
        low-income families (whatever their level of proficiency)? 
        Should every federal agency administer programs for each 
        subgroup of students or are some agencies better served by 
        targeting specific populations, such as those who are 
        academically promising and/or under-represented?
    Chairman Boehlert. The hearing will come to order.
    I want to welcome everyone here this morning to what I 
think is an historic hearing. Never before have all the primary 
federal agencies with responsibility for science and math 
education appeared together before the Congress, either the 
House or the Senate. This is history-making.
    We wanted to bring these five agencies together publicly to 
make a few key points. First, all five of these agencies have 
important roles to play in K-12 science and math education. 
Second, they each need to design their programs by drawing on 
their unique strengths and resources. We need not, and indeed 
should not, have a single, monolithic way of approaching 
education. And third, while we need a multiplicity of programs, 
those efforts need to be coordinated.
    Coordination doesn't mean that every program has to fit a 
single mold, and coordination doesn't mean that agencies should 
not have some overlapping efforts. As with research funding, a 
strength of our system is that more than one agency may be 
working in a field. But coordination does mean that any overlap 
should be intentional and justified, and that agencies should 
be drawing on each other's expertise and experiences.
    Moreover, every agency must be evaluating its programs, and 
must share both the evaluation methods and results, so that we 
can continue to improve both the way programs are evaluated and 
the evaluations themselves.
    What the Committee is going to want to hear today is how 
each agency views its role in K-12 science and math education, 
how it coordinates that role with others, and how it evaluates 
its programs.
    The Committee will be keenly interested in your answers, 
because every single one of us believes that K-12 science and 
math education is the ultimate key to our future prosperity and 
strength, and one might say survival as a Nation. This is, 
indeed, a national security issue of the highest magnitude. As 
the National Academy pointed out in its recent ``Rising Above 
the Gathering Storm'' report, improvement of K-12 education 
needs to be the keystone of an innovation agenda.
    Over the next two months, this committee will develop and 
report out legislation designed to enhance our nation's efforts 
in this area. Mr. Gordon has already introduced legislation, as 
I am sure he will point out, and rightly so, and we will be 
doing so as well in the near future. I think Mr. Gordon and I 
are in complete agreement that a focus of that legislation 
needs to be doing a better job of attracting more top science 
students and math into teaching and enhancing the knowledge of 
current teachers in those areas.
    I think there are a number of current programs we need to 
expand that already do that, such as the Noyce Scholarship 
Program at the National Science Foundation, I might add 
inadequately funded, but a good program, and I am sure there 
are other examples that could be expanded that we will hear 
about today. We don't have to reinvent the wheel, but we do 
need to be sure it can cover more ground.
    One element of achieving that is, of course, ensuring that 
our education programs are adequately funded, and I would just 
note that what I have said before: this committee is committed 
to seeking better funding for NSF's education programs. A lot 
of people are wishing all the time for improvements in 
education. Well, all the wishes in the world won't do the job 
if the resources don't support those wishes. The programs are 
underfunded in what, in most ways, is a very bold and forward-
looking Fiscal Year 2007 budget proposal for science and math.
    I know the--excuse me, I know the Administration shares our 
commitment to revitalizing science and math education, but it 
will take some more money and some more ideas beyond what has 
already been suggested. And I look forward to working with all 
of our witnesses today to build on the excellent foundation the 
President has founded. But I don't just like having a good 
solid foundation. I want to build on that foundation. Once 
again, let me stress, I view this as a national security 
imperative.
    And I hope this will not be the last time the four of you 
appear before us together, because we need to work as a team. 
That has to be our approach, to pursue a coordinated, yet 
pluralistic approach to education, to ensure our nation's 
future success.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone here this morning to what I think is an 
historic hearing. Never before have all the primary federal agencies 
with responsibility for science and math education appeared together 
before the Congress.
    We wanted to bring these five agencies together publicly to make a 
few key points. First, all five of these agencies have important roles 
to play in K-12 science and math education. Second, they each need to 
design their programs by drawing on their unique strengths and 
resources; we need not, and indeed should not, have a single, 
monolithic way of approaching education. And third, while we need a 
multiplicity of programs, those efforts need to be coordinated.
    Coordination doesn't mean that every program has to fit a single 
mold, and coordination doesn't mean that agencies should not have some 
overlapping efforts. As with research funding, a strength of our system 
is that more than one agency may be working in a field. But 
coordination does mean that any overlap should be intentional and 
justified and that agencies should be drawing on each other's expertise 
and experiences.
    Moreover, every agency must be evaluating its programs, and must 
share both the evaluation methods and results, so that we can continue 
to improve both the way programs are evaluated and the evaluations 
themselves.
    What the Committee is going to want to hear today is how each 
agency views its role in K-12 science and math education, how it 
coordinates that role with others, and how it evaluates its programs.
    The Committee will be keenly interested in your answers because 
every single one of us believes that K-12 science and math education is 
the ultimate key to our future prosperity and strength as a nation. As 
the National Academy pointed out in its report Rising Above the 
Gathering Storm, improvement of K-12 education needs to be the keystone 
of an innovation agenda.
    Over the next two months, this committee will develop and report 
out legislation designed to enhance our nation's efforts in this area. 
Mr. Gordon has already introduced legislation, as I'm sure he will 
point out, and we will be doing so as well. I think Mr. Gordon and I 
are in complete agreement that a focus of that legislation needs to be 
doing a better job of attracting more top science students and math 
into teaching and enhancing the knowledge of current teachers in those 
areas.
    I think there are a number of current programs we need to expand 
that already do that, such as the Noyce Scholarship Program at the 
National Science Foundation (NSF). And I'm sure there are other 
examples of programs that could be expanded that we will hear about 
today. We don't have to reinvent the wheel, but we do need to be sure 
it can cover more ground.
    One element of achieving that is, of course, ensuring that our 
education programs are adequately funded, and I would just note now 
what I've said before: this committee is committed to seeking better 
funding for NSF's education programs. They are underfunded in what in 
most other ways is a very bold and forward-looking fiscal 2007 budget 
proposal for science and math.
    I know the Administration shares our commitment to revitalizing 
science and math education. But it will take some more money and some 
more ideas beyond what the Administration has suggested. And I look 
forward to working with all of our witnesses today to build on the 
excellent foundation the President has provided.
    I hope this will not be the last time that all of you appear before 
us together because we need to work as a team to pursue a coordinated, 
yet pluralistic approach to education to ensure our nation's future 
success.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman. Before I begin my 
statement, I submit a letter signed by the majority of the 
Democratic Members of the Science Committee. This letter 
asserts the Minority Members' rights under the House Committee 
Rules to select additional witnesses to be called to testify on 
the pending subject matter, for at least one additional 
hearing.
    Now, those are the magic words. Let me tell you what we are 
talking about. The Majority has the right to call all 
witnesses, or to set up all hearings. The Minority has no 
rights to set up a hearing, but the Minority does have a right 
to have one little witness. The Majority can have two 
witnesses, 20 witnesses, 40 witnesses, but the Minority is 
protected, in that they have one witness. Now, it seems if we 
are going to be talking about math and science education here 
today, that it wouldn't be unreasonable to have a teacher join 
this panel from a real world view. We were denied that 
opportunity, and so, for that reason, I will request that we 
have another opportunity to do that.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I say that for all of you that are here, maybe here for the 
first time, there is no animosity between the Chairman and the 
Ranking Member, but we have certain responsibilities. Now, with 
that said, let me do what I normally do after the Chairman 
makes his remarks. I concur wholeheartedly and enthusiastically 
with his remarks. I compliment the Chairman and Congressman 
Ehlers, particularly on their leadership in going to the 
Administration and making them aware of the real need, and the 
strong support in Congress for additional STEM funding. They 
were leaders. They helped get this done, and I compliment them 
for that. And I am pleased that we are having this hearing 
today to review the efforts to improve the K-12 STEM education.
    The importance of STEM education for the Nation's future 
well being has been stressed in many reports over the past few 
years, most recently by the Augustine report. We are all 
familiar with now, the National Academy's ``Rising Above the 
Gathering Storm.'' The Gathering Storm report laid out specific 
recommendations for actions the Nation needs to take now to 
remain competitive in the 21st Century. The report's key 
recommendation focused on K-12 STEM education, and it 
identifies the area of greatest need: teachers.
    The report points out that 69 percent of middle school 
students in the United States were taught by teachers with 
neither a college major in math, or certification to teach 
math. Similarly, 93 percent of these students receive 
instructions in physical sciences from teachers with no major 
or certificate in the field.
    Two weeks ago, the Research Subcommittee held a hearing on 
undergraduate STEM education. One of the witnesses was Carl 
Wieman, a distinguished physics professor who received the 2001 
Nobel Prize. Dr. Wieman is concerned about science education, 
and has put his money where his mouth is. He is using his Nobel 
award funds to improve the undergraduate physical science 
education programs.
    He has said in the hearing, and I quote: ``Unless you 
improve science education at the college level first, you are 
wasting your time and money on trying to make major 
improvements in K-12.'' I think Dr. Wieman and the Augustine 
report have it exactly right.
    The K-12 STEM education priorities ought to be to improve 
the undergraduate education of new teachers, and to increase 
substantially the professional development opportunities for 
current teachers, in order to raise their subject knowledge and 
their teaching skills.
    The second important message that came out of the Research 
Subcommittee hearing was strong agreement from the panel of 
witnesses that the National Science Foundation should be the 
major player in the federal efforts to improve STEM education. 
Unfortunately, the K-12 STEM education component of the 
President's American Competitiveness Initiative has different 
priorities, and assigns different agency roles.
    It focuses most of the resources on curriculum development, 
and places all responsibility on the Department of Education, 
ignoring potential contributions from the National Science 
Foundation, or other federal agencies that support K-12 STEM 
education efforts.
    I look forward to learning the rationale for these from 
Secretary Spellings and Director Bement, as well as other 
witnesses.
    The Augustine report rightly states that laying the 
foundation for a scientifically literate workforce begins with 
developing outstanding K-12 teachers in science and 
mathematics, and I believe this is a goal that can and must be 
achieved.
    I hope to come away from this hearing having gained 
confidence that the agencies represented here are developing 
plans and programs to help meet that goal.
    Now, Mr. Chairman, let me just tell you the bottom line. 
Once again, I compliment you. I think you had a great deal of 
influence on getting the Administration to come forth with this 
additional STEM funding, but when you look at where they are 
spending it, 70 percent of these new dollars are being spent 
for math curriculum development. Yeah, we need that, but do 70 
percent of the funds need to be in that particular area?
    The other area of concern is, for over 50 years, the 
National Science Foundation has been a leader in K-12 
education. We have an existing program that is acknowledged to 
work, yet over the last few years, the Administration has cut 
it 47 percent. So, if we are going to be taking this new money, 
it would seem that we could best spend it by funding existing 
programs that we know work. That is an opinion, rightly or 
wrong, that I would like for this panel to address.
    And let me say to Secretary Spellings, this is not a 
reflection on you. From all that I--this is our first 
encounter. I don't know we really called this meeting, but our 
first encounter. From all that I have seen, read, and heard, 
you are bringing a common sense to Department of Education, and 
improving that situation there. That is a very important 
Department, but that is a big, unwieldy Department, and it 
seems to me, you have got your hands full, and it would be a 
good day's work just to make, you know, work what you have got 
going there. And so, it is not a reflection on you or your 
ability, or the importance of the Department of Education. It 
is trying to use, I think limited funds in a way that we know 
that works, and letting you use your skills to make the 
Department work better with the responsibilities that you have.
    So thank you all for being here with us today.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Mr. Chairman, I am pleased you have convened this hearing to review 
federal efforts to improve K-12 science, technology, engineering and 
mathematics education--or STEM education for short.
    The importance of STEM education for the Nation's future well being 
has been stressed in many reports over the past few years, most 
recently by the Augustine report from the National Academies, Rising 
Above the Gathering Storm.
    The Gathering Storm report lays out specific recommendations for 
actions the Nation needs to take now to remain competitive in the 21st 
century. The report's key recommendations focus on K-12 STEM education, 
and it identifies the area of greatest need--teachers.
    The report points out that 69 percent of middle school students in 
the U.S. are taught by teachers with neither a college major in math 
nor certification to teach math. Similarly, 93 percent of these 
students receive instruction in physical sciences from teachers with no 
major or certification in the field.
    While things are a bit better for high school students, we still 
find 31 percent of students nationally are taught math by teachers 
without majors or certification in math, and 63 percent by teachers 
without majors or certification in the physical sciences.
    Two weeks ago the Research Subcommittee held a hearing on 
undergraduate STEM education. One of the witnesses was Carl Wieman, a 
distinguished physics professor who received the 2001 Nobel Prize in 
Physics. Dr. Wieman is concerned about science education and has put 
his money where his mouth is. He has been using his Nobel award to fund 
efforts to improve undergraduate physics education.
    He said at the hearing, and I quote, ``unless you improve science 
education at the college level first, you are wasting your time and 
money on trying to make major improvements in K-12 [education].''
    I think Dr. Wieman and the Augustine report have it exactly right.
    The K-12 STEM education priorities ought to be to improve the 
undergraduate education of new teachers and to increase substantially 
the professional development opportunities for current teachers, in 
order to raise their subject knowledge and teaching skills.
    The second important message that came out of the Research 
Subcommittee hearing was strong agreement from the panel of witnesses 
that NSF should be a major player in federal efforts to improve STEM 
education. Unfortunately, the K-12 STEM education component of the 
President's American Competitiveness Initiative has different 
priorities and assigns different agency roles.
    It focuses most of its resources on curriculum development and 
places all responsibility on the Department of Education, ignoring 
potential contributions from NSF or other federal agencies that support 
K-12 STEM education efforts.
    I look forward to learning the rationale for these choices from 
Secretary Spellings and Director Bement, as well as from our other 
witnesses.
    To gain the maximum advantage from the relatively small federal 
investment in K-12 STEM education, it is important to identify and 
concentrate on replicating programs that work. This is only possible if 
effective mechanisms are in place for program coordination, planning, 
and assessment across the government.
    Although such mechanisms exist on paper, there is little evidence 
they actually work. The subcommittee charged with this role under the 
National Science and Technology Council has been invisible.
    A new entity, the Academic Competitiveness Council, or ACC is now 
being established as a result of legislation passed this year. Chaired 
by the Secretary of Education, it was tasked to identify federal STEM 
programs, evaluate program effectiveness, identify duplication, and 
recommend how to integrate and coordinate these programs. In short, the 
ACC was tasked to do what the NSTC subcommittee was presumably 
responsible for doing.
    I hope to hear what the status is of this new effort at 
coordination and planning and to find out whether there is any basis 
for hope that it may succeed. Without strong congressional oversight, 
I'm not confident the ACC will be any improvement.
    The Augustine report rightly states that ``laying the foundation 
for a scientifically literate workforce begins with developing 
outstanding K-12 teachers in science and mathematics.'' I believe this 
is a goal that can and must be achieved. I hope to come away from his 
hearing having gained confidence that the agencies represented here are 
developing plans and programs to help meet that goal.
    Mr. Chairman, thank you, and I yield back my time.

    Chairman Boehlert. Thank you very much, Mr. Gordon.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    I am pleased the Committee is holding this hearing today. 
Bolstering the science, technology, engineering, and math education of 
our children is one of the most important issues facing our nation. 
Without a strong education in these areas, our country will not thrive. 
I am thrilled that many of my colleagues and the Administration 
recognize the need and are taking steps to address K-12 STEM 
educational improvements.
    Mr. Chairman, I strongly support the President's call to maintain 
the competitive ability of the United States in an increasingly 
innovative world economy. His American Competitiveness Initiative (ACI) 
requests focused funding on areas that will improve STEM education and 
promote domestic innovation and economic productivity. It is a bold and 
ambitious approach to keeping America at the forefront of research and 
education by increasing the numbers of highly qualified math and 
science teachers, expanding high school advanced placement offerings, 
and providing workforce skills training to some 800,000 workers 
annually.
    While I am heartened by the commitment the Administration's request 
shows for the fundamental research budget at National Science 
Foundation (NSF), I would like to register my concern that the 
education programs at the NSF as well as other agencies have not been 
included in the ACI. NSF is the primary federal supporter of science 
and math education; it underwrites the development of the next 
generation of scientists and engineers. While the overall budget of NSF 
increases almost eight percent, the Education and Human Resources 
directorate experiences a modest 2.5 percent increase and a dramatic 
restructuring. This is a continuing, but distressing, trend for NSF to 
move away from their K-12 educational mission and to focus solely on 
graduate education and activities to broaden participation in STEM 
fields. Decreasing the role of NSF in education seems very shortsighted 
when we are currently facing the challenge of adequately preparing our 
students to enter science and technology fields.
    The ACI dedicates new funds to a ``Math Now'' Initiative to improve 
math in elementary and middle schools. While I am certainly pleased the 
President is focusing on this area at the Department of Education, I 
believe we need to have a parallel ``Science Now'' Initiative to 
isolate and promote effective science teaching. Tackling the 
disciplines one by one does a disservice to our students. Even with our 
limited resources, we must find ways not to rob a child of science 
education because we believe they should learn other subjects first. 
Each child deserves a strong background in math, reading and science. A 
Science Panel could also examine the issue of high school sequencing of 
science course work. Because our nation is extremely transitory, 
coupled with the local structure of education, a student who changes 
school districts may miss a year of science because the course work is 
not offered in the same order. There must be an optimal sequence to 
offer such course work and a Science Panel could help determine this.
    The emphasis today is coordination. It is imperative that the 
agencies work together on STEM education, acknowledging common goals 
and leveraging limited resources. I look forward to hearing from our 
witnesses how their agencies are coordinating their STEM education 
efforts, and about their unique strengths.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to review federal programs that support science, 
technology, engineering and mathematics (STEM) education at K-12 grade 
levels.
    Building a high quality education system today is the key to 
ensuring a strong future for America. Today's hearing will closely 
examine the focus and priorities of current STEM education programs 
because the quality of K-12 math and science education has been a 
growing national concern.
    Most recently, the National Academy of Sciences' report Rising 
Above the Gathering Storm pointed to the relatively poor performance of 
U.S. students in math and science as a threat to the Nation's long-term 
economic health. Numerous reports in recent years, including the 
Academy report, have called for renewed efforts to improve K-12 
education, particularly by attracting top students into teaching. 
Further, studies suggest the need to improve the training of both 
current and future teachers to enrich their understanding of the math 
and science curriculum. As a senior Member of the Science Committee, I 
have supported increased funding for federal K-12 math and science 
education efforts to ensure that our students--the future scientists, 
technologists, engineers, mathematicians, workers, and others 
responsible for our nation's future innovations, our national security, 
our economy, and our quality of life-receive a world class education in 
the sciences and mathematics.
    The Department of Education and NSF are the two primary federal 
agencies with responsibility to improve K-12 math and science 
education. However, the President's American Competitiveness Initiative 
(ACI) requests $380 million for STEM education activities, all at the 
Department of Education. Does this imply that the other agencies that 
support STEM education do a poor job at administering effective 
education programs?
    Further, STEM education activities across agencies are supposed to 
be coordinated by the Education and Workforce Development Subcommittee 
of the National Science and Technology Council's (NSTC) Committee on 
Science. However, I am unhappy to learn that little planning and 
coordination has been carried out by the subcommittee. I would like to 
know what has the subcommittee been doing since its establishment in 
2003?
    Last, I would like to express my concerns with the findings of a 
Government Accountability Office (GAO) report done last October that 
revealed 103 of 207, or almost half, of the current STEM education 
programs have never been evaluated, including seventeen programs that 
have been operating for more than fifteen years.
    As an oversight committee, I hope we can work together to assist 
the federal agencies to coordinate their efforts to ensure their 
individual programs complement one another, without losing their 
effectiveness or focus. Our children's education is not only the key to 
their personal success, but also to the success of our country's 
economic growth.
    I look forward to hearing the testimony from the witnesses.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    I welcome the witnesses. Today's hearing is valuable because it 
gathers together leaders of several federal agencies with the potential 
to make major changes in STEM education in America.
    The issue of K-12 education in science, technology, engineering, 
and mathematics (also called STEM), is of critical importance.
    America is losing is competitiveness in these areas, as is 
evidenced by a loss of jobs in knowledge-intensive industries.
    My District, the 30th District of Texas, contains a majority of 
individuals who belong to racial and ethnic minorities.
    These minorities represent a tremendous untapped resource of 
domestic STEM talent.
    The Federal Government can do more when it comes to encouraging 
minorities to pursue STEM careers.
    I would like to see greater collaboration and cooperation among the 
federal agencies, especially with regard to minority outreach. 
Collaboration between government and industry should occur to a greater 
extent, and I would like to know how the Science Committee can 
facilitate those important partnerships.
    Teachers who are well-paid, well-prepared and passionate about STEM 
should be in our classrooms, inspiring students at the elementary and 
middle school levels.
    STEM should be presented within the context of the thrill of 
discovery and challenge of creativity, not only the drudgery of 
memorization.
    Ranking Member Gordon has introduced several pieces of legislation 
to encourage teacher development and strengthen our STEM education 
workforce.
    I have co-sponsored that legislation and urge Congress to move on 
those good efforts.
    As the Science Committee strives to direct and encourage policies 
to strengthen federal efforts to improve STEM education, it is my hope 
that today's witnesses will benefit from this exchange of ideas and be 
able to work together, in partnership with Congress, to better serve 
America's youth.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    [The prepared statement of Ms. Woolsey follows:]

           Prepared Statement of Representative Lynn Woolsey

    Mr. Chairman, thank you for holding today's hearing. Math and 
science education is a critical subject for our nation's future.
    In It's a Flat World, After All Thomas Friedman explained that 
America's historical economic advantages have disappeared now that 
``the world is flat, and anyone with smarts, access to Google, and a 
cheap wireless laptop can join the innovation fray.''
    In the 1800s, economic competition was local. By the 1900s, it was 
national. And today, as we know, economic competition is international.
    People in my hometown of Petaluma aren't competing for jobs just 
with people in San Francisco, or even in Chicago or New York--they are 
competing with people in New Delhi and Beijing.
    Which means that for our country to continue to lead the world in 
innovation, we must make our education system the best in the world.
    In particular, we must be the best in math and science, which are 
more important than ever as we move further into the information age. 
And so, I look forward to hearing what our witnesses have to say about 
their efforts in this area.
    But, I must also remind everyone that at the same time that the 
President has touted his American Competitiveness Initiative, he has 
frozen funding for early childhood education, underfunded the No Child 
Left Behind Act by $55 billion, and cut student aid by $12 billion.
    Those numbers represent our failure to help millions of low- and 
middle-income children realize their potential and their dreams.
    And that's bad not only for those children and their families, but 
it is bad for American competitiveness.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Chairman Boehlert and Ranking Member Gordon, thank you for holding 
this important hearing today. I also thank the witnesses for making the 
time to be with us today. I only wish that it would have been possible 
to have some witnesses from outside the Administration who would be 
free to give us an independent assessment of the current STEM education 
programs that we have in place and the proposals that the President has 
put forth in his budget and State of the Union address. I believe that 
an outside perspective would have been very useful in informing the 
Committee, and I am disappointed that the Minority was not permitted 
one here today.
    There are a number of major questions that I hope to hear answers 
to today. The President's American Competitiveness Initiative focuses 
almost exclusively on the development of curriculum for math, while the 
Augustine Report suggests that focusing on teacher education and 
professional development are the greatest areas of need. Why does this 
difference exist?
    The budget request de-emphasizes the role of the National Science 
Foundation in K-12 STEM education, while at the same time evaluations 
have shown that the Math and Science Partnerships program has produced 
substantial improvements in student performance and all NSF programs 
score highly in assessments. What is the motivation for this change at 
NSF?
    And while the ACI includes $380 million in new funding for STEM 
education programs at the Department of Education, at the same time the 
budget request cuts over $1 billion in funding for several programs 
that improve science and math achievement and improve the chances 
under-represented students will attend and graduate from college. How 
is this budget consistent with the President's statement in the 
description of the American Competitiveness Initiative that ``the 
bedrock of America's competitiveness is a well-educated and skilled 
workforce''?
    I hope that we will get some answers to the serious questions that 
have been raised, although I am skeptical that this panel of 
Administration-only witnesses will provide those answers. I believe 
that we will need to hold future hearings on this matter and bring in 
some independent, outside voices to provide additional perspective on 
these issues.

    Chairman Boehlert. And now, for our distinguished 
facilitators. The panel consists of: Ms. Margaret Spellings, 
Secretary of the U.S. Department of Education, Madam Secretary; 
Dr. Arden Bement, Director of the National Science Foundation, 
Doctor; Ms. Shana Dale, the Deputy Administrator of the 
National Aeronautics and Space Administration, welcome home; 
Brigadier General John Kelly, the Deputy Undersecretary for 
Oceans and Atmosphere of the National Oceanic and Atmospheric 
Administration, General; and Dr. James Decker, the Principal 
Deputy Director of the Office of Science at the U.S. Department 
of Energy, Dr. Decker.
    It is good to see you all here, and it is good to see this 
team together, and it is so important that this team work well 
together, and unlike in the past, when I can recall days when 
we had to introduce people from the Department of Education to 
the National Science Foundation, including at the very top, 
supposedly working together, the first time they ever met each 
other. That is not the case with this panel. You work well 
together, and we want to help you work even better, more 
effectively.
    So with that, we will go first to you, Madam Secretary.

 STATEMENT OF MS. MARGARET SPELLINGS, SECRETARY, DEPARTMENT OF 
                           EDUCATION

    Secretary Spellings. Thank you, Mr. Chairman. I appreciate 
the opportunity to be here. Congressman Gordon, thank you for 
your comments. I look forward to our dialogue today.
    Thank you to each Member of the Committee, and thank you 
for inviting me today. I would like to congratulate you first, 
Mr. Chairman, on your 24 years of service to this Congress and 
to the American people, and I hope that whatever your life 
holds next, that we will not lose your very strong voice for 
children and competitiveness, and all that we have to do 
together, so please bear that in mind.
    I appreciate the opportunity to discuss the President's 
Competitiveness agenda today with the Committee that has been a 
leading advocate to ensure that America remains the world 
leader in innovation and research. While testifying before this 
committee is a departure from my normal Hill appearances, I 
think it underscores the need to rely on government-wide 
resources if we are going to give our students the skills to 
compete, work, and lead in the global economy, and I have no 
doubt that the House Education Committee could benefit from 
hearing from my colleagues on this panel today, as well.
    As all of you know, our children aren't growing up in the 
same world we did. You can't pick up a newspaper or magazine 
these days without reading about global competitiveness, 
especially in math and science. While we sleep at night, 
accountants in India do our taxes, radiologists in Australia 
read our CAT scans, technicians in China build our computers. 
In a recent Newsweek cartoon, there is a--they poke fun at 
outsourcing NCAA office brackets even. As other nations race to 
catch up, there is mounting evidence that our students are 
falling behind, and I know you all have heard the numbers, but 
they do bear repeating.
    Our 15 year olds rank 24th of 29 developed nations in math 
literacy and problem solving. Almost half of our 17-year-olds 
don't have the math skills to work as a production associate at 
a modern auto plant. We know that 90 percent of the fastest 
growing jobs require post-secondary education, and yet, fewer 
than half of our students graduate from high school ready for 
college level math or science. Every year, a million students 
drop out of high school, and nearly five out of ten African-
American and Hispanic ninth graders do not graduate from high 
school on time, in a day and time when most of the jobs require 
post-secondary education.
    Wherever I go, like you, I hear from governors, business 
people, educators, and parents that our students are not 
prepared, and if we are going to move in a new, positive 
direction, we must make high schools more rigorous, and 
encourage students to take more advanced math and science 
classes. Employers today need workers with pocket protector 
skills, creative problem solvers with strong math and science 
backgrounds. Whether children and adults want to be auto 
mechanics or cancer researchers, they must have these skills.
    The President's American Competitiveness Initiative will 
devote $380 million to strengthen K-12 math and science 
education, and importantly, it will build on the success of No 
Child Left Behind, which is getting results all across our 
country, and increase academic rigor across the board.
    Overall, the Department of Education will increase funding 
for our programs in these critical areas by about 51 percent. 
The President has called for the formation of the National Math 
Panel, a coalition of experts to help us identify the best 
research on proven strategies to teach these skills, and his 
budget also includes $250 million for a new Math Now Initiative 
that will give elementary and middle school students the 
academic foundation necessary to succeed in rigorous math 
classes in high school, such as advanced placement.
    Our challenge today is that nearly 40 percent of our high 
schools offer no such classes, and that must change, especially 
when we know that just taking one or two AP courses increases a 
student's chance of graduating from college on time. The 
President has called for $122 million to prepare 70,000 
teachers to lead advanced placement and international 
baccalaureate classes in math/science, and critical foreign 
languages. His budget includes $25 million to help recruit 
30,000 math and science professionals to become adjunct high 
school teachers in these critical areas.
    This urgent work is before us, and we must do what works. 
As policy-makers, we must focus on results. We have looked at 
data to see what policies are most effective for students, and 
where we can save taxpayers' money, or operate more efficiently 
by eliminating and consolidating programs that aren't getting 
results for our students. According to the GAO, thirteen 
different government agencies, including yours and mine, spend 
about $2.8 billion on 207 different programs for math and 
science education, almost half of them receiving less than $1 
million. These programs are in their own silos with little or 
no coordination between them, or linkage to No Child Left 
Behind's goals of raising student achievement for all students. 
It is a thousand flowers blooming, and maybe even a few weeds 
throughout the government.
    So, let us ask ourselves some pointed questions. What are 
our goals for these programs? Do we have a consensus on what 
the goals should be? Who is our client? Are we spending 
millions to train teachers who possess a strong math or science 
knowledge base already, or are we reaching the teachers who 
need the training the most? Do we want these programs to 
produce an educated workforce, Nobel prizewinners, or both?
    Congress created the American Competitiveness Council, 
which I chair, to answer questions like these, and align our 
efforts around shared strategic goals. At the beginning of 
March, the President and I led the first meeting to begin the 
process of evaluating how well these math and science programs 
are working, and improve coordination between them. We must 
align our efforts with the principles of No Child Left Behind. 
By continuing to hold schools accountable for getting all 
students to grade level in reading and math by 2014, and by 
giving local policy-makers and educators the resources, 
authority, and research base to do what is best.
    It is not just for reading and math. We will have science 
assessments in place by 2007, and the President has called for 
them to be a part of the accountability system as well. As 
leaders and policy-makers, as parents, it is our job to look 
down the road, and make sure our kids are prepared for the 
future. As the President said in the State of the Union: ``If 
we ensure that America's children succeed in life, they will 
ensure that America succeeds in the world, and if we raise our 
expectations, our students will rise to the challenge.''
    Thank you, and I would be happy to answer any questions you 
may have.
    [The prepared statement of Secretary Spellings follows:]

                Prepared Statement of Margaret Spellings

Mr. Chairman, and Members of the Committee:

    Thank you for the opportunity to speak with you today about the 
importance of education to maintaining our global leadership, and the 
President's proposed serious and innovative reforms that will prepare 
our children to become leaders themselves.

THE CHALLENGE: TO INNOVATE EDUCATION

    America has long been innovation's home. When faced with a 
challenge, we invent the answer: from the first telephone to global 
satellite communications; from the first computer to the World Wide 
Web; from the Wright Brothers to Neil Armstrong. To Americans, 
innovation means much more than the latest gadget. It means creating a 
more productive, prosperous, mobile and healthy society. Innovation 
fuels our way of life and improves our quality of life. And its well-
spring is education.
    Throughout his Administration, President Bush has made innovation 
and education top priorities. The President worked with you and your 
colleagues in the Senate, to pass the most far-reaching education 
reform in decades, the No Child Left Behind Act (NCLB). NCLB has 
brought high standards and accountability to public schools and sparked 
a mathematics and reading revival in the early grades.
    While the United States is leading the world in science and 
technology and making strong reforms to its education system, the rest 
of the world is not standing still. America no longer holds the sole 
patent on innovation. Inspired by our example, countries such as China, 
India and South Korea have invested heavily in education, technology, 
and research and development. America now has billions of competitors 
throughout the world, challenging us to set our sights even higher.
    Our educational leadership has been challenged as well, with many 
developed nations' students outperforming ours in international tests, 
particularly in math and science, an ominous sign for many American 
schools. These test scores are linked to a lack of challenging course 
work. According to some estimates, America's share of the world's 
science and engineering doctorates is predicted to fall to 15 percent 
by 2010.
    This global challenge requires bold action and leadership. America 
has done it before. Following the Soviet Union's 1957 launch of 
Sputnik, the world's first satellite, Congress passed and President 
Eisenhower signed into law the National Defense Education Act of 1958 
(NDEA). NDEA encouraged more college and university students to pursue 
degrees in engineering and it brought the public and private sectors 
together as partners to capture the interest, imagination and 
dedication of American students. And it worked. Within a decade, the 
number of science and engineering doctorates awarded in the United 
States annually had tripled, accounting for more than half the world's 
total by 1970.
    Today, America faces challenges more difficult and complex than a 
single satellite. The spread of freedom is spurring technological 
innovation and global competition at a pace never before seen. This 
trend makes it increasingly important that our economy be more flexible 
and responsive, to make sure that we continue to lead in innovation and 
technological development and to make sure we have a workforce that has 
the skill sets necessary to do so.
    Education is the gateway to opportunity and the foundation of a 
knowledge-based, innovation-driven economy. Employers are increasingly 
looking for workers who have analytical, technical and problem-solving 
skills.
    We have to run to keep up. A high school diploma, once desirable, 
is now essential, and, increasingly, insufficient. About 90 percent of 
the fastest-growing occupations of the future will generally require 
some post-secondary education. It is therefore unacceptable that among 
all ninth-graders in public schools, about three in ten do not graduate 
on time; or that for black and Hispanic students the figure is about 
five in ten. If current trends continue, by 2012, over 40 percent of 
factory jobs will require post-secondary education, according to the 
National Association of Manufacturers. And yet, almost half of our 17-
year-olds do not have the basic understanding of math needed to qualify 
for a production associate's job at a modern auto plant.
    Improving education is critical not only to America's economic 
security, but also to our national security. Today, not one but 3,000 
satellites circle the Earth. U.S. soldiers use the latest 
communications and surveillance technology to fight the global war on 
terrorism. Advanced math skills are used to identify and undermine 
terrorist networks. Government and the private sector engineer new ways 
to protect lives and infrastructure from harm. And the effort to spread 
freedom to other nations and cultures demands speakers fluent in 
languages such as Arabic, Farsi, Chinese, and Russian. Addressing these 
challenges will advance opportunity and entrepreneurship at home and 
promote democracy and understanding abroad.
    Rigorous instruction, high standards and accountability are helping 
to raise achievement levels among American students, particularly in 
the early grades. As all students work to achieve proficiency in math 
and reading by 2014, an innovative education reform effort is needed.
    America's civic, political and business leaders agree: To sustain 
our quality and way of life, we must act now. And President Bush is 
leading the charge by proposing investments and reforms through a 
number of key initiatives that I would like to outline today.

THE ANSWER: PRESIDENT BUSH'S EDUCATION AGENDA

    President Bush's answer to America's challenge begins with the 
American Competitiveness Initiative. This multi-agency Initiative will 
commit $5.9 billion in FY 2007, and more than $137 billion over the 
next 10 years, to strengthen education, promote research and 
development and encourage entrepreneurship. In the research arena, it 
will increase our investment in physical science and engineering 
research, the results of which will fuel technological innovation for 
decades to come. In the education arena, the initiative will bring 
together leaders from the public sector, private sector and education 
community to better prepare our students for the 21st century. The 
initiative will place a greater emphasis on math instruction from the 
earliest grade levels. It will ensure that high schools offer more 
rigorous course work, including Advanced Placement and International 
Baccalaureate courses in math, science and critical-need foreign 
languages. It will inform teachers of the most effective, research-
based approaches to teaching math. It will encourage professionals in 
those fields to become teachers themselves. And it will evaluate all 
federally funded math and science education programs to ensure the most 
effective use of the taxpayers' dollars.
    The President's High School Reform initiative will help ensure that 
a diploma becomes a ticket to success for all graduates, whether they 
enter the workforce or go on to higher education. It will bring high 
standards and accountability to high schools by aligning their academic 
goals and performance with the No Child Left Behind Act. Through 
assessments and targeted interventions, it will help educators raise 
achievement levels and close the achievement gap. It will also help 
alleviate the dropout problem by focusing more attention on at-risk 
students struggling to reach grade level in reading or math.
    Finally, the President's National Security Language Initiative, 
announced on Jan. 5, 2006, will help more American students master 
critical-need foreign languages to advance global competitiveness and 
national security. This joint project, in collaboration with the 
Department of State, Department of Defense and the Director of National 
Intelligence, will train teachers and aid students in those fields.

THE CHALLENGE: KNOWLEDGE OF MATH AND SCIENCE

    In this changed world, knowledge of math and science is paramount. 
In the words of BusinessWeek, ``It's a magnificent time to know math.'' 
``Math entrepreneurs'' are translating the world into numbers--which 
translates into big salaries. According to the Bureau of Labor 
Statistics, new and replacement job openings requiring science, 
engineering or technical training will increase by more than 24 
percent, to 6.3 million, between 2004 and 2014.
    Of all of the recommendations contained in the National Academies' 
report, Rising Above the Gathering Storm, the highest priority is to 
vastly improve K-12 math and science education. Schools must help 
students develop the skills they will need to compete and succeed in 
higher education and the workforce, which are increasingly connected in 
this changed world. All Americans must be technically adept and 
numerically literate--regardless of their chosen occupation--so that 
they can make informed decisions and enjoy advancement in their 
careers. And this technically and numerically literate population must 
also yield additional practitioners of math, science, and engineering 
to meet the needs of academia and industry well into the future. 
Industry must do its part to ensure that career opportunities provided 
to those with training in math, science and engineering are as stable 
and financially rewarding as other jobs, such as medicine, law and 
finance.
    We clearly have a long way to go. High school test scores in math 
have barely budged since the early 1970s. And less than half of high 
school graduates in 2005 were ready for college-level math and science 
course work, according to ACT.
    In 1983, the landmark A Nation at Risk report recommended that high 
school students be required to take a minimum of three years of math 
and three years of science to graduate. Yet today, only 22 states and 
the District of Columbia require at least this amount to graduate in 
the class of 2006. Even fewer require high school exit exams (which are 
often administered in 10th or 11th grade, leading many employers and 
universities to discount the results). Just one State--Alabama--calls 
for current students to take four years of both science and math to 
graduate.
    A major part of the answer is teacher training. When we compare the 
U.S. education system with that of the top performing countries, we 
find several significant differences, most notably that a much lower 
proportion of U.S. math and science teachers actually have a degree in 
the area in which they are teaching. Because our elementary schools 
employ generalist teachers who are required to teach all academic 
subjects, most have degrees in education and have completed little or 
no course work in math or science. Three out of four fourth-grade math 
and science teachers in the U.S. do not have a specialization in those 
subjects. And students from low-income communities are far less likely 
than their more affluent peers to have teachers certified in the 
subject they teach. With two-thirds of our math and science teachers 
expected to retire by 2010, we have a challenge to produce new teachers 
to fill that gap, but we also have an opportunity to change the way in 
which new teachers are trained so that future teachers will have 
greater content knowledge in math and science.
    Strengthening math and science standards is an economic imperative, 
for the Nation and for individual citizens. According to Department 
statistics, students who take advanced math courses in high school 
(such as trigonometry, precalculus and calculus) are far more likely to 
earn a Bachelor's degree. Additionally, students from low-income 
families who acquire strong math skills by the eighth grade are 10 
times more likely to finish college than peers of the same 
socioeconomic background who do not.
    Still, old attitudes about math die hard. A recent survey 
commissioned by the Raytheon Company found that 84 percent of middle 
school students would rather clean their rooms, take out the garbage or 
go to the dentist than do their math homework. According to the 
Business Roundtable, just five percent of parents say they would ``try 
to persuade their child toward careers in science, technology, 
mathematics or engineering.'' Many people still view math and science 
as ``nerdy'' subjects with little relevance to the ``real world.'' Like 
it or not, that world has changed forever.

THE ANSWER: AMERICAN COMPETITIVENESS INITIATIVE

    President Bush's American Competitiveness Initiative seeks to 
improve learning and instruction in mathematics and science.
    The Department of Education's proposals within this Initiative are 
as follows:

        <bullet>  National Math Panel: Based on the influential 
        National Reading Panel, the National Math Panel would convene 
        experts to evaluate empirically the effectiveness of various 
        approaches to teaching math, creating a research base to 
        improve instructional methods for teachers. It would lay the 
        groundwork for the Math Now program for grades K-7 to prepare 
        every student to take and pass algebra;

        <bullet>  Math Now for Elementary School Students: Like the 
        successful and popular Reading First program, Math Now for 
        Elementary School Students would promote promising, research-
        based practices in mathematics instruction and prepare students 
        for more rigorous math course work in middle and high school;

        <bullet>  Math Now for Middle School Students: Similar to the 
        current Striving Readers Initiative, Math Now for Middle School 
        Students would diagnose students' deficiencies in math 
        proficiency and provide intensive and systematic instruction to 
        enable them to take and pass algebra;

        <bullet>  Advanced Placement-International Baccalaureate (AP-
        IB) Incentive Program: The AP-IB Incentive Program would train 
        70,000 additional teachers to lead AP-IB math and science 
        courses. It would increase the number of students taking AP-IB 
        tests to 1.5 million over the next five years with the goal of 
        tripling the number of passing test-takers to approximately 
        700,000;

        <bullet>  Adjunct Teacher Corps: The Adjunct Teacher Corps 
        would provide funding to match contributions from States and 
        the private sector to train 30,000 qualified math and science 
        professionals to become adjunct high school teachers by 2015; 
        and

        <bullet>  Including Science Assessments in NCLB: NCLB requires 
        every State to develop and administer science assessments once 
        in each of three grade spans by the 2007-08 school year, and 
        including these assessments in the accountability system will 
        ensure students are learning the necessary content and skills 
        to be successful in the 21st century workforce.

OTHER MATH AND SCIENCE INITIATIVES

        <bullet>  Academic Competitiveness Grants and SMART Grant 
        Program: This higher education grant program was a key 
        component of the Higher Education Reconciliation Act.

        <bullet>  This program will build on the success of the Pell 
        Grant program and benefit more than 500,000 students in need.

                  Academic Competitiveness grants will provide 
                increased funds for low-income students who take a 
                rigorous academic curriculum in high school. Grants in 
                the amount of $750 will be awarded to qualified first-
                year college students who completed a rigorous high 
                school program; grants in the amount of $1,300 will be 
                awarded to second-year students who completed a 
                rigorous program and who maintain a 3.0 average in 
                college.

                  SMART grants will go to college juniors and seniors 
                studying math, science or critical-need foreign 
                languages who also maintain a 3.0 GPA. This will 
                encourage more students to go into fields that improve 
                America's security and competitiveness.

        <bullet>  Mathematics and Science Partnerships: This program 
        supports the American Competitiveness Initiative by providing 
        state formula grants to help improve students' academic 
        achievement in rigorous math and science courses. It also 
        assists teachers by integrating proven, research-based teaching 
        methods into the curricula.

        <bullet>  Expanded Teacher Loan Forgiveness: This popular 
        program offers up to $17,500 (up from $5,000) in loan 
        forgiveness for highly qualified math, science and special 
        education teachers serving challenging, low-income schools and 
        communities.

ACADEMIC COMPETITIVENESS COUNCIL

    The Deficit Reduction Act of 2005, signed into law by the President 
on February 8, 2006, created an Academic Competitiveness Council (ACC) 
chaired by the Secretary of Education, and consisting of Federal 
Government agencies with education programs in science, technology, 
engineering, and mathematics (STEM). Its mission under law is to 
identify all federal education programs with a math or science focus, 
determine the effectiveness of each program, identify areas of overlap, 
and recommend ways to efficiently integrate and coordinate in the 
future. The Council will also ensure that these programs, which focus 
on elementary and secondary education and teacher training, are aligned 
with the principles of No Child Left Behind, as appropriate.
    The first ACC meeting took place on March 6, 2006, at the White 
House with the President and the respective Secretaries and directors 
of the agencies with STEM education programs. The Department of 
Education is now working with the Office of Management and Budget to 
form a working group with the appropriate senior staff from each of 
these agencies to begin taking inventory of their various STEM 
education programs. A report to Congress is due February 2007.

THE CHALLENGE: ACCELERATING OUR SCHOOLS' PROGRESS

    Innovating and improving America's schools will not occur 
overnight. It took time for eight other developed nations to surpass 
America's high school graduation rate among adults aged 25 to 34; and 
it will take time for the United States to regain its leadership. We 
must start by accelerating our progress.
    A comprehensive problem demands a comprehensive solution, extending 
from kindergarten through high school graduation. The good news is that 
educators and policy-makers are learning more and more about what 
works. A half-century ago, the United States turned the threat of 
Soviet competition into proof of our ability to improve our schools and 
quality of life. Just four years ago, the United States turned a 
growing achievement gap into the bipartisan No Child Left Behind Act.
    The law set a course for proficiency for all students in the core 
subjects of reading and math by the year 2014. Students in grades three 
through eight are now learning under high standards. Teachers are using 
proven instructional methods in reading. Schools are being held 
accountable for results. Parents have more information and choices. And 
states have more flexibility to spend federal K-12 education resources, 
which have increased by 41 percent since 2001.
    The early results are in. Across the country, academic achievement 
has risen significantly in the earliest grades, with math scores at 
all-time highs, including among African American and Hispanic students. 
In the last two years, the number of fourth-graders who learned their 
fundamental math skills increased by 127,000 according to Department 
data. Long-term trends show that more reading progress was made among 
nine-year-olds between 1999-2004 than in the previous 28 years 
combined. Meanwhile, according to the Nation's Report Card, the 
achievement gaps in reading and math between white and African American 
nine-year-olds and between white and Hispanic nine-year-olds are at 
all-time lows. Educators use terms like ``amazing,'' ``stunning'' and 
``remarkable'' to describe the progress on long-term NAEP.
    No Child Left Behind has set the goal of every child achieving, but 
the states and schools themselves have done the heavy lifting to 
implement curriculum standards and assessment protocols that they will 
use to meet these standards. For the first time, all 50 states have 
unique accountability plans in place, with real consequences attached. 
The results can be seen in schools like Maryland's North Glen 
Elementary. In 2003, just 57 percent of North Glen's students were 
proficient in reading, while 46 percent were proficient in math. Those 
numbers have skyrocketed to 82 percent and 84 percent, respectively.
    Another example is Charles L. Gideons Elementary School in Atlanta. 
The number of its students meeting Georgia's standards in reading has 
increased by 23 percentage points since 2003. For math the news is even 
better: a 34 percentage-point improvement during the same period. The 
National Math Panel will examine schools like this one that have made 
significant progress to determine ``what worked'' in improving 
mathematics education and performance. If we better understand what 
worked at these model schools, we can then use programs like the new 
Math Now program to disseminate these principles and practices to 
teachers across the country.
    A district-wide success occurred in Garden Grove, California. 
Three-fourths of the Garden Grove Unified School District's students do 
not speak English. Nearly 60 percent are from low-income families. 
Nevertheless, all but two of the district's 67 schools met or exceeded 
their Adequate Yearly Progress goals under the law.
    The No Child Left Behind Act was designed to improve achievement. 
But it has also shown us what is achievable as a nation. Educators, 
administrators and public officials are working together, united behind 
a worthy goal. Now it's time to apply the Act's successful principles 
to our nation's high schools.
    There is not a moment to waste. Governors and business leaders are 
united in calling for urgent reform. Every year approximately one 
million students drop out of high school, costing the Nation more than 
$260 billion dollars in lost wages, taxes and productivity over the 
students' lifetimes. A high school graduate can expect to earn about 
$275,000 more over the course of his or her lifetime than a student who 
doesn't finish high school; a college graduate with a Bachelor's degree 
can expect to earn about $1 million more. Dropouts are also three-and-
a-half times more likely to be arrested, according to reports. A key 
goal of the President's High School Reform Initiative is to address the 
academic needs of at-risk students so that they stay in school, 
improving their quality of life and that of their fellow Americans.

THE ANSWER: THE PRESIDENT'S HIGH SCHOOL REFORM INITIATIVE

    The President's High School Reform Initiative would hold high 
schools accountable for providing high-quality education to all 
students. And it would help educators implement strategies to meet the 
needs of at-risk high school students. The proposed program would make 
formula grants to states to support:

        <bullet>  The development, implementation and evaluation of 
        targeted interventions designed to improve the academic 
        performance of students most at risk of failing to meet state 
        academic standards; and

        <bullet>  Expanded high school assessments that would assist 
        educators in increasing accountability and meeting the needs of 
        at-risk students.

    Interventions would be designed to increase the achievement of high 
school students; eliminate achievement gaps between students from 
different ethnic and racial groups and income levels; and help ensure 
that students graduate with the education, skills and knowledge 
necessary to succeed in post-secondary education and in the technology-
based global economy.
    A key strategy would be the development of individual performance 
plans for students entering high school, using eighth-grade assessment 
data in consultation with parents, teachers and counselors. Specific 
interventions could include programs that combine rigorous academic 
courses with vocational and technical training, research-based dropout 
prevention activities, and the use of technology-based assessment 
systems to closely monitor student progress. In addition, programs that 
identify at-risk middle school students for assistance would help 
prepare them to succeed in high school and enter post-secondary 
education. This includes college preparation and awareness activities 
for students from low-income families.
    The President's proposal also would require states to develop and 
implement reading and mathematics assessments in two additional grade 
levels in high school, building on the current NCLB requirement for 
testing once in grades 10-12. The new assessments would inform 
strategies to strengthen school accountability and meet the needs of 
at-risk students.

ADDITIONAL SUPPORT:

        <bullet>  Striving Readers: First funded in 2005, this program 
        would be expanded significantly to reach more secondary 
        students reading below grade level, which puts them at risk of 
        dropping out. Students would benefit from research-based 
        interventions coupled with rigorous evaluations. Schools would 
        benefit from activities and programs designed to improve the 
        overall quality of literacy instruction across the entire 
        curriculum.

THE CHALLENGE: PROMOTING FREEDOM AND UNDERSTANDING

    America faces a severe shortage of people who speak languages that 
are critical to its national security and global competitiveness:

        <bullet>  According to the Center for Applied Linguistics, less 
        than one-fourth of public elementary schools report teaching 
        foreign languages, even though a child's early years are the 
        best years in which to learn a new language.

        <bullet>  Less than one percent of American high school 
        students study Arabic, Chinese, Farsi, Japanese, Korean, 
        Russian or Urdu-combined.

        <bullet>  Less than eight percent of undergraduates in American 
        universities take foreign language courses, and less than two 
        percent study abroad in any given year.

    While only 44 percent of U.S. high school students were studying a 
foreign language in 2002, learning a second or even a third foreign 
language is compulsory for students in the European Union, China, 
Thailand and elsewhere.
    More than 200 million children in China study English. By 
comparison, only about 24,000 elementary and secondary school children 
in the United States study Chinese. Many students in other nations 
begin learning another language before they're even 10 years old. They 
will have an edge over monolingual Americans and others in developing 
new relationships and business connections in countries other than 
their own.

THE ANSWER: THE PRESIDENT'S NATIONAL SECURITY LANGUAGE INITIATIVE

    Critical-need foreign language skills are necessary to advance the 
twin goals of national security and global competitiveness. Together 
with the Department of State, Department of Defense and the Director of 
National Intelligence, the Department of Education proposes to offer 
grants and training for teachers under President Bush's National 
Security Language Initiative.
    The Initiative would increase the number of Americans who speak and 
teach foreign languages, with an emphasis on critical-need languages. 
It will strengthen and refocus the Foreign Language Assistance Program, 
and will initially enable 24 school districts across the country to 
create partnerships with colleges and universities to develop critical-
need language programs. Among the critical-need languages targeted 
under the initiative are Arabic, Chinese, Korean, Japanese, and 
Russian, as well as languages in the Indic, Iranian and Turkic 
families.
    The National Security Language Initiative will also provide funding 
to create a Language Teacher Corps, with the goal of having 1,000 new 
critical foreign language teachers in U.S. schools by the end of the 
decade. And it will enable the creation of an ``e-Learning Language 
Clearinghouse'' and expanded Teacher-to-Teacher seminars to assist 
foreign language teachers anytime, anywhere.

CONCLUSION:

    Our schools helped make the 20th century the ``American Century.'' 
The 21st century remains to be claimed. But Americans have never backed 
down from a challenge. This changing world offers another opportunity 
for Americans to shine, and the President's American Competitiveness 
Initiative and the rest of his education agenda will help set the 
course.
    America's schools have made great progress in improving academic 
achievement in the early grades. But like athletes or musicians, 
children of all ages must work hard each and every day if they wish to 
compete, perform and succeed, and their schools must show them the way. 
The President's education agenda will help prepare the students of 
today to become the successful leaders--the pioneers, discoverers and 
Nobel Prize winners--of the next American Century.
    I look forward to working with Congress on implementing these bold 
initiatives.
    Thank you for the opportunity to testify this morning. I am happy 
to answer any questions you have.

                    Biography for Margaret Spellings

    On January 20, 2005, the United States Senate confirmed Margaret 
Spellings as the eighth U.S. Secretary of Education.
    During President George W. Bush's first term, Spellings served as 
Assistant to the President for Domestic Policy where she helped craft 
education policies, including the No Child Left Behind Act. She was 
also responsible for the development and implementation of White House 
policy on immigration, health, labor, transportation, justice, housing, 
and other elements of President Bush's domestic agenda.
    Prior to her White House appointment, Spellings worked for six 
years as Governor George W. Bush's Senior Advisor with responsibility 
for developing and implementing the Governor's education policy. Her 
work included the Texas Reading Initiative, the Student Success 
Initiative to eliminate social promotion, and the Nation's strongest 
school assessment and accountability system. She also made 
recommendations to the Governor for key gubernatorial appointments. 
Previously, Spellings served as Associate Executive Director of the 
Texas Association of School Boards.
    Born in Michigan, Spellings moved with her family at a young age to 
Houston, Texas, where she attended public schools. She graduated from 
the University of Houston with a Bachelor's degree in political 
science.
    As the mother of two daughters, one school-age and one college-age, 
Spellings has a special understanding of the issues facing parents and 
students today. Her daughter Mary is a freshman in college, and her 
daughter Grace attends a public middle school. Spellings is the first 
mother of school children to serve as U.S. Secretary of Education.

    Chairman Boehlert. Thank you very much, Madam Secretary. 
Dr. Bement.

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Chairman Boehlert, Ranking Member Gordon, and 
Members of the Committee, I appreciate the opportunity to 
testify before you on topics of great importance, the National 
Science Foundation's role in improving K-12 science and math 
education, as well as the ways our efforts complement those of 
other federal agencies.
    Before I begin, Mr. Chairman, I want to thank you for your 
years of service on this committee, and for your strong and 
steadfast support for the National Science Foundation, as well 
as the educational activities that you have fostered over the 
years. Your service in the House may be coming to an end, but 
your contributions will live on forever.
    If I may briefly touch on some of the areas where NSF 
programs make a unique contribution to ensure that every 
student has the opportunity to learn challenging science, 
technology, engineering, and math. As you know, we are 
proposing a realignment of our Education and Human Resources 
Directorate to establish a Division of Research on Learning in 
Formal and Informal Settings. This realignment will make 
programs supporting a range of activities work better together. 
The programs will focus on new materials and curricula, teacher 
preparation, new pedagogical techniques, educational activities 
outside of the classroom, new technologies applied to 
education, and research on learning.
    In line with the Administration's focus on the vital 
national priority of K-12 STEM education, NSF will also 
initiate a new effort in 2007 called Discovery Research K-12. 
This program will focus research on three well-defined grand 
challenges: first, developing effective science and mathematics 
assessments; second, improving science teaching and learning; 
and third, introducing cutting edge discoveries into classrooms 
to improve STEM content and enrich the learning experience.
    This last challenge is also being addressed through the 
Research and Related Activities Directorates, that participate 
with the EHR Directorate through specifically developed 
programs, such as graduate student involvement in the 
classroom. It is important to note that NSF programs support 
all subgroups of students, from those holding great promise to 
those struggling academically, and from those under-represented 
in STEM fields, to those from low income families.
    NSF considers advice from a diverse set of outside sources, 
in order to strike a balance among the programs reaching out to 
various groups. For over 50 years, NSF has engaged prominent 
scientists, mathematicians, and educators in the development of 
K-12 instructional materials. From this experience, we realize 
that education systems are complex. Change sometimes comes 
slowly, and there are few, if any, quick fixes.
    As with all basic research, many of NSF's investments in 
research and education require years to develop, and thus, 
outcomes can only be judged retrospectively. Nevertheless, 
assessing the performance of our programs is critical to all of 
the Foundation's strategic planning efforts. NSF employs 
multiple, mixed methods approach to evaluation. The 
effectiveness and impact of our investments are determined by 
using both qualitative and quantitative techniques, including 
external assessment by Committees of Visitors, and the Advisory 
Committee for Government Performance and Results Act 
Performance Assessment, and by using the analytical Program 
Assessment Rating Tool developed by OMB.
    Our science education programs have additional evaluation 
requirements. All EHR solicitations require every education 
portfolio, program, and project to have a sound, data-driven, 
standards-based evaluation. Selected education programs have an 
online data collection system, to monitor program activities on 
an annual basis. Third party evaluations are also used to 
determine the impact of various programs, and in any given 
year, approximately one third of the education programs will be 
evaluated.
    NSF is not alone in this awareness of the need to evaluate 
the effectiveness of its programs. Through interagency groups 
organized under the auspices of the National Science and 
Technology Council, NSF is taking a leadership role, along with 
the Department of Education, to share effective evaluation 
activities and practices.
    This multi-agency working group on evaluation is part of a 
larger interagency group co-chaired by NSF and the Department 
of Education, focusing on education and workforce development. 
Through this working group, EHR has prepared and distributed a 
packet of NSF-evaluated resources to the member agencies.
    Most recently, NSF has collaborated with the Department of 
Education on the MSP programs, defining program linkages 
necessary to manage our two parallel, but separate programs for 
greatest effectiveness. NSF has also participated with the 
Department of Education in both the Title I Taskforce and the 
Title I Toolkit, which aimed to improve mathematics learning, 
and identify resources for state and district leaders.
    And in conclusion, in line with the Administration's 
American Competitiveness Initiative, NSF has specific missions 
to prepare and sustain a world-class STEM workforce for the 
future, and to foster the scientific literacy of our students 
and our citizens. We look forward to contributing significant 
advances to these larger national efforts.
    Thank you, Mr. Chairman, for the opportunity to testify, 
and I will be happy to respond to your questions.
    [The prepared statement of Dr. Bement follows:]

               Prepared Statement of Arden L. Bement, Jr.

    Chairman Boehlert and Members of the Committee, I appreciate the 
opportunity to testify before you on topics of great importance, the 
National Science Foundation's (NSF) role in improving K-12 science and 
math education as well as the complementary efforts with those of other 
federal agencies.
    NSF believes that federal agencies must work in concert to ensure 
that every student has the opportunity to learn challenging science, 
technology, engineering, and mathematics (STEM). Today, I will describe 
examples of NSF's unique contributions to our nation's larger effort to 
strengthen K-12 education. NSF's investments in discovery, learning, 
and innovation have a longstanding record of boosting the Nation's 
economic vitality and competitive strength.
    Today's young people face a world of increasing global competition. 
We depend on the excellence of U.S. schools and universities to provide 
students with the wherewithal to meet this challenge and to make their 
own contributions to America's future. This larger context provides a 
rationale for setting ``bolstering K-12 education'' as one of NSF's 
four priorities for fiscal year 2007.
    To maintain America's preeminence in science and engineering, we 
must augment our nation's research enterprise by fostering innovation 
in K-12 science and mathematics education. Sustained federal support 
will be critical to a comprehensive approach, including:

        <bullet>  Research on STEM learning for both teachers and 
        students;

        <bullet>  Development of challenging STEM instructional 
        materials;

        <bullet>  Assessment of student and teacher knowledge;

        <bullet>  Evaluation of project and program impacts; and

        <bullet>  Implementation of proven STEM interventions in the 
        Nation's schools.

NSF Education and Human Resource (EHR) Directorate Programs

    The Foundation's K-12 STEM education programs are administered 
primarily through the Education and Human Resource (EHR) Directorate, 
although programs in the Research and Related Activities Account also 
support K-12 education and outreach activities. Within the EHR 
directorate, all programs focus on educational research, development, 
and evaluation in the STEM disciplines.
    For example, within EHR's proposed Division of Research on Learning 
in Formal and Informal Settings, programs will support a range of 
activities, including research on: (1) learning; (2) developing and 
testing new materials and curricula; (3) new pedagogical techniques; 
(4) content and pedagogy education for K-12 teachers; (5) educational 
activities outside of the classroom; and (6) the application of new 
technologies to education.
    These programs are vital cogs in our nation's K-12 STEM education 
machinery. The role of the NSF in K-12 science and mathematics 
education is to support research and development pilot-studies in the 
areas of cognitive science, education, curriculum development, and 
teacher professional development resulting in the production of 
materials and practices which can be evaluated empirically and then 
made available by NSF and/or other agencies. Examples of projects of 
which the NSF is proud include the Merck Institute for Science 
Education's summer institutes and the University of Pennsylvania 
Science Teachers Institute's Master's programs. Examples of other 
interesting programs and projects follow.

        <bullet>  In line with the Administration's focus on the vital 
        national priority of K-12 STEM education, NSF will invest in a 
        new effort in 2007. Discovery Research K-12 focuses research on 
        three well-defined challenges: (1) developing effective science 
        and mathematics assessments for K-12; (2) improving science 
        teaching and learning in the elementary grades; and (3) 
        introducing cutting-edge discoveries into K-12 classrooms. The 
        program builds on our previous efforts in curriculum 
        development, capacity building, and teacher preparation, and 
        will provide additional information on how to strengthen K-12 
        science and math education.

        <bullet>  EHR's new Research and Evaluation on Education in 
        Science and Engineering program will fund two types of 
        projects. Synthesis projects will identify areas where the 
        knowledge base in either evaluation or education research is 
        sufficient to support strong scientific claims, identify areas 
        of importance to education research and practice, and propose 
        methods for synthesizing findings and drawing conclusions that 
        will inform our work across the K-12 landscape. Empirical 
        projects will identify areas that have the potential for 
        advancing discovery and innovation at the frontiers of STEM 
        learning.

        <bullet>  In 2007, we will also increase funding for the 
        Graduate Teaching Fellowships in K-12 Education program, or GK-
        12, in order to support an estimated 1,000 graduate fellows. 
        This program has been particularly successful in encouraging 
        effective partnerships between institutions of higher education 
        and local school districts by pairing graduate students and K-
        12 teachers in the classroom.

        <bullet>  The Robert Noyce Scholarship program encourages 
        talented STEM majors and professionals to become K-12 
        mathematics and science teachers. For example, the Dowling 
        College Noyce program is addressing the critical shortage of 
        science and math teachers in the Long Island and New York City 
        areas by providing scholarships for math and science majors in 
        the teacher-training program. Also with Noyce funding, Wayne 
        State University and Detroit Public Schools are increasing the 
        number of individuals with strong science and mathematics 
        backgrounds who are teaching in Detroit schools through their 
        ``Teaching for the Future'' initiative. All Noyce Scholars are 
        paired with faculty mentors who work with the Scholars during 
        their college years as well as their early careers.

        <bullet>  Through the Master Science Educators program, the 
        State of Oregon has trained 166 volunteer 4-H Wildlife Stewards 
        who work in partnership with 4-H Extension and local schools 
        across the state. These volunteers have assisted over 13,400 
        students and nearly 450 teachers in creating, using, and 
        sustaining wildlife habitat education sites on school grounds 
        for improving science learning. The program has won 18 State, 
        regional, and national awards including the 2005 Wildlife 
        Society National Group Achievement Award.

        <bullet>  Through the Math and Science Partnership (MSP) 
        program, NSF assumed important responsibilities to build 
        capacity for implementing the President's No Child Left Behind 
        vision for K-12 education. NSF's MSP is a research program to 
        develop and assess the impact of innovative partnerships 
        between higher education departments of mathematics and 
        science, schools of education, and local school districts on 
        improving K-12 student achievement in mathematics and science. 
        NSF is currently evaluating data collected from the on-going 
        MSP projects to identify promising materials and methods that 
        can be disseminated across the country through the consolidated 
        MSP program at the Department of Education.

    This extensive list of examples underscores that NSF programs 
support all subgroups of students--from those holding great promise to 
those struggling academically and from those under-represented in STEM 
fields to those from low-income families. NSF considers advice and 
information gathered from a diverse set of outside sources, including 
direct indications of Congressional interest; studies produced by the 
National Research Council; workshops and national conferences sponsored 
by NSF; reviews conducted by the National Science Board; and NSF's own 
strategic planning and budget reviews by the Office of Management and 
Budget (OMB) in order to strike a balance among the programs reaching 
out to various groups of students.
    To maximize our reach, we also support complementary enrichment 
activities that support school-based STEM curricula and standards and 
provide opportunities for in-depth learning and engagement beyond the 
school day. We also hope to interest young people in science at an 
early age and strive to help maintain that interest.

        <bullet>  For example, ``PEEP and the Big Wide World,'' is an 
        award-winning animated series that gives wings to the 
        innovative idea of teaching science to preschoolers. This show 
        is the newest addition to The Learning Channel's and Discovery 
        Kids' commercial- and sponsor-free programming block, ``Ready 
        Set Learn!'' Actress Joan Cusack narrates the show, which 
        breaks new ground by teaching toddlers basic scientific 
        concepts and skills like measuring, comparing, and estimating.

        <bullet>  In another example, NSF is funding a demonstration 
        project called NSF Academies for Young Scientists, which 
        engages K-8 students in out of school STEM learning while 
        helping teachers develop and adopt strategies that effectively 
        retain students' interest in STEM and prepare them for 
        secondary-level work.

        <bullet>  The need for steady, sustained investment is 
        illustrated by the success of Connected Mathematics, a middle-
        school curriculum now estimated to have between 20 and 25 
        percent of the middle-school textbook market. It is the best 
        selling set of materials for that market by its publisher. The 
        project, supported long-term by NSF and Michigan State 
        University, is paying off with a documented improvement in 
        student mathematics achievement on district and state tests.

    For over 50 years, NSF has engaged prominent scientists, 
mathematicians, and educators in the development of K-12 instructional 
materials. From this experience, we realize that education systems are 
complex. Change sometimes comes slowly, and there are few, if any, 
quick fixes. Supporting the research and development that enables the 
development of creative, sound STEM education models and strategies 
requires steady-stream resources. As part of this iterative process, 
NSF encourages proposals to refine educational questions and problems 
that need addressing, create model experiments, identify appropriate 
test beds and partners, and finally to observe and evaluate the changes 
over time.

Integration of Research and Education

    By supporting hands-on, inquiry-based learning and direct exposure 
to contemporary scientific methods and discoveries, NSF makes 
additional important contributions to K-12 education. We value highly 
the integration of research and education, a concept permeating all of 
our programs.
    This agency-wide priority is being addressed through the Research 
and Related Activities (R&RA) Directorates in partnership with the EHR 
Directorate. We reflect the need for this integration in our merit-
review process through a criterion known as ``Broader Impacts.'' 
Therefore, research grants commonly include specific educational 
activities for K-12 students.
    In some cases, Foundation programs purposefully mandate the 
integration of research and education. For example, NSF's CAREER 
program, which provides stable and enabling research funding for junior 
investigators, explicitly requires educational activities, many of 
which involve K-12 students.
    On the other hand, K-12 teachers gain hands-on experience in 
science through NSF's Research Experiences for Teachers program. 
Supported by R&RA Directorates, this program places K-12 teachers in 
the laboratories of NSF-supported researchers. The educational 
components of NSF-supported Science and Technology Centers also improve 
K-12 education through activities, such as workshops, curricula 
development, and research internships for students and teachers.
    Numerous other programs within our R&RA Directorates target the 
improvement of K-12 education. Some examples follow.

        <bullet>  Science of Learning Centers, which are large-scale, 
        long-term Centers, extend the frontiers of knowledge on 
        learning of all types and create the intellectual, 
        organizational, and physical infrastructure needed for the 
        advancement of learning research.

        <bullet>  Geosciences Teacher Training improves the quality of 
        geosciences instruction at middle and high school levels.

        <bullet>  Centers for Ocean Science Education Excellence 
        promote ocean education as an exciting vehicle to interest 
        students in science and enhance science education.

Program Assessment

    As with all basic research, many of NSF's investments in research 
and education require years to develop and, thus, outcomes can be 
judged only retrospectively. Nevertheless, assessing the performance of 
our programs is critical to all of the Foundation's strategic planning 
efforts.
    NSF employs a multiple, mixed-methods approach to evaluation. The 
effectiveness and impact of our investments are determined in multiple 
ways using qualitative and quantitative techniques, including external 
assessment by Committees of Visitors and the Advisory Committee on 
Government Performance and Results Act (GPRA) Performance Assessment, 
and by using the analytic Program Assessment Rating Tool (PART) 
developed by OMB. PART assesses program performance in four areas: 
purpose, strategic planning, program management, and program results. 
It also complements and reinforces GPRA, emphasizing the link between 
budget and performance. Resulting PART ratings inform the budget 
process and highlight areas in need of improvement.
    Our science education programs have additional evaluation 
requirements.

        <bullet>  All EHR solicitations require every education project 
        to have a sound project-level evaluation.

        <bullet>  Selected education programs have a program-specific 
        on-line data-collection system to monitor program activities 
        and outputs, such as the number of students obtaining STEM 
        degrees, on an annual basis and to document trends over time.

        <bullet>  Third-party program or thematic evaluations are also 
        used to determine the impact of various programs. These studies 
        are conducted so that in any given year approximately a third 
        of the education programs will be engaged in evaluation 
        planning and evaluation capacity building efforts, another 
        third will be involved in on-going evaluation studies, and the 
        other third will have recently completed their independent 
        evaluation studies.

Interagency Coordination

    NSF is not alone in its awareness of the need to evaluate the 
effectiveness of its programs. Notably, the Academic Competitiveness 
Council (ACC), which is led by Secretary Spellings and includes 
representatives from federal agencies with STEM education programs, had 
its initial meeting on March 6th. The ACC will identify and assess 
federal math and science education programs and make recommendations 
for coordinating federal spending on STEM education. In addition, 
through interagency groups organized under the auspices of the National 
Science and Technology Council, NSF is taking a leadership role along 
with several other agencies, including the U.S. Department of Education 
(ED), to share program successes and develop government-wide strategies 
for addressing educational needs as well as making information and 
programs more accessible to the external community.
    NSF also works with other federal agencies in a variety of other 
ways. For example, Dr. Donald Thompson, the Assistant Director for 
Education and Human Resources, is part of the ``Tiger Team,'' along 
with his counterparts at the National Institutes for Health (NIH), the 
National Aeronautics and Space Administration (NASA), ED and DOE. The 
team focuses on STEM education issues that the agencies can 
collaboratively address, including creating better science assessments. 
Additionally, NSF has had a particularly active collaboration with ED 
since the early 1990's. The results include the co-funding of major 
studies, such as the National Research Council's Adding it Up: Helping 
Children Learn Mathematics (2001) and Learning and Understanding: 
Improving Advanced Study of Science and Mathematics in America's High 
Schools (2002), as well as active participation in Department of 
Education initiatives, such as the Mathematics and Science Initiative 
(2000-2005) that planned and executed Mathematics and Science Summits 
for the Nation.
    Most recently, NSF has collaborated with ED on the MSP programs--
defining program linkages necessary to consolidate the programs at the 
Department of Education. NSF has also participated with ED in the Title 
I Taskforce on improving the learning of mathematics in Title I schools 
as well as the co-development of a pilot version of a Title I Toolkit 
(2005-present) to identify resources for state and district leaders on 
improving mathematics teaching and learning in Title I schools.
    In summary, NSF complements the efforts of the other agencies 
through our focus on research and development for education in order to 
strengthen the infrastructure in STEM education. These efforts include 
attracting students to the teaching profession; providing pre- and in-
service teacher training; developing curricula; supporting informal 
learning; and funding education research. Other agencies, especially 
ED, have a greater responsibility for implementation.

Conclusion

    In line with the Administration's American Competitiveness 
Initiative, NSF has specific missions to prepare and sustain a world-
class STEM workforce for the future and to foster the scientific 
literacy of all of our citizens. Ideally, all students should have 
access to a series of challenging STEM opportunities that begin at the 
elementary level and continue seamlessly as they progress through their 
secondary school careers.
    Further, the Nation's competitiveness depends on fostering 
creativity and innovation in all Americans. NSF takes this idea very 
seriously, and all of our programs seek to broaden participation in 
STEM by attracting and retaining under-represented groups in the STEM 
enterprise. All proposals to NSF must address two criteria: 
intellectual merit and broader impact.
    We look forward to continuing to contribute our important parts of 
the larger K-12 education equation. I hope the breadth of the provided 
examples signifies the importance of this issue to NSF.
    Thank you, Mr. Chairman, for the opportunity to testify on a topic 
of great importance to the Nation. I would be happy to respond to any 
questions you might have.

                   Biography for Arden L. Bement, Jr.

    Arden L. Bement, Jr., became Director of the National Science 
Foundation on November 24, 2004. He had been Acting Director since 
February 22, 2004.
    He joined NSF from the National Institute of Standards and 
Technology, where he had been Director since Dec. 7, 2001. Prior to his 
appointment as NIST Director, Bement served as the David A. Ross 
Distinguished Professor of Nuclear Engineering and head of the School 
of Nuclear Engineering at Purdue University. He has held appointments 
at Purdue University in the schools of Nuclear Engineering, Materials 
Engineering, and Electrical and Computer Engineering, as well as a 
courtesy appointment in the Krannert School of Management. He was 
Director of the Midwest Superconductivity Consortium and the Consortium 
for the Intelligent Management of the Electrical Power Grid.
    Bement served as a member of the U.S. National Science Board from 
1989 to 1995. The board guides NSF activities and also serves as a 
policy advisory body to the President and Congress. As NSF Director, 
Bement will now serve as an ex officio member of the NSB.
    He also chaired the Commission for Engineering and Technical 
Studies and the National Materials Advisory Board of the National 
Research Council; was a member of the Space Station Utilization 
Advisory Subcommittee and the Commercialization and Technology Advisory 
Committee for NASA; and consulted for the Department of Energy's 
Argonne National Laboratory and the Idaho National Engineering and 
Environmental Laboratory.
    Bement joined the Purdue faculty in 1992 after a 39-year career in 
industry, government, and academia. These positions included: Vice 
President of Technical Resources and of Science and Technology for TRW 
Inc. (1980-1992); Deputy Under Secretary of Defense for Research and 
Engineering (1979-1980); Director, Office of Materials Science, DARPA 
(1976-1979); Professor of Nuclear Materials, MIT (1970-1976); Manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and Senior Research 
Associate, General Electric Co. (1954-1965).
    He has been a Director of Keithley Instruments Inc. and the Lord 
Corp. and was a member of the Science and Technology Advisory Committee 
for the Howmet Corp. (a division of ALCOA).
    Bement holds an engineer of metallurgy degree from the Colorado 
School of Mines, a Master's degree in metallurgical engineering from 
the University of Idaho, a doctorate degree in metallurgical 
engineering from the University of Michigan, an honorary doctorate 
degree in engineering from Cleveland State University, and an honorary 
doctorate degree in science from Case Western Reserve University. He is 
a member of the U.S. National Academy of Engineering.

    Chairman Boehlert. Thank you very much, Doctor. Ms. Dale.

STATEMENT OF MS. SHANA L. DALE, DEPUTY ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Ms. Dale. Thank you, Chairman, Ranking Member Gordon, and 
Members of the Committee, for the opportunity to come before 
you today, and talk about the Nation's goals in regards to 
enhancing science, technology, engineering, and mathematics 
education (STEM).
    To begin with, I would like to thank you, Chairman 
Boehlert, for your outstanding leadership of this committee, 
and for your longstanding and very effective support of math 
and science education. We all owe you a debt of gratitude. 
Thank you.
    NASA shares the concerns of the President, Nation, and this 
committee regarding the need to increase public understanding 
of scientific inquiry, and to maintain America's capability to 
continue as a world leader in science and technology. Related 
to these overarching issues, we have very specific concerns 
about NASA's ability to carry out its bold mission goals over 
the long haul, which is directly tied to the health of 
America's science and math education system. Our aerospace 
workforce is aging, and much of the talent in our science and 
engineering workforce is approaching retirement.
    Accordingly, we are preparing the pathway for the next 
generation with great anticipation, and while NASA does not 
have the primary mission of education, we believe that through 
our unique mission, workforce, and facilities, we can certainly 
make a positive difference in helping our colleagues in the 
Department of Education, and those in other federal agencies 
like the National Science Foundation, to improve STEM 
education.
    NASA, through the genuine excitement that our mission and 
research activities generate, is committed to inspiring student 
interest in STEM careers across the broad spectrum of American 
education. NASA's educational activities are designed to 
engage, educate, and employ our nation's talented youth. As 
contributors to achieving the Nation's goals, NASA is committed 
to three primary objectives which can support improvement of 
STEM education in our country.
    First, we intend to strengthen NASA and the Nation's future 
workforce by identifying and developing the critical skills and 
capabilities needed to ensure achievement of the Vision for 
Space Exploration and other important science and aeronautics 
research goals.
    Second, we hope to attract and retain students in STEM 
disciplines through a progression of educational opportunities 
for students, teachers, and faculty related to science and 
math. In this regard, we are quite proud of the fact that the 
JFK School of Government at Harvard recently chose the NASA 
Explorer Schools Program as one of the top 50 government 
innovations of the year. The Explorer Schools establishes a 
three year partnership between NASA and school teams of 
teachers, administrators, and students from diverse communities 
across the country to help improve teaching and learning in 
science, math, and technology. The Explorer Schools Program is 
now entering its fourth year, and we thank the Committee for 
your strong support for this effort.
    Finally, NASA seeks to engage all Americans in our missions 
through hands-on, interactive, educational activities that 
engage students, educators, families, and the general public in 
ways that will increase America's science and technology 
literacy. Whether it is through using the Internet as a means 
of engagement and education, or our partnerships with the 
country's great science centers and museums, we are constantly 
striving to engage the public in our exploration and research 
activities in new and exciting ways.
    I look forward to discussing with you the full range of 
NASA's STEM activities, including our collaboration with our 
fellow agencies through the Academic Competitiveness Council 
that Secretary Spellings chairs, and again, I thank you for the 
opportunity to appear before you today.
    [The prepared statement of Ms. Dale follows:]

                  Prepared Statement of Shana L. Dale

    Chairman Boehlert and Members of the Committee, thank you for the 
opportunity to speak with you today about the Nation's evolving goals 
to enhance the quality of science, technology, engineering and 
mathematics (STEM) education.
    NASA shares the concerns of the President, Committee, and Nation 
regarding the lack of public understanding of scientific inquiry; an 
aging aerospace workforce; a shrinking pipeline of students with 
science and engineering skills; a shortage of mathematics, science, and 
technology teachers; and, a threat to America's capability to continue 
as a world leader in science and technology.
    Not only are these fields at risk, but STEM education is required 
for many careers in the 21st century workplace and the analytical and 
critical thinking skills learned through these fields of study are 
essential in numerous career fields.
    For nearly 50 years, NASA's journeys into air and space have 
developed humankind's understanding of the universe, advanced 
technology breakthroughs, enhanced air travel safety and security, and 
expanded the frontiers of scientific research. These accomplishments 
share a common genesis: Education.
    As a critical component of achieving NASA's mission, the Agency's 
education activities reflect a diverse portfolio of Elementary and 
Secondary Education, Higher Education, e-Education, Informal Education, 
and Minority University Research and Education Programs (MUREP). 
Through its unique mission, workforce, and facilities, NASA is leading 
the way to inspire interest in STEM careers, as few other organizations 
can. Our efforts have also made significant impacts in engaging under-
served and under-represented communities in STEM.
    Accordingly, we are preparing the pathway for the next generation 
with great anticipation. These ``explorers and innovators of the new 
millennium'' must fully represent our nation's vibrant and rich 
diversity. Furthermore, we will support our nation's universities, 
colleges and community colleges by providing exciting research and 
internship opportunities that ``light the fire'' and ``fuel the 
passion'' for a new culture of learning and achievement in STEM.
    NASA's educational activities are designed to inspire, engage, 
educate, and employ our nation's talented youth. As contributors to 
achieving the Nation's goals, NASA is committed to three primary 
objectives to help improve the state of STEM education in our country:

        <bullet>  Strengthen NASA and the Nation's future workforce--
        NASA will identify and develop the critical skills and 
        capabilities needed to ensure achievement of the Vision for 
        Space Exploration, science, and aeronautics.

        <bullet>  Attract and retain students in STEM disciplines 
        through a progression of educational opportunities for 
        students, teachers, and faculty--NASA will focus on engaging 
        and retaining students in STEM education programs to encourage 
        their pursuit of educational disciplines critical to NASA's 
        future engineering, scientific, and technical missions.

        <bullet>  Engage Americans in NASA's mission--NASA will build 
        strategic partnerships and linkages between STEM formal and 
        informal education providers. Through hands-on, interactive, 
        educational activities, NASA will engage students, educators, 
        families, and the general public to increase America's science 
        and technology literacy.

    Education is led by the Assistant Administrator for Education, who 
has agency authority for ensuring a balanced portfolio to achieve our 
three outcomes. The Assistant Administrator for Education ensures all 
aspects of NASA are maximizing their potential to highlight the 
Agency's people, resources, and facilities in support of the Nation's 
education efforts to develop the skilled workforce necessary to achieve 
the Agency's goals and objectives.
    The success of NASA's education portfolio depends upon strategic 
planning across the Agency. Close coordination through high-performing 
teams is required among NASA's Office of Education, Mission 
Directorates, Centers, the Office of Human Capital Management, the 
Office of Diversity and Equal Opportunity, and other Mission Support 
offices to ensure that workforce requirements are identified and met, 
and that education efforts are aligned and focused on building the 
future workforce.

Evaluation of NASA Education Programs

    The Assistant Administrator for Education ensures a rigorous 
evaluation of the Agency's education portfolio. The portfolio is 
routinely evaluated to document performance, validate that planned 
outcomes have been achieved, drive improvements in program 
implementation, and ensure the integration of our education programs in 
our missions. Direct linkages between NASA's scientific and engineering 
activities and the Agency's education efforts ensure that they are 
unique, provide hands on experience, and not redundant with the 
programs of other federal agencies.
    The objectives for NASA's education evaluation are to ensure that 
(a) program activities are adequately documented, (b) the extent to 
which intended outcomes have been achieved is determined, (c) necessary 
improvements to program operations are identified, and (d) information 
is available to support data-driven decision-making about the 
individual and collective components of the education portfolio. It is 
also critical that NASA K-12 education programs in both formal and 
informal environments reinforce and augment local, State, and national 
learning improvement goals.
    Three complimentary components form the core of the NASA education 
performance measurement approach toward which the Agency is working. 
The first component, Evaluation, ensures that performance results of 
all NASA-supported education activities are documented. The evaluation 
process ensures that all required data are collected in a systematic 
manner by project managers who are accountable for performance 
reporting linked to pre-defined outcomes. The second component, Review, 
is designed to verify and validate performance. Through the review 
process, evidence pertaining to project effectiveness and impact will 
be collected, analyzed, and reported. NASA will make extensive use of 
independent, credible evaluators to conduct validation studies. The 
final component, Assessment, will inform decisions about the total 
Agency education portfolio in terms of NASA's unique contribution to K-
12 student learning and teacher training at both pre- and in-service 
levels. Decisions made through the assessment process will include 
factors such as gaps or redundancies in the portfolio, emergent career 
needs of NASA, direct linkage to the learning and professional 
development needs of the education community, and budget priorities 
maximizing the use of limited resources.

Collaboration and Coordination with Other Federal Agencies

    As the Agency has strengthened its portfolio and evaluation 
criteria, we have recognized the need to engage new partners and 
alliances in achieving our collective goal. Through partnerships, 
NASA's Office of Education is continually and collaboratively engaged 
with other federal agencies, including the Department of Education, the 
National Science Foundation (NSF), the Department of Commerce, as well 
as with the state coalitions, the District of Columbia, Puerto Rico, 
and the U.S. territories. Collaboration and coordination takes place in 
a number of forums. For example, the Assistant Administrator for 
Education serves as NASA's representative on the Subcommittee on 
Education and Workforce Development, under the President's National 
Science and Technology Council (NSTC) Committee on Science.
    Shortly after the State of the Union, the Assistant Secretary of 
Education, Henry Johnson, invited NASA and others to discuss potential 
collaboration opportunities. We are currently reviewing our portfolio 
of educational programs to assess NASA's participation. In addition, I 
serve as the NASA member on the Academic Competitiveness Council, 
chaired by Secretary Spellings, whose inaugural meeting on March 6th 
identified a plan of action to respond to the 2005 enacting legislation 
to address STEM education across the Federal Government. This 
initiative will enable us collectively to implement quality programs 
focused on our future.
    Increasing the number of students involved in NASA-related 
activities at the elementary and secondary education levels will 
inspire more students to pursue higher levels of study in STEM courses. 
To meet this country's future needs, we have to tap into the talent 
that is before us.

Budget for NASA Education Programs

    The FY 2007 budget request for NASA's Education programs is $153.3 
million. NASA's Education budget request sustains our commitment to 
excellence in science, technology, engineering and mathematics (STEM) 
education to ensure that the next generation of Americans can accept 
the full measure of their roles and responsibilities in shaping the 
future and meeting the workforce needs to implement the Vision for 
Space Exploration.
    The Agency's ability to fulfill its mission requirements is coming 
under increasing pressure as it competes for limited resources. This is 
particularly true in education where the continued growth in 
Congressionally-directed items is eroding NASA's ability to carry out 
its educational objective of contributing to the development of the 
STEM workforce in disciplines needed to achieve NASA's strategic goals. 
For FY 2006, more than one-half of the funding available for NASA's 
education efforts will be applied to these Congressionally-directed 
items. NASA acknowledges the Congress' commitment to STEM education and 
will honor Congressional direction before funding programs NASA 
requested in the budget. However, the redirection of funding has 
resulted in delays and/or cancellation of planned scholarships, grants, 
cooperative agreement notices, and other support for the education 
community across the Nation. It has had a direct impact in NASA's 
ability to meet existing commitments to students, teachers, faculty, 
universities and institutions. In implementing our new education 
framework and strategy, NASA is working with recipients of the 
Congressionally-directed items to align these initiatives toward 
overall Agency goals and priorities (workforce, pipeline, and public 
benefit). We look forward to working with the Congress to capture the 
strengths of these institutions and through peer-review processes have 
a strategic, focused impact in the areas cited by the National 
Academies, the Administration and the Congress to further the Nation's 
competitiveness. NASA seeks the assistance of Congress in reducing 
earmarks in the FY 2007 budget process.

NASA Education Programs

    Let me illustrate a few examples of the unique innovative projects 
that NASA makes available to support students across our nation:

Our Educator Astronaut Program selects outstanding educators to become 
permanent members of the Astronaut Corps. The program uses the 
visibility and educational opportunities created by the activities of 
the Educator Astronauts to inspire greater K-12 STEM achievement, 
promote STEM careers, and elevate public esteem for the teaching 
profession. In selecting our Educator Astronauts, we identified 
hundreds of our country's top educators. We have captured their energy 
through the Network of Educator Astronaut Teachers. They are now in 
communities all across America, engaging their schools and communities 
in NASA education activities and informing them of NASA resources 
(content, people, and facilities).

The NASA Explorer Schools form three-year partnerships with NASA. 
Focused on under-served or under-represented populations, the program 
is designed for education communities at the 4-9 grade levels. We 
assist middle schools improve teaching and learning in STEM education 
through significant structural (professional development, stipends, 
grants) and curricular support based on NASA resources.

The Science Engineering Mathematics and Aerospace Academy Program 
(SEMAA) reaches K-12 minority students that are traditionally under-
represented in careers involving STEM. Students meet during school, 
after school or on Saturday mornings and during the summer to engage in 
hands-on, interactive learning sessions that are specifically designed 
for each grade level.

Between the International Space Station, the space shuttle, sounding 
rockets and high altitude balloons, NASA's Education Flight Projects 
provide hands-on experiences to inspire and motivate students to pursue 
studies and careers in STEM through participation in NASA research 
applications. NASA is using its unique assets like the C-9 better known 
as ``The Vomit Comet'' to allow students to study microgravity; we're 
launching student experiments more than 25 miles above the Earth on 
sounding rockets; and our astronauts make phone calls from 240 miles 
above Earth's atmosphere to students to involve them in current 
research aboard the International Space Station. All these 
opportunities take advantage of our flight hardware projects provide 
real, hands-on experiences to inspire the minds, imaginations, and 
career ambitions of America's young people.

Teacher training for Worlds beyond Our Own captures the excitement and 
discovery surrounding planetary exploration. NASA and the Johns Hopkins 
Applied Physics Laboratory developed workshops and materials to assist 
educators in capturing the excitement surrounding NASA's New Horizons 
mission to Pluto that launched in January 2006. New Horizons is the 
fastest spacecraft ever launched from Earth, on board one of America's 
most powerful rockets, and will be traveling the farthest distance of 
any NASA spacecraft to begin its primary mission. Students will grow up 
with this project. Today's elementary school students will be in 
college when this spacecraft encounters Pluto.

In addition to in-service workshops based on our missions, NASA is 
committed to the pre-service training of our future educators. Our 11th 
annual Pre-Service Teacher Conference was keynoted by one of America's 
finest and most recognized teachers, Jaime Escalante. The conference 
was created to help undergraduates and aspiring teachers develop the 
confidence and skills to effectively teach mathematics and science 
using cutting-edge technology and educational materials only NASA can 
provide. Over 500 students and faculty from approximately 55 schools, 
representing 35 states participated this year.

Museums and Science Centers are developing activities and materials to 
inspire, educate, and engage students, educators and the general 
public. They are also hosting professional development opportunities 
for formal and informal education professionals across the Nation. For 
example, NASA and the Children's Museum of History, Natural History, 
Science and Technology in Utica, N.Y. unveiled two new exhibits at the 
museum last year. The exhibits ``Why We Explore'' and ``Space Station 
Imagination'' provide an overview of the history and future of space 
exploration. Astronaut Ed Lu, a veteran Space Station astronaut, who 
spent six months aboard the International Space Station, hosted the 
unveiling.

NASA's Great Moonbuggy Competition allows high school and college 
students' to race into the future and cross the surface of the Moon 
without leaving the Earth. Teams from the United States and Puerto Rico 
design human-powered vehicles to compete in NASA's annual Great 
Moonbuggy Race. The race was inspired by the lunar rover vehicles 
astronauts drove on the Moon during three Apollo missions. This year's 
event, which is open to the media and public, runs April 7-8 at the 
U.S. Space & Rocket Center in Huntsville, Alabama.

Conclusion

    We must encourage every segment of our population--girls and boys 
alike--from every walk of life, of every color and creed, to reach out 
and prepare for the opportunities of the 21st century. Building a 
pipeline of science and engineering talent to serve in the coming 
decades as we implement the Vision for Space Exploration to continue 
America's preeminence in space and aeronautics research and development 
can and must be done. NASA's mission is one of dreams, vision and 
exploration--characteristics that are ingrained in the American spirit 
and the underpinning of innovation and economic competitiveness. Our 
investment in STEM education is to nurture the next generation of 
Eileen Collins, Carl Sagan, Norm Augustine, and Neil deGrasse Tyson.
    I would like to commend the Committee for their efforts to improve 
K-12 STEM education. NASA looks forward to continuing to serve as a 
contributor to STEM education as well as other national needs. Again, 
thank you for the opportunity to participate in this important 
dialogue. I would be happy to answer any questions you may have for 
NASA.

                      Biography for Shana L. Dale

    Nominated by President George W. Bush and confirmed by the United 
States Senate, Shana L. Dale began her duties as Deputy Administrator 
of the National Aeronautics and Space Administration on November 14, 
2005.
    As Deputy Administrator, Dale serves as the Agency's second in 
command and oversees the day to day work of NASA's functional offices, 
such as the Office of the Chief Financial Officer, Office of General 
Counsel and Strategic Communications.
    Before coming to NASA, Dale was Deputy Director for Homeland and 
National Security for the Office of Science and Technology Policy 
(OSTP), Executive Office of the President. She co-chaired the National 
Science and Technology Council's Committee on Homeland and National 
Security and supervised work of the subcommittees. Dale previously 
served as the Chief of Staff and general counsel at OSTP. In this 
position, she led and managed the staff officials involved with 
homeland and national security, legislative affairs, press operations, 
legal and ethical issues, the federal research & development budget, 
and internal budget and administration.
    Earlier in her career, Dale served as the Assistant Vice Chancellor 
for Federal Relations at the University of Texas System, Federal 
Relations Office in Washington. In addition, Dale has 10-plus years of 
service on Capitol Hill including her tenure as Staff Director to the 
House Subcommittee on Space and Aeronautics. Dale also served on the 
Board of Directors for Women in Aerospace for four years.
    Prior to serving as Staff Director, Dale was the Republican 
Assistant Legislative Director and counsel on the Space Subcommittee. 
She was appointed to the Committee on Science, Space and Technology in 
March 1991, as the Republican counsel on the Subcommittee on Science. 
Dale also served on the House Public Works & Transportation Committee.
    Before moving to Washington, Dale was employed in private practice 
in San Diego, California. She received her Bachelor's with honors in 
management information systems from the University of Tulsa and her law 
degree from California Western School of Law. She is a member of the 
bars of California and the District of Columbia, and is admitted to 
practice before the United States Supreme Court.

    Chairman Boehlert. Thank you very much, Ms. Dale. General 
Kelly.

  STATEMENT OF BRIGADIER GENERAL JOHN J. KELLY, DEPUTY UNDER 
   SECRETARY FOR OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION

    Brigadier General Kelly. Chairman Boehlert, Ranking Member 
Gordon, Members of the Committee, I appreciate the opportunity 
to discuss with you NOAA's evolving education role.
    Before I start, I also would like to join my colleagues in 
thanking you, Mr. Chairman, for your service to the Nation, and 
most specifically, for the wise advice and support you have 
given us in NOAA these many years.
    While NOAA is one of the smaller agencies with a federal 
science role, we believe our education activities have been 
successful in helping prepare students for careers in science, 
and in teacher professional development.
    As a science mission agency, the core competencies of 
science, technology, engineering, and mathematics are essential 
for us to do our job. Internally, we require highly educated 
scientists, and externally, an informed public who understands 
and knows how to use observations and forecasts to make wise 
decisions that affect both our daily life and the economy. 
Consequently, we aim to educate the public and K-12 students in 
oceanic and atmospheric sciences, support and train science 
teachers, and provide scholarships and professional development 
opportunities to graduate and undergraduate students. NOAA's 
educational activities are varied, and based on six 
authorizations. The Administration's proposed NOAA Organic Act 
would consolidate diverse mandates and provide permanent NOAA-
wide educational authority.
    In 2003, Vice Admiral Lautenbacher, my boss, the Under 
Secretary of Oceans and Atmospheres, set environmental literacy 
as a NOAA-wide priority. Since then, we have established an 
Education Council, reconstituted and recently energized NOAA's 
Office of Education, and appointed a Director of Education, all 
designed to develop a coherent strategy for NOAA, and to ensure 
the most effective use of our limited education funds. Our 
priorities include developing core performance measures, and 
improving coordination and collaboration within NOAA and with 
other federal agencies. NOAA is focusing on suggestions made in 
the GAO's report on STEM education, and I will briefly 
highlight some of the programs directed at these activities, 
with an emphasis on K-12.
    The Teacher at Sea Program, run by our Office of Marine and 
Aviation Operations, has given 430 teachers from 47 states and 
three countries unique opportunities to do science on NOAA 
research and survey vessels. Participating teachers repeatedly 
tell us how these hands-on experiences help them inspire 
students, and foster a lifelong interest in science and 
education careers.
    Our JASON project uses multimedia tools and cutting edge 
technology to engage middle school students in science, and 
provides teacher professional development activities. Our 
Office of Ocean Exploration and Research has developed over 200 
hands-on lesson plans correlated to the National Science 
Education Standards. In 2004, 300,000 copies of those lesson 
plans were provided to teachers.
    NOAA has worked with the American Meteorological Society to 
provide supplemental classroom materials, instructional 
resources, and training to more than 100,000 teachers, to help 
them fulfill the Earth science certification requirement for No 
Child Left Behind. We also strive to leverage public interest 
surrounding current events into educational opportunities. In 
2005, after the tragic Indonesian tsunami, we developed, 
produced, and distributed a tsunami education resource kit that 
was made available to 8,000 K-12 teachers.
    We are also working with TERC, a private education research 
company, to assess the degree to which ocean sciences are 
currently represented in state science education standards, and 
to promote recognition of Earth science as a rigorous high 
school level laboratory science course. We are also taking 
steps to encourage minorities and women to pursue advanced STEM 
degrees. In 2001, we established the educational partnership 
program to provide financial assistance to Minority Serving 
Institutes. To date, more than 2,000 students have been 
provided research opportunities at that program's Cooperative 
Science Centers.
    The Sea Grant, John A. Knauss Marine Policy Fellowship 
Program has placed more than 550 graduate students at federal 
science agencies, and in Congressional offices for one year 
fellowships focused on ocean, coastal, and Great Lakes issues. 
The program has an exceptional record for attracting women. 
Since the year 2000, 71 percent of the Knauss fellows have been 
women. And I would like to note that program participants are 
now serving on several Congressional committee staffs, 
including the House Science Committee.
    NOAA's informal education programs have also introduced 
students to oceans and atmospheres by providing educational 
opportunities outside of the classroom. Our 13 marine 
sanctuaries and 27 estuary reserves provide children with 
hands-on learning in natural laboratories. Our Science on the 
Sphere Program, a suspended, six foot diameter globe used at 
many science centers and museums, to show animations of the 
oceanic, atmospheric, and land systems, provide a unique 
opportunity for visitors to get an increasing understanding of 
how the planet and its natural processes operate as a system.
    We believe the best way to ensure the Nation's scientific 
leadership and global competitiveness is to excite students at 
an early age, and provide opportunities for them to pursue 
science careers. NOAA is dedicated to making tools and learning 
experiences available to students, which we believe ultimately 
will enable them to better help our mission and serve the 
Nation.
    Thank you for this opportunity to speak, and I again look 
forward to entering into a dialogue with you later.
    [The prepared statement of Brigadier General Kelly 
follows:]

         Prepared Statement of Brigadier General John J. Kelly

    Mr. Chairman, and Members of the Committee, thank you for inviting 
me to discuss the National Oceanic and Atmospheric Administration's 
(NOAA's) education program. I am Jack Kelly, Deputy Under Secretary for 
Oceans and Atmosphere. NOAA supports and appreciates the actions taken 
by Members of the Committee to focus on academic excellence through 
Science, Technology, Engineering and Mathematics (STEM) education 
programs.
    As a federal science agency that relies on a highly trained 
scientific and technical workforce, NOAA has a vested interest in 
encouraging young people to become interested in science and eventually 
pursue higher education and careers in science fields. NOAA believes 
that federal science agencies have a unique role to play in ensuring an 
integral connection between science and education.
    As was articulated in Blueprint for Change: Report from the 
National Conference on the Revolution in Earth and Space Science 
Education (Barstow, 2002): ``NASA, USGS, NOAA and other agencies have. 
. .[a] treasure trove of satellite imagery, animations, interactive 
maps and other visualizations for ready access by schools and the 
general public. The Internet helps students see how Earth's forces 
affect their daily lives and provides. . .links for further 
exploration. Such efforts should be continued and expanded, including 
developing related educational materials to help teachers and students 
take better advantage of these resources.''
    NOAA's mission is directed at serving our nation's need for oceanic 
and atmospheric information to support economic, social, and 
environmental prosperity. Fulfilling this mission requires more than 
the delivery of accurate and precise scientific information; it also 
demands a public that is sufficiently empowered to translate scientific 
information into appropriate actions to protect lives, property, and 
the environment.
    NOAA's education programs are focused on enhancing STEM education 
activities in subject areas where NOAA has unique expertise and where 
public responsiveness to warnings, forecasts, and stewardship efforts 
is important for meeting its mission. NOAA not only conducts scientific 
research and monitoring, but also manages marine areas that provide 
real world, practical connections between science and the environment. 
Public programs in these natural laboratories build a stewardship ethic 
by showing how individuals' actions have direct impact on the 
environment. Because NOAA's mission is highly applied and directly 
related to decisions people make day to day, our education programs can 
highlight relationships between science and resource management 
decisions and forecasts and warnings. Further, NOAA's data and 
information services are provided on a consistent basis and have direct 
relevance to the events the general public experiences daily. This 
relevance makes the information of strong interest to educators as 
demonstrated by the roughly 6,000 requests from teachers, students and 
librarians for NOAA education materials that are received each year by 
the NOAA Outreach Unit in Silver Spring, MD.
    In 2003, Vice Admiral Conrad C. Lautenbacher, Jr., U.S. Navy 
(Ret.), Under Secretary of Commerce for Oceans and Atmosphere, 
recognized a need to develop a formal education program in NOAA, 
reconstituted the NOAA Office of Education, and appointed a Director of 
Education, and established an Education Council. One of the primary 
goals of the office and council is to develop performance measurements 
for each education program in the agency to quantify their 
effectiveness. These entities are also responsible for coordinating 
education activities within NOAA and with other federal agencies, and 
serving as a single contact source for all education issues for NOAA. 
We also note that, while NOAA has authorities under specific programs, 
passage of the Administration's proposed NOAA Organic Act would provide 
permanent, NOAA-wide authority to disseminate information and conduct 
education and outreach.
    NOAA invests in strategic education activities directed toward K-12 
formal education and teacher professional development, opportunities 
for students pursuing STEM-related careers, and informal education 
activities in order to achieve our mission goals and promote 
development of a highly competent national workforce to support our 
future professional requirements.
    In this testimony, I will focus on three areas where NOAA conducts 
education activities relevant to K-12 formal education and teacher 
professional development, higher education opportunities for students 
pursuing STEM-related careers, and informal education activities.

K-12 Formal Education and Teacher Professional Development

    NOAA activities to enhance classroom-based STEM-related education 
are broadly focused on efforts to improve the degree to which NOAA-
related disciplines are addressed in education standards, are infused 
in science curricula, and are present in teacher professional 
development. This multi-faceted approach is critical because reports 
suggest that few teachers are empowered to teach in STEM-related 
fields. Before It Is Too Late: A Report to the Nation from the National 
Commission on Mathematics and Science Teaching for the 21st Century, 
reports that more than one in four high school mathematics teachers and 
nearly one in five high school science teachers lack even a minor in 
their main teaching field. Furthermore, more than 12 percent of all new 
hires enter the classroom without any formal training; another 14 
percent start work without meeting the teaching standards of their 
states.
    Ocean Literacy is a joint public and private partnership effort to 
address deficiencies in the K-12 education standards highlighted by the 
U.S. Commission on Ocean Policy. This project represents the collective 
effort of numerous partners including NOAA and other federal entities, 
the National Geographic Society, Centers for Ocean Sciences Education 
Excellence, and the National Marine Educators Association, to bring 
together the ocean community to identify the knowledge required to be 
considered ocean literate in accordance with the National Science 
Education Standards for K-12 education. This collective effort resulted 
in a definition of ocean literacy comprised of seven essential 
principles, supported by detailed fundamental concepts, which educators 
can use to fulfill the eight national science education standards and 
meet the science requirements of the No Child Left Behind Act, when 
those requirements take effect.
    NOAA is building on its involvement in this effort by funding TERC, 
a private education research company, to assess the degree to which 
ocean sciences are currently represented in state science education 
standards. NOAA is also working with TERC to promote recognition of 
Earth science as a rigorous laboratory science course at the high 
school level. Although there are no nationally-recognized or 
nationally-adopted science education standards, in 1996 the National 
Research Council published recommended National Science Education 
Standards, which have formed a framework for the standards developed in 
some states. Earth science education is one of the three essential 
science areas addressed in the National Science Education Standards 
(NRC 1996) and preliminary results of an assessment commissioned by 
NOAA suggest that Earth science is included in every state's education 
standards. However, evidence shows that only 24 percent of our nation's 
students take a high school Earth science course prior to graduation, 
and Earth science is often times viewed as a less-rigorous course 
intended for non-college bound students. NOAA is supporting activities 
of TERC to revolutionize high school Earth science education by 
developing a model lab-based high school Earth system science course 
featuring a combination of field work, classroom experiments, and 
computer access to data and visualizations.
    Through a partnership with the National Science Teachers 
Association (NSTA), NOAA provides supplemental education materials and 
improves teacher content knowledge in science topics relevant to NOAA's 
mission. Specifically, NOAA has already supported the development of 
classroom materials related to corals and estuaries, and several others 
related to climate and weather topics are in development. The concepts 
presented in these classroom materials will be reinforced by on-line 
and in-person teacher professional development courses and symposia 
offered through NSTA to their members. By partnering with the largest 
professional organization of science teachers in the United States, 
NOAA expands the impact of our science education activities by 
leveraging NSTA's expertise and extensive network of teachers.
    NOAA partners with the American Meteorological Society (AMS) to 
create supplemental material for use in K-12 classrooms. NOAA has 
provided support to AMS's DataStreme Atmosphere and DataStreme Oceans 
programs, which train K-12 teachers in oceanic, atmospheric, and 
hydrologic sciences through pre-college teacher training and 
instructional resource material development. To date, over 100,000 
teachers have received NOAA-relevant AMS training and instructional 
resources, which may help some teachers fulfill their Earth Science 
certification requirements and achieve ``highly qualified'' status 
under the No Child Left Behind Act.
    The JASON Project receives support from NOAA to use multimedia 
tools and cutting-edge technology to engage middle school students in 
scientific research and expeditions led by leading scientists. Dr. Bob 
Ballard, discoverer of the sunken ocean liner Titanic, has transmitted 
his discoveries to millions of students in classrooms around the 
country, via satellite and Internet broadcasts. The JASON Project also 
provides on-site and on-line teacher professional development supported 
by the National Science Teachers Association.
    NOAA's Office of Ocean Exploration and Research (OE) has developed 
over 200 hands-on, inquiry-based lessons correlated to the National 
Science Education Standards. Scientists and educators explain the 
science behind each NOAA Ocean Exploration expedition for classrooms. 
The lessons are designed to introduce educators to ocean scientists and 
explorers, their research and explorations, and tools and resources 
that will interest students in NOAA-related science and exploration 
efforts. In 2004 alone, the Ocean Explorer Web site had requests for 
over 300,000 downloads of pages of these lessons. In 2005, the 
Education Section of the site tripled in bandwidth used due to dramatic 
increase in site usage. Formal evaluations conducted on this 
professional development program indicate that participating teachers 
felt better empowered to expose their students to ``real'' science. As 
a result, students report ``discovery of a potential career area.'' 
Through the OceanAGE (Another Generation of Explorers) section of the 
Ocean Explorer Web site, students can interact virtually with the likes 
of Bob Ballard and Shirley Pomponi through video-based interviews as 
they learn why these premier ocean explorers chose careers in ocean 
science.
    NOAA education also leverages public interest surrounding current 
events into educational opportunities. In 2005, after the Indonesian 
tsunami, NOAA developed and produced a tsunami education resources kit 
for K-12 teachers by compiling existing education materials and 
simulation models from across NOAA. To date, NOAA has distributed 8,000 
kits to teachers nationally. This year, NOAA has produced a Hurricane 
Education packet in response to heightened national interest after 
Katrina and the record breaking 2005 tropical storm season. NOAA 
anticipates distribution of approximately 10,000 packets at the 
National Science Teachers Association meeting next week.
    NOAA's local and regional facilities and fleet of ships and 
aircraft offer unique locations and platforms for teacher professional 
development opportunities. Since its inception in 1990, NOAA's Teacher 
at Sea program has enabled more than 430 teachers, from 47 states and 
three countries, to participate in real research and experience life at 
sea. Administered by NOAA's Office of Marine and Aviation Operations, 
the program gives teachers the chance to go to sea aboard NOAA research 
and survey vessels.

STEM-Related Higher Education Opportunities

    NOAA actively serves students with a variety of opportunities to 
develop academic excellence and scientific rigor. Many graduates of 
these education programs continue their professional careers in the 
sciences and work for NOAA or partner institutions. The collective 
efforts of all these opportunities are aimed at increasing the size and 
diversity of the pool of future candidates for STEM-related 
professional positions.
    NOAA's Educational Partnership Program began in 2001 and provides 
financial assistance, on a competitive basis, to Minority Serving 
Institutions (MSIs) to increase programs and opportunities for students 
to be trained and graduate in sciences that directly support NOAA's 
mission. The program consists of four core components: Cooperative 
Science Centers, Environmental Entrepreneurship Program, Graduate 
Sciences Program, and the Undergraduate Scholarship Program.

        <bullet>  Four Cooperative Science Centers have been designated 
        at MSIs with graduate degree programs in NOAA-related sciences. 
        To date, NOAA has provided formal training and research 
        opportunities for 2,050 students at these centers. External 
        teams of scientists have reviewed the centers to determine the 
        effectiveness of student recruitment, training and graduation.

        <bullet>  The Environmental Entrepreneurship Program provides 
        financial assistance to increase the number of students at MSIs 
        who are proficient in both environmental studies and business 
        enterprises. The Program facilitates linkages among MSIs, NOAA, 
        and the private sector.

        <bullet>  The Graduate Sciences Program offers training and 
        work experience to exceptional female and minority students 
        pursuing advanced degrees in the environmental sciences. NOAA 
        provides program participants with tuition, a housing 
        allowance, travel expenses, and a salary for an annual 16-week 
        work period at a NOAA facility, and the students are mentored 
        by scientists while performing research. After completing the 
        program, participants commit to employment at NOAA based on the 
        length of their training. To date, the Graduate Sciences 
        program has hired 27 graduates as NOAA scientists.

        <bullet>  The Undergraduate Scholarship Program has sponsored 
        69 students majoring in NOAA-related sciences at MSIs to obtain 
        tuition assistance and participate in two ten-week summer 
        internships. Forty-one students have completed the program, 
        with 28 going on to graduate school.

    The Dr. Nancy Foster Scholarship Program, named in honor of the 
late, distinguished NOAA scientist and Assistant Administrator, 
recognizes outstanding scholarship and encourages independent graduate 
level research--particularly by female and minority students--in 
oceanography, marine biology, and maritime archaeology. Congress 
authorized the Program, as described in the National Marine Sanctuaries 
Amendments Act of 2000, soon after Dr. Foster's death in June 2000, as 
a means of honoring her life's work and contribution to the Nation. To 
date, 22 students have received scholarships, 18 of whom were women.
    The National Sea Grant program offers several opportunities for 
graduate students through the John A. Knauss Marine Policy Fellowship. 
The Knauss fellowship, established in 1979, provides a unique 
educational experience for graduate students who have an interest in 
ocean, coastal, and Great Lakes resources and in the national policy 
decisions affecting those resources. The program places highly 
qualified graduate students at NOAA, NASA, the Department of the 
Interior, NSF, and Congressional offices for a one-year paid 
fellowship. The program is named in honor of one of Sea Grant's 
founders, former NOAA Administrator John A. Knauss. Since its 
inception, there have been over 550 Knauss fellows and annual program 
participation by females has averaged 71 percent since 2000.
    The Ernest F. Hollings Scholarship Program recruits and prepares 
students for public service careers with NOAA and other natural 
resource and science agencies as well as for careers as teachers and 
educators in oceanic and atmospheric science. This year, the first 
Hollings Scholars are expected to participate in summer internships 
with NOAA labs and facilities. The Hollings Scholarship Program 
currently funds more than 100 students in ocean and atmospheric 
sciences, math, computer science, social science, and education.

Informal Education

    NOAA's informal education activities provide educational 
experiences that typically involve taking students to unique settings 
outside of the classroom. Informal education combines well established 
educational methods with the excitement of hands-on activities and 
field experiences and develops life-long interest in the ocean and 
atmosphere. NOAA's informal education activities include hosting school 
children, community groups, and the general public at NOAA sites, 
supporting hands-on experiences in NOAA-related sciences, and 
increasing the inclusion of NOAA-related topics at science centers, 
museums, and aquaria.
    NOAA is uniquely positioned to allow citizens to experience 
directly how a federal science agency manages our nation's natural 
resources and the importance of those resources. NOAA has 13 marine 
sanctuaries and 27 estuarine research reserves that provide students 
and the general public with hands-on experiences within these natural 
laboratories. These outdoor and engaging educational experiences 
provide direct application of the multi-disciplinary science NOAA 
conducts, and promote stewardship. School field trips to these sites 
enrich and supplement the classroom curriculum. Education coordinators 
at each site offer a variety of educational experiences tailored for 
the local community and school districts.
    Programs such as Sea Grant, the National Marine Sanctuaries, and 
the National Estuarine Research Reserves offer comprehensive education 
programs that provide NOAA with the critical connection to the needs of 
the local communities that these place-based programs serve. These 
programs provide topically relevant and standards-based education 
programs and materials founded on an integration of NOAA's multi-
disciplinary approach to understanding and predicting changes in the 
Earth's ecosystem.
    Infusion of NOAA-related science topics into public venues for 
learning about science further promotes our ability to reach broad and 
diverse audiences and increase understanding of Earth system dynamics. 
One example of how we are increasing coverage of NOAA topics in 
museums, science centers, and aquaria is through public exhibits of 
NOAA's Science On a Sphere, a 3-D visualization tool of NOAA's global 
data. In June 2004, an evaluation of Science On a Sphere conducted at 
the Maryland Science Center indicated Science On a Sphere is a powerful 
and effective data visualization tool that engaged the public. Visitors 
reported significant increases in knowledge on Earth system dynamics 
and increases in their understanding about interconnections of these 
dynamics after viewing the Science On a Sphere exhibit. This program is 
providing us with an unprecedented opportunity to incorporate NOAA data 
and increase understanding about the Earth as an ecosystem.

NOAA's Need for STEM Education Improvements

    In conclusion, thank you for this opportunity to describe NOAA's 
education programs with your committee. The successful performance of 
NOAA's mission depends on having access to the best meteorologists, 
oceanographers, cartographers, biologists, chemists, and engineers to 
conduct our work. Like many science-based agencies, many of NOAA's 
senior scientists are eligible for retirement this year. NOAA needs to 
attract well-qualified and trained candidates utilizing a variety of 
scholarship and fellowship programs that support education and training 
in NOAA-related sciences. The best way to ensure NOAA's scientific 
leadership and global expertise in oceanic and atmospheric research, 
observations, and forecasting, and environmental and ocean health, is 
to have the best and the brightest students, from a diversity of 
backgrounds, become fascinated with science education and the 
environment in which we live. NOAA's education program actively 
supports this objective.
    That concludes my statement, Mr. Chairman. Thank you for the 
opportunity to present testimony on this topic. I am happy to respond 
to any questions the Committee may have.

    Biography for Brigadier General John J. Kelly, Jr., (USAF ret.)
    Brigadier General (USAF retired) John (Jack) J. Kelly, Jr. serves 
as the Deputy Under Secretary of Commerce for Oceans and Atmosphere, 
National Oceanic and Atmospheric Administration (NOAA). He is 
responsible for the day-to-day management of NOAA's domestic and 
international operations. In addition, General Kelly is the United 
States principal representative with the World Meteorology Organization 
(WMO) and is responsible for U.S. interactions with the WMO.
    General Kelly has 39 years of experience in all facets of the 
weather field, including 21 years at the senior executive level in both 
government and private industry. He has broad experience in leading 
science-based service organizations, introducing change, and using and 
implementing technology and science.
    General Kelly served as senior advisor on weather services for the 
Department of Commerce and conducted a bottom-up review of the NOAA 
National Weather Service (NWS) operation, plus NOAA and NWS management, 
planning, and budget policies and processes. He was NOAA's Assistant 
Administrator for the Weather Service from 1998 to January 2004.
    In the private sector, General Kelly was Director of Weather 
Systems for GTE Information Systems from 1994 to 1996. There he 
directed GTE's weather and aviation services business line and was 
responsible for client satisfaction and interface, strategic planning, 
business development and sales, profit and loss, and program 
management.
    General Kelly retired from the Air Force in 1994 after serving for 
31 years. His duties covered the entire spectrum of the weather field, 
from operational forecaster to chief scientist, to staff officer. He 
retired as Director of Weather Headquarters, U.S. Air Force.
    General Kelly holds a Bachelor's degree in chemistry from Seton 
Hall University and a Master's degree in public administration from 
Auburn University. He also completed leadership programs at the Air 
Force Command and Staff College and the Industrial College of Armed 
Forces. General Kelly is an American Meteorological Society Fellow and 
has received numerous U.S. and international awards.

    Chairman Boehlert. Thank you very much, General. Dr. 
Decker.

 STATEMENT OF DR. JAMES F. DECKER, PRINCIPAL DEPUTY DIRECTOR, 
          OFFICE OF SCIENCE, U.S. DEPARTMENT OF ENERGY

    Dr. Decker. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to testify today about the 
Department of Energy's role in math and science education, and 
the K-12 education programs in the Office of Science.
    Now, Mr. Chairman, I would like to add my thanks to you for 
your long service to the Nation as a Member of Congress, and 
leadership that you have displayed here on this committee. 
Thank you.
    I want to begin with a short personal story. Nearly 50 
years ago, the Soviet Union surprised the world by launching 
Sputnik, the first ever satellite in space. Sputnik was a great 
shock to this country, and led to a major effort to gain the 
lead in space by making major new investments in science and 
engineering. The Sputnik challenge was the main reason I chose 
a career in science. I grew up in a very small rural town in 
upstate New York, didn't have a clue about careers in science, 
never met a scientist, but I was fortunate to have very good 
science and math teachers, and I liked science. The Sputnik 
challenge, which came along when I was in high school, had two 
features that attracted me to a career in science. First, it 
was a science and technology challenge that was important to 
the country. Second, I thought there would be jobs in science. 
The promise of jobs should not be underestimated as a key 
factor in a student's career choice.
    Many of my colleagues have similar stories about why they 
chose a career in science. It was a result of good science and 
math teachers, a national challenge, and a promise of 
employment. The Sputnik challenge resulted in a large influx of 
students into science, engineering, and mathematics from which 
the country benefited for nearly 50 years. That generation of 
scientists has reached retirement age.
    The Department of Energy is largely a science and 
technology agency. This gives us a strong vested interest in 
STEM education. The Department and its laboratories today face 
the challenge of an aging scientific and technical workforce 
that must be rebuilt, and we are very concerned about the 
pipeline that produces the talent needed to fill our critical 
need. The Department's primary contribution to the science 
education pipeline is through the support and training of 
graduate students. It is a natural byproduct of our support of 
research in universities, and also, many graduate students 
supported by other federal agencies receive a portion of their 
training at the Department's scientific user facilities.
    The Office of Science also provides some direct support for 
K-12 target STEM education programs for in-service K-12 
teachers, and undergraduates training to be K-12 teachers. 
These programs use the scientific personnel and research 
capabilities of the Department's laboratories to engage 
teachers in an environment aimed at making the connections with 
the science and technology principles they teach. The 
capabilities at the laboratories are used to build teachers' 
content knowledge and skills through a research experience and 
a continuing mentorship by laboratory scientists and master 
teachers.
    We hope through this program to train teachers who can act 
as agents of change in their school districts, to help raise 
the quality of STEM teaching and the level of student 
achievement. What we are finding is that the teachers who 
participate in these programs at the national labs are becoming 
teacher-leaders in their education communities.
    We are pleased that the National Science Foundation has 
joined us in supporting these programs. The Department's 
laboratories have not only enthusiastically participated in the 
Office of Science-sponsored education programs, but on their 
own, they have, for many years, conducted programs for both K-
12 students and teachers, largely through volunteer efforts of 
the scientific staff. These laboratory programs touch tens of 
thousands of students and teachers every year.
    Finally, I want to mention the National Science Bowl, 
sponsored by the Office of Science, because it is the type of 
event that brings recognition of academic achievement in STEM 
fields, and inspires students to become more interested in 
STEM. The National Science Bowl is a highly regarded 
educational event that continues to grow every year in 
reputation among students, educators, science coaches, and 
volunteers. More than 1,800 high schools from across the Nation 
participate regionally in fast-paced problem solving events, 
with the highest performing team from each region coming to 
Washington, D.C. to participate in the national event.
    This annual event has generated student enthusiasm for 
learning about science by engaging 110,000 students during its 
16 year history. The National Science Bowl has been so 
successful that in 2002, we initiated the Middle School Science 
Bowl, and it has also become a great success. This year, the 
finals for the National Science Bowl will be held April 27 
through May 1 here in Washington. I would like to invite all 
the Members of this committee, as well as the witnesses to 
observe the finals.
    As we as a Nation attempt to address the issue of 
attracting more students into careers in science, engineering, 
and mathematics, as outlined in the President's American 
Competitiveness Initiative, we should learn from the Sputnik 
experience, and recognize the power of those inspirational 
challenges that capture the imagination of young students. The 
American Competitiveness Initiative, that focuses on the 
Nation's competitiveness in the global economy, and the 
President's Advanced Energy Initiative can begin to focus the 
attention of the Nation on two important challenges that are 
intimately linked.
    These initiatives represent two examples where there are 
clear national challenges, a commitment by the President to 
seek funding to attack those challenges, and an opportunity to 
attract the young talent into scientific and technical fields 
that will be essential to address those challenges. The 
Department of Energy remains committed to its role in training 
the next generation of scientists, engineers, and teachers to 
take on these challenges.
    And again, thank you, Mr. Chairman, and Members of the 
Committee, for inviting me to testify today, and I would be 
happy to answer any questions.
    [The prepared statement of Dr. Decker follows:]

                 Prepared Statement of James F. Decker

    Mr. Chairman, thank you for the opportunity to testify today about 
the Department of Energy's (DOE) role in math and science education and 
the K-12 education programs of the Office of Science. The DOE's most 
significant contribution to education, broadly defined, over the years 
has been through our support of graduate students pursuing advanced 
degrees and by providing opportunities for undergraduate students and 
K-12 teachers to utilize our research facilities and work with the 
scientific and technical staff at the laboratories, which are unique 
places for research, learning, and collaboration. Our long history of 
support of programs for students and teachers has helped establish a 
culture at the National Laboratories where mentoring and learning are 
encouraged and supported. For more than 30 years, the DOE National 
Laboratories have provided mentor-intensive research internship and 
fellowship opportunities for undergraduate and graduate students 
studying in science, technology, engineering, and mathematics (STEM) 
fields. Since 1989 we have also supported programs that bring K-12 
teachers into the National Laboratories to work with researchers and 
build content knowledge and skills that they then take back to their 
classrooms.
    The two most important ways the Federal Government can improve 
science and math education is to help ensure that there is a highly 
qualified teacher in every classroom and second, to help ensure that 
students have the opportunity in their schools to study science and 
math every day of the school year and every year throughout their K-12 
education. The No Child Left Behind Act has put great emphasis on 
providing a qualified teacher in every classroom. Providing 
opportunities for professional development for STEM teachers is an area 
where DOE and the National Laboratories have played and will continue 
to play a valuable role.
    The role of the Department and particularly the Office of Science 
in STEM education is complementary to the efforts of other federal 
agencies. Our collaboration with the National Science Foundation (NSF) 
in various programs is especially productive and effective in bringing 
students from NSF funded programs to our National Laboratories; 
strengthening transfer of teacher research experiences to classrooms; 
curriculum development that strengthens our mission, and increasing 
science literacy. In contrast, work on specific curricula is more a 
responsibility of State and local education communities across the 
country.
    I would note here that, the Department of Energy's overall role in 
K-12 education is small. In the Office of Science, for example, our 
current budget for the Office of Workforce Development for Teachers and 
Scientists (WDTS) is just over $7 million. For Fiscal Year 2007 we have 
requested almost $11 million--a significant increase, though WDTS is 
small relative to the programs of other more education-focused federal 
agencies. In addition, however, it should also be noted that the 
National Laboratories conduct independent, overhead-funded K-12 
education programs that reach out to thousands of students every year. 
With annual spending of roughly $8 million dollars these are truly 
community-based programs, developed and sustained by strong local 
support and participation.

The Office of Science and STEM Education

    The DOE Office of Science sponsors fundamental research programs in 
basic energy sciences, materials and chemical sciences, nanoscale 
science, climate change, genomics, life sciences, fusion energy 
sciences, high energy physics, nuclear physics, and advanced scientific 
computing. The Office of Science supports a diverse portfolio of 
research at more than 275 colleges and universities nationwide. This 
year, we are funding the work of about 23,500 scientists, including 
more than 10,000 Ph.D.s, graduate students, undergraduates, and 
postdoctoral researchers at the Nation's institutions of higher 
learning.
    The Office of Science is also the steward of 10 world-class 
laboratories with unmatched capabilities for solving complex 
interdisciplinary scientific problems, and we fund research at DOE's 
seven other National Laboratories as well. The DOE National Laboratory 
system is the most comprehensive research system of its kind in the 
world and the backbone of American science. The Office of Science also 
builds and operates the world's largest suite of scientific facilities 
and instruments, used annually by more than 19,000 researchers to 
extend the frontiers of all areas of science.
    The Office of Science has played a fundamental role in training 
America's scientists, engineers, and teachers for more than 50 years. 
Today we offer a range of workforce development programs for teachers 
and scientists to provide opportunities for scientific discovery and to 
ensure that this nation has the scientific workforce we will need in 
the 21st century.
    In science, the mission of research and the mission of education 
are inextricably linked. There is no more powerful spur to interest in 
science than hands-on experience in cutting edge research in a well-
equipped laboratory. I believe the DOE has played a valuable role in 
math and science education at the K-12, undergraduate, and graduate 
levels by providing young scientists and teachers with in-depth 
exposure to the world of science through hands-on experience at our 
advanced facilities. While other Offices within the Department support 
undergraduate and graduate research, the Office of Science, through its 
Office of Workforce Development for Teachers and Scientists, supports 
the majority of programs that target K-12 education.

Preparing K-12 Teachers for the Classroom

    It is widely recognized that the most effective means for improving 
student performance is through the training and continued support of 
the professional development of elementary and secondary school 
teachers (Educational Leadership, March 2002). In a survey of thousands 
of STEM graduate students, conducted by the NSF in 2002, 84 percent of 
those surveyed stated that they had chosen to pursue a STEM field 
career by the time they left high school. This suggests that K-12 
teachers play a critical role in increasing the size and quality of the 
science, technology, and engineering workforce. Unfortunately, various 
studies including the Glenn Commission Report, A Report to the Nation 
from the National Commission on Mathematics and Science Teaching for 
the 21st Century, 1999; Rising Above the Gathering Storm, 2005, from 
the National Academy of Sciences Committee on Prospering in the Global 
Economy of the 21st Century; and ``Tapping America's Potential: The 
Education for Innovation Initiative,'' 2005, led by the Business 
Roundtable have indicated that the teaching pool in mathematics and 
science is inadequate to meet the current needs in K-12 schools across 
the Nation.
    According to the Glenn Commission Report, classes in K-12 math and 
science are often taught by unqualified and under-qualified teachers 
who have little or no formal training in math or science (citing Linda 
Darling-Hammond, Supply, Demand, and Quality in Mathematics and Science 
Teaching. Briefing for the National Commission on Mathematics and 
Science Education for the 21st Century, Washington, D.C., September, 
1999.):

         More than one in four high school mathematics teachers and 
        nearly one in five high school science teachers lack even a 
        minor in their main teaching field.

         About 56 percent of high school students taking physical 
        science are taught by out-of-field teachers, as are 27 percent 
        of those taking mathematics. These percentages are much greater 
        in high poverty areas. Among schools with the highest minority 
        enrollments, for example, students have less than a 50 percent 
        chance of getting a science or mathematics teacher who holds 
        both a license and a degree in the field being taught.

    This finding is troubling because research indicates students who 
are taught by well-prepared science, math, and technology education 
teachers achieve at higher levels in class performance and on 
standardized exams. Citing What Matters Most: Teaching for America's 
Future, 1996, by the National Commission on Teaching and America's 
Future, and state studies correlating National Assessment of 
Educational Progress rankings with teacher qualifications, the Glenn 
Commission notes:

         Evidence of the positive effect of better teaching is 
        unequivocal; indeed, the most consistent and powerful 
        predictors of student achievement in mathematics and science 
        are full teaching certification and a college major in the 
        field being taught. Better math and science teaching is 
        therefore grounded, first of all, in improving the quality of 
        teacher preparation and in making continuing professional 
        education available for all teachers.

    The No Child Left Behind Act requires States to fill the Nation's 
classrooms with teachers who possess content knowledge in the field in 
which they teach and requires, beginning in school year 2007-08, that 
states measure students' progress in science at least once in each of 
three grade spans (3-5, 6-9, 10-12) each year. The measuring of 
students' performance in science over several years also has the 
potential to provide a valuable measurement of the effectiveness of 
federally funded teacher training programs and efforts to increase the 
number of qualified teachers in the classroom.

DOE K-12 In-Service Teacher Professional Development Programs

    All of the studies cited emphasize the importance of well-prepared 
science and math teachers in the classroom. As noted earlier, since 
1989 DOE has played a role in providing professional development for K-
12 teachers. Since the early 1950's, DOE and its predecessor agencies 
have been major contributors to the preparation and training of the 
next generation of scientists. DOE continues this effort through 
mentor-intensive research experiences at the National Laboratories for 
students, teachers, and faculty at all levels of education.
    The Office of Science created its current in-service teacher 
professional development program targeting the Nation's K-12 STEM 
teachers in 2004. The primary goal of the Laboratory Science Teacher 
Professional Development (LSTPD) program is to create a cadre of STEM 
teachers who have the proper math and science content knowledge and 
scientific research experience to perform as leaders and agents of 
positive change in their local and regional education communities. In 
developing this program our WDTS office reviewed the best practices in 
teacher professional development identified by the National Academy of 
Sciences, the American Association for the Advancement of Science, and 
the American Institutes for Research. Several professional development 
models for teachers were also considered, including: the National Board 
for Professional Teaching Standards, ``Five Core Propositions'' and 
Loucks-Horsley and colleagues' ``Fifteen Strategies for Professional 
Development.'' A primary expected outcome of the program is that 
teachers who participate will better educate and inspire students to 
study and become more involved in academic and extracurricular STEM 
activities, eventually raising student achievement on standardized 
tests and ultimately leading to more well-prepared students pursuing 
STEM majors in college. To achieve these results, the program provides 
K-12 classroom teachers with long-term, mentor-intensive professional 
development through scientific research or research-like opportunities 
at the National Laboratories over a three-year period.
    Each teacher selected for the program makes a three-year 
commitment. Teachers are recruited nationwide and apply through an 
online system. Teachers are selected from a wide variety of demographic 
and educational backgrounds and are chosen on the basis of their 
qualifications as teachers of science and whether the National 
Laboratory they have chosen can provide the necessary developmental 
support in the particular subject-matter area where the teachers have 
identified a need. Participants' program placement is based upon their 
self-identified areas of content knowledge that need strengthening and 
on the laboratory's ability to meet that need. Participants receive a 
weekly stipend and housing allowance for the period they are at the 
laboratory. They also receive monetary support to help them extend what 
they have learned to their classrooms, purchase supplies for laboratory 
equipment and technology, connect students via classroom activities to 
National Laboratory research, continue contact and collaboration with 
other participant teachers and laboratory scientists, make return 
visits to the laboratory, and communicate their experiences at 
professional conferences and in publications.
    The participants can choose from two different types of laboratory 
experiences. The first is primarily a Laboratory Research Experience 
where the teacher conducts research under the guidance of a lab 
scientist. This experience is most popular among high school teachers 
and is eight weeks long. The other is a more modest approach, known as 
the Research Institute Model, where teachers work in small groups doing 
mock research projects under the guidance of educators and lab 
scientists. This approach, which runs four weeks, is most popular with 
elementary and middle school teachers.
    All LSTPD teachers are provided guidance and mentorship by a 
``Master Teacher.'' The Master Teacher not only has experience and a 
proven record of teaching excellence, but s/he is also familiar with 
the National Laboratory environment. The Master Teacher helps the 
participating teachers prepare a three-year professional development 
plan, guided by initial evaluation of the teachers' command of subject 
matter in the courses that they teach. This reflection and 
collaboration process has been shown in educational research to be 
fundamental to successful implementation of teacher professional 
development. The teacher assessments and delivered outputs will 
ultimately track the effects of the program on student science and math 
achievement.
    The LSTPD program has funded 115 teachers to participate in a pilot 
program that began in 2004; the first cohort will complete the three-
year program this summer. The FY 2007 budget request for the program 
will increase the number of teachers participating to more than 300, 
and the Office of Science is in the process of planning to offer the 
program at all 17 DOE laboratories in the summer of 2007. Although the 
program is new and small, it has already had positive impact on its 
participant teachers, as described later in this testimony.

DOE Program for Future K-12 Teachers

    The Office of Science also funds the Pre-Service Teacher (PST) 
summer internship program for undergraduate students who are working 
toward teacher certification in K-12 science, mathematics, and 
technology. The program places between 40 and 60 undergraduate students 
at one of seven National Laboratories. This program allows future 
science and math teachers an opportunity to work with and learn from 
DOE scientists, researchers, and mathematicians before they enter K-12 
classrooms to teach science and math. Participants spend ten weeks with 
scientists or engineers working on projects related to the laboratory's 
research programs and build content knowledge and skills through their 
research experience.
    Participants also attend professional enrichment activities, 
workshops, and seminars that help them apply what they learn to their 
academic programs and the classroom, help them understand how to become 
members of the scientific community, and help them improve their 
communications skills. Each participant has well-defined outcomes that 
include a research abstract, research papers, poster presentations, and 
an educational module that develops their laboratory experience into 
something they can use in the classroom. A Master Teacher reviews each 
of the participant's outcomes, and the participants' science abstracts 
are graded and published in Workforce Development for Teachers and 
Scientists annual peer-reviewed Journal of Undergraduate Research.

Program Evaluation

    Evaluation of the Office of Science's teacher professional 
development programs is a two-part process which can generally be 
divided into short-term collection and review of teacher and student 
outcomes and longer-term teacher and student outcomes that are formally 
reviewed and assessed by outside organizations. Short-term evaluation 
occurs each year and is both ``formative'' in that it generates small 
adjustments in how the program is being conducted and ``summative'' in 
that hard data are used to determine whether the program is addressing 
what it is intended to address.
    The LSTPD program, for example, requires teachers to self-identify 
their weaknesses in science and to define how they will address those 
weaknesses in their research experiences. Teachers also document in a 
portfolio how their experiences in the laboratory influence their 
classroom teaching and how they provide leadership in their schools and 
in their districts. This information is generally formative in nature.
    Additionally, there are tangible outcomes that each teacher 
produces that can be objectively evaluated. These range from research 
papers based on their research performed at a National Laboratory to 
lesson plans that attempt to transfer the content knowledge they have 
gained at a National Laboratory to their students in the classroom. 
This information is summative in nature.
    Both the formative and summative data are compiled and reviewed by 
the WDTS staff and a yearly meeting of all 17 laboratories is convened 
to discuss outcomes of the teachers and what adjustments, if any, 
should be made. At a certain point, programs are evaluated by an 
outside organization. This evaluation is done after the program has 
operated long enough to demonstrate its proposed outcomes and with 
enough participants to yield a sample size sufficient for reliable 
evaluation.
Initial Evaluation of LSTPD
    Initial evaluation of the LSTPD program has relied on self-
assessments of the participating teachers and assessments of the 
teachers by laboratory education staff. The evaluation of the LSTPD is 
in part based on components completed by the participants: 1) a content 
knowledge self-assessment; 2) a professional development plan; 3) a 
professional practice inventory; and 4) an education module that is 
submitted by each participant. Several teachers have also submitted 
research abstracts, papers, and posters related to their research at 
the National Laboratories. As indicated above, the program requires the 
teachers to collect data that will support the program evaluation, and 
those data become useful to the participants in their classrooms and in 
their own professional development.
    An independent educational testing and evaluation company, 
WorldViews, LLC, conducted an external evaluation of the pilot year of 
the program and provided its report in May 2005. The report stated:

         The LSTPD Program in its pilot year was an overall success. 
        Significant credit goes to the LSTPD Program managers and 
        participating science mentors at each of the participating 
        laboratories, and the Office of Science LSTPD leadership and 
        staff. A variety of professional development models were 
        employed to a wide range of audiences.

    These professional models include those of the National Board for 
Professional Teaching Standards and Loucks-Horsely's ``Fifteen 
Strategies for Professional Development.'' WorldViews, LLC, conducted 
its evaluation based upon interviews, work samples and surveys, basing 
success on statistically significant increases in teacher work sample 
quality and respondents' evaluations of the program to pre- and post-
measures.
    Other yearly evaluation indicators of LSTPD program success 
include: 1) a less than five percent attrition rate for the three-year 
program; 2) one-third of the middle school teachers in the LSTPD 
program at DOE's Jefferson Laboratory have opted to move from the mock 
research institute format of teaching to one based on their independent 
research experience with scientists and researchers at the laboratory, 
the embedded research model; 3) a number of LSTPD teachers have won 
national education awards, including recognition as Albert Einstein 
Distinguished Educator Fellows, Milken Educator Award Winners, and 
Expert Environmental Teachers; and 4) LSTPD teachers are becoming 
science teacher-leaders in their communities and in their professional 
circles.
    Evidence of this leadership by LSTPD teachers comes from their 
presentations of professional development workshops at several national 
conferences. Teachers from the LSTPD program at the National Renewable 
Energy Laboratory in Golden, CO, provided two workshops to teachers at 
the Society for the Advancement of Chicanos and Native Americans in 
Science (SACNAS) national conference in Denver, CO. Teachers from 
Argonne National Laboratory provided a workshop at the National Science 
Teachers Association (NSTA) regional conference in Chicago, IL. 
Additionally, LSTPD teachers will be providing workshops at the 
national NSTA conference in April 2006. Several LSTPD teachers are 
applying to participate in collaborative projects with the Department 
of Education's Teacher-to-Teacher Corps. LSTPD teachers from Lawrence 
Berkeley National Laboratory have also created an applied physics 
summer class targeted at high-school students who do not have the 
opportunity to take physics at their schools.
Full Evaluation of the LSTPD Program
    A full evaluation of the impact of this program will be done in 
2008. At that time, the evaluation will cover at least 500 participants 
who have finished a full three years in the program. Evaluation at the 
five year point in the program allows enough time to reliably track not 
only the impact on the quality of the teaching, but also any impact on 
students. Evaluation will include but not be limited to: 1) evidence of 
improved content knowledge through testing of teachers, review of 
teacher work portfolio, technical/scientific publications and 
presentations, classroom assessments by outside evaluators; 2) evidence 
of leadership, shown by teachers organizing/presenting workshops and 
instituting new classes or programs in their respective school systems 
such as AP courses, science fairs, Science Bowls; 3) and evidence of 
impact on students, as shown by more students taking advanced or 
elective science and math courses and participating in science fairs 
and Science Bowls, more students pursuing science, math, and 
engineering majors, and improved standardized test scores. This 
evaluation will be repeated in year ten of the program.
Evaluation of Pre-Service Teacher program
    The PST program gives undergraduates planning to become science or 
mathematics teachers the opportunity to experience how science is 
performed and to improve both their direct knowledge of the scientific 
process and their communications skills. The evaluation of the PST 
program is primarily based on the quality of the participants' 
submitted research papers, abstracts, and oral presentations, as a 
measure of their knowledge gained and skills acquired during the 
program. The submission rate of these required deliverables is better 
than 95 percent for each year of the program since it began in the 
summer of 2000. The abstracts are graded by an outside panel of 
educators who are all Albert Einstein Distinguished Educator Fellows. 
PST participants have typically scored slightly above the mean grades 
in abstracts compared to participants in similar internship programs 
for other undergraduate students at our National Laboratories. The PST 
participants, as a group, have also been more likely to have their 
research papers accepted for publication in the Journal of 
Undergraduate Research compared to other undergraduate students in 
similar internships at our National Laboratories. PST participants have 
also presented their work at the American Association for the 
Advancement of Science national conference.
Continued Evaluation of DOE Programs
    In addition to evaluation of students' deliverables, all of the 
National Laboratories are also evaluated by WDST staff to determine 
that they are meeting the program criteria and guidelines, such as 
conducting mentor training sessions and providing academic, 
professional, and social activities for their interns. Each National 
Laboratory's education office is also evaluated every year on its 
execution of all of its education program elements, as well as all 
other Office of Science-administered programs, by a panel of Einstein 
Fellows and the Office of Science WDTS office.
    For the past four years, particularly in teacher training, the WDTS 
has been working with the National Laboratories to help them align 
their education programs with the main principles of No Child Left 
Behind (NCLB) The WDTS office is currently compiling an inventory of 
all the DOE education activities through the programs and the 
Laboratories and their respective funding levels. This inventory will 
include evaluations that were done on our education programs and will 
support DOE participation in the Academic Competitiveness Council 
(ACC).
    The ACC, which was established by the Deficit Reduction Act of 2005 
(P.L.109-171, Sec. 8001) and signed by the President on February 8th 
2006, is reviewing science and math education programs across federal 
agencies. At the Council's first meeting its Chair, Secretary of 
Education Margaret Spellings stated, ``Currently, there are more than 
200 programs that focus on math and science, spread across 13 agencies, 
all of whom were represented today. Our goal is to gauge effectiveness 
and better coordinate these programs. Over the next several months, we 
will be looking at the data to see what policies are working for 
students, and where we can use taxpayers' dollars more efficiently. One 
of the best ways to do that is to align programs with the principles of 
NCLB, focusing on accountability, assessment, scientifically based 
research, local control, and results for students.''

K-12 Programs Led by the National Laboratories

    The scientific and technical staffs at the National Laboratories 
have not only enthusiastically participated in the Office of Science-
sponsored education programs, but have also initiated independent 
overhead-funded programs to engage K-12 schools in their respective 
communities. Each laboratory has a number of outreach programs to their 
local schools. For example, Lawrence Berkeley National Laboratory 
(LBNL) offers a popular nanoscience lecture series at the lab on 
several Saturdays throughout the year. Pacific Northwest National 
Laboratory and LBNL have been instrumental in helping their respective 
States establish State teaching standards and guiding the design of 
various statewide initiatives in science education. Thomas Jefferson 
National Accelerator Facility has a training program for local K-12 
science teachers which has shown a significant impact on student 
achievement.
    Most of the laboratories offer short eight-week summer internships 
for high-school students. Fermi National Laboratory in Chicago has the 
Lederman Education Center through which it offers a number of 
workshops, training programs, and science kits for K-12 students and 
teachers. Brookhaven National Laboratory has a Science Center that 
offers similar programs and hosts over 25,000 guests per year. The 
Lawrence Livermore National Laboratory has the Edward Teller Center 
that offers training for teachers on various technical subjects, such 
as DNA isolation and gene duplication, that teachers might wish to 
perform in their schools but do not have the training to do so. Most of 
the National Laboratories also host educational websites that provide a 
rich set of resources and extensive activities for educators and 
students at all levels.

Working with Other Federal Agencies

    Federal agencies develop education programs based on their 
respective strengths. The Department of Energy's strength is our 
scientists and engineers and research capabilities at the National 
Laboratories, and we play to that strength in both our own support of 
K-12 education and in leveraging our activities with other agencies 
such as the NSF. We do not believe it is DOE's role to support 
curriculum development, and we are seldom involved with school systems 
directly. The exception is the individual local programs at some of the 
National Laboratories. We also recognize that DOE's contribution to K-
12 education programs is quite modest relative to some other federal 
agencies. Our strength is in actually ``doing'' the exciting and 
cutting edge science, and what we offer to K-12 education is the 
opportunity to transform teachers of science into ``teacher 
scientists.'' We believe that we can excite tomorrow's future young 
scientists and engineers by helping to form motivated and knowledgeable 
teachers today.
    DOE meets regularly with other federal agencies like NSF, NASA, NIH 
and NOAA to discuss their math and science education programs. We work 
through the National Science and Technology Council and with our Albert 
Einstein Distinguished Educator Fellows, who work in Congress and other 
federal agencies for one year. The Office of Science has a strong 
relationship with the NSF in support of science and mathematics 
education, and we collaborate broadly. In 1999, for example, DOE began 
a partnership with the NSF ``Collaboratives for Excellence in Teacher 
Preparation'' and the National Laboratories to pair future teachers 
with a Master Teacher and a laboratory scientist to build content 
knowledge and skills through a summer research experience at the 
National Laboratories. This allows NSF's undergraduate pre-service 
teachers to have access to the same opportunities as our own PST 
program students.
    In 2000, the DOE partnered with NSF to support a new module for the 
popular NSF-supported Active Physics curriculum. This helped the DOE 
meet its goals for energy education under its Rebuild American program 
in line with the National Science Education Standards. The ``Home 
Module to Active Physics'' followed the content, design, and 
pedagogical format of the NSF-supported Active Physics Curricula, 
helping student understand energy conservation and the relationship of 
energy and matter.
    As mentioned above, the DOE also meets with the Department of 
Education periodically. In a recent meeting regarding alignment with 
NCLB, the DOE agreed to coordinate some of the activities of the 
teachers participating in the DOE Laboratory Science Teacher 
Professional Development Program to help the Department of Education in 
its Teacher-to-Teacher training program. We will provide some of the 
teachers the Department of Education needs, teachers who are highly 
trained in the subjects that they teach and are teacher leaders in 
their communities.
    DOE does not support K-12 education programs designed to target a 
particular gender, minority, or economic class. The LSTPD teachers and 
PST undergraduates are selected from broad geographical regions, 
representing both rural and urban populations. These in-service and 
future teachers are building science and math content knowledge and 
teaching skills that have the potential to positively impact the 
education of the diverse student groups they teach, irrespective of 
gender or socioeconomic differences.

Inspiring Young Minds in Science and Mathematics

The National Science Bowls
    To inspire young minds and promote science literacy and enthusiasm 
for math and science, DOE conducts the National Science Bowl and the 
National Middle School Science Bowl. These annual events have generated 
student enthusiasm for learning about science by engaging over 110,000 
students over the years.
    The National Science Bowl is a highly regarded educational event 
that continues to grow every year in reputation among students, 
educators, science coaches, and volunteers. It is a very exciting 
educational experience--an annual ``grassroots'' program in which more 
than 1,800 high schools from across the Nation participate in regional 
events, with the highest performing team from each region then coming 
to Washington, DC, to participate in the national event. The regional 
and national events are primarily volunteer programs where several 
thousand people (teachers, parents, and even undergraduates from local 
colleges) dedicate weeks of their time to support educational events 
and reward students for their enthusiasm and commitment to STEM.
    Since its inception in 1991, more than 110,000 high school students 
have participated in regional tournaments leading up to the national 
event. In Washington, students meet many DOE and non-DOE scientists and 
are given a rare chance to learn firsthand about the wide variety of 
careers in science. The 2006 National Science Bowl(r) will be held 
April 27-May 1, 2006, here in Washington, DC, and you are all invited 
to come and observe this exciting educational event.
    It is well recognized that the middle-school years are critical in 
attracting and retaining student interest in science and math. There 
are two events at the Middle School Science Bowl: an academic event in 
mathematics and science, and an activity to design, build, and race 
hydrogen fuel cell model cars. The academic event is a fast-paced 
question and answer format where students solve problems about Earth, 
life, physical, and general sciences and mathematics. The model 
hydrogen fuel cell car competition challenges students to design, 
build, and race model hydrogen fuel cell cars to help them understand 
the future energy challenges that our nation is facing. Students who 
win in regional events enjoy a trip to a National Laboratory and 
participate in a final three-day event designed to capture their 
interest and reward them for their hard work. The inspiration students 
receive by interacting with scientists and engineers at this age can be 
a very positive, even a transforming experience and lead them into STEM 
careers.
Other Inspiring Programs: The World Year of Physics
    The activities associated with the celebration of the World Year of 
Physics is another example of a series of programs that the Office of 
Science has sponsored to inspire and capture the interest of young 
minds in science inside and outside of the classroom. In 2005, in 
coordination with researchers at universities nationwide and the DOE 
National Laboratories, DOE celebrated the 2005 World Year of Physics 
through a year-long program of activities and materials highlighting 
how physics enables advances in science and contributes to our quality 
of life. In celebration of the centennial of Albert Einstein's 
``miracle year,'' 1905, when he published four papers that laid the 
foundations of much of physics as we know it today, the Office of 
Science co-sponsored a new PBS NOVA program, ``Einstein's Big Idea.'' 
The NOVA program aired on PBS stations nationwide in October 2005. 
Library guides about the program were distributed to 16,000 libraries 
nationwide, and teacher's guides were sent nationwide to 15,000 high-
school physics teachers, 3,700 middle school physics teachers, and 400 
middle school science chairs. Several of the National Laboratories held 
special lectures, symposia, and education events for local middle and 
high school students and the surrounding communities.
    A DOE/Office of Science website was also created to educate the 
public about the significance of Einstein's revolutionary work, 
describe the role of physics in various science and technology fields, 
publicize events, and highlight the work of DOE-sponsored physicists. 
The ``DOE Physicists at Work'' website continues to profile the work of 
young physicists conducting research in the universities and National 
Laboratories funded by the Office of Science. Several activities 
coordinated by the American Physical Society were also co-sponsored by 
the Office of Science. These included the PhysicsQuest, an outreach 
event held on the grounds of the Institute for Advanced Studies in 
Princeton, NJ, that took over 100,000 middle school students through a 
series of experiments on a hunt to finding Einstein's ``missing 
treasure,'' and Physics on the Road, a project that provided materials 
and equipment for teams of students and faculty from colleges and 
universities to perform physics demonstrations at schools and other 
public venues across the Nation.

Conclusion

    The Department of Energy's strength with regard to education is in 
using its scientists, engineers, and research facilities at the 
National Laboratories to provide transforming fellowship, internship, 
and post-doctoral programs. The multi-disciplinary, team-centered, 
scientific culture of the National Laboratories is an ideal setting for 
teachers to make the connections between the science and technology 
principles they are asked to teach. The extensive mentoring expertise 
of our laboratory scientists provides the basis for lasting 
relationships that allow teachers to remain connected to the scientific 
community once they return to the classroom.
    By incorporating K-12 STEM teachers into the scientific community 
of the National Laboratories, teachers are provided many of the tools 
they need to improve their professional performance, their leadership 
abilities in the STEM education communities, and most importantly, 
their students' achievement. While the laboratories are not positioned 
to support the training of the thousands of STEM teachers in need, the 
modest numbers of teachers who are building content knowledge and 
leadership skills at our National Laboratories will become agents of 
reform and change, not only taking their skills back to the classroom, 
but also teaching those skills to other teachers through workshops and 
seminars.
    There is a growing recognition that the standard of living we enjoy 
and the security of our nation rests on the quality of the science and 
technology education we provide America's students from elementary 
through graduate school. The DOE and the Office of Science remain 
committed to its role in training America's scientists, engineers, and 
teachers to help ensure that we will have the scientific workforce we 
will need to stay on the cutting edge of science and technology and to 
maintain our nation's competitiveness in the 21st century.
    This concludes my testimony. I would be pleased to answer any 
questions you may have.

                     Biography for James F. Decker

    James F. Decker is the Principal Deputy Director of the Office of 
Science (SC) in the Department of Energy (DOE). He has held this 
position since 1985, and has concurrently served as Acting Director for 
approximately six years on five separate occasions between April 1987 
and March 2002.
    As Principal Deputy Director, Dr. Decker is the senior career 
executive who directs the day-to-day technical and management 
activities of an organization that is the third largest federal sponsor 
of basic research in the United States and is viewed as one of the 
premier science organizations in the world. The SC fiscal year 2005 
budget of $3.6 billion funds programs in high energy and nuclear 
physics, basic energy sciences, magnetic fusion energy, biological and 
environmental research, and computational science. SC, formerly the 
Office of Energy Research, also provides management oversight of 10 DOE 
non-weapons laboratories, supports researchers at more than 275 
colleges and universities nationwide, and builds and operates the 
world's finest suite of scientific facilities and instruments used 
annually by more than 19,000 researchers to extend the frontiers of all 
areas of science.
    Dr. Decker has held several other positions within DOE. In 1973 he 
joined the Office of Fusion Energy, Office of Energy Research, as a 
plasma physicist. He subsequently became the Director of the Division 
of Applied Physics, where he was responsible for all theoretical fusion 
and basic experimental plasma physics research, the magnetic fusion 
energy computer network, and evaluation of novel fusion concepts. Dr. 
Decker later served as a Special Assistant to the Director of the 
Office of Energy Research, and as the Director of the Scientific 
Computing Staff.
    Before joining DOE, Dr. Decker was a physicist at Bell Telephone 
Laboratories where he conducted research in plasma physics and worked 
on ion implantation for integrated circuit development.
    He received a B.S. degree from Union College in 1962, a M.S. degree 
from Yale University in 1963, and a Ph.D. in physics, also from Yale 
University, in 1967.
    Dr. Decker has received several awards from DOE as well as two 
Presidential Meritorious Rank Awards. He also is a member of several 
high-level domestic and international science policy advisory 
committees.
    Dr. Decker was born near Albany, New York. He is married and has 
two children.

                               Discussion

    Chairman Boehlert. Thank you, and I want to thank all of 
our distinguished panel of witnesses for your kind opening 
remarks, but General Kelly, yours were particularly meaningful 
to me as a two striper who was a clerk in the MP during my 
years in the Army, I never had a General say such nice things 
about me. Thank you, sir.
    Brigadier General Kelly. You are welcome.
    Chairman Boehlert. I won't tell my colleagues what some of 
them said. I would like each of you, this is a thought 
question, but I would like each of you, other than the 
Secretary of Education, to describe briefly why you are in the 
education business. What does your agency bring that is unique 
to the table? I will start you, Dr. Bement.
    Dr. Bement. Yes, the reason we are in the education 
business is that the future of science and technology depends 
on a well educated workforce, and that has to be nurtured all 
the way back to kindergarten, and even before kindergarten, and 
if any element of that pipeline or that progression is not 
nurtured, the whole column collapses, so we have to be fully 
engaged.
    The primary effort that we bring to bear is in evidence-
based teaching, improving content, combining content with 
pedagogy, developing instructional materials and 
instrumentation, developing methods for evaluating assessment 
tools in terms of their reliability, their credibility, and 
their validity, so that we can measure real changes based on 
whatever baseline we establish, and determine real changes, not 
only in teacher performance, but also in student performance. 
So that, fundamentally, is what we are all about.
    In addition, the Foundation also has a responsibility, 
especially under the ACI, the American Competitiveness 
Initiative, to develop the STEM workforce for the future. That 
means in addition to investing in the best science and math 
education the Nation can provide, it is also important that we 
fill the ranks, that we build capacity among our workforce in 
understanding and being able to solve problems that require 
math and science education.
    Chairman Boehlert. Now, one of the things, if I were 
helping you with your answer, I would point out that NSF is 
peer-reviewed, and that is a real strength that I think you 
bring to the table, as opposed to just formula grants based 
upon numbers.
    Ms. Dale.
    Ms. Dale. I would say the first element is self-serving on 
the part of NASA. We have a workforce that is nearing 
retirement, and we need to be continually interested in making 
sure that we have a pipeline of students that are interested in 
STEM education, and we are actually working on the higher 
education programs and projects that continue these students on 
in the process, whether they go into NASA or somewhere else in 
the aerospace community, or into another high-tech area.
    I think what NASA uniquely brings to the table is, frankly, 
our missions actually inspire kids. As you have no doubt heard 
before, NASA Administrator Griffin has talked about the impact 
of particular projects when he was a kid. Now, obviously, 
Sputnik, and then, the development of the Apollo program, and 
those programs actually have an impact on kids along the way to 
start to enter science, technology, engineering, mathematics 
fields.
    In particular, one recent example is the New Horizons 
project launched to Pluto. We had the first student-built 
instrument on a planetary mission on that project. That is 
incredibly engaging for young people. These are students at the 
University of Colorado at Boulder who actually had the 
opportunity to build this. So, providing opportunities for 
students to actually have hands-on experience and build 
hardware for spacecraft, I think is our unique niche in this 
one.
    Chairman Boehlert. Thank you. General Kelly.
    Brigadier General Kelly. Thank you, Mr. Chairman.
    I, too, would say there is a self-serving part of it, and 
that is, we need scientists to replace people who have the 
color of the hair that I have, and the other thing is, we have 
a large number of scientists, and--I didn't want to go down 
that path. The one thing that is true about scientists are the 
vast majority of them love to work with children, and love to 
impart their love of science to children, so we have a 
workforce that wants to do it.
    The unique thing that I believe NOAA brings to the table is 
we are what I will call scientific practitioners. We don't deal 
with abstract science. We use science to solve real world 
problems, be they an ocean problem, be they making a weather 
forecast, and so, we have an opportunity to bring students into 
the workplace, work with scientists, and see how one can use 
science to help the citizens of the country.
    And another reason, and I said it in my testimony, is that 
if you are going to make effective use of many of the products 
that NOAA produces, you need to know something about science, 
and so, an educated public is important, and so, we work to do 
that.
    Chairman Boehlert. Dr. Decker.
    Dr. Decker. We also have a very vested interest in science 
and technology. If you look at the Department's missions in 
energy, national security, environmental cleanup, and in 
science itself, science and technology is obviously critical to 
success in accomplishing the Department's missions, and 
clearly, we want the best scientists and engineers working on 
our problems.
    A second reason why we are really interested in the science 
education, I think, is the capabilities that we can bring to 
the problem through our national laboratories. They are a great 
resource. We have used them to bring students and teachers into 
the laboratories to give them a research experience, to improve 
their content knowledge, that they can take back to their 
classrooms. And that resource has been recognized, I think, by 
other agencies. NSF has joined us in supporting programs to 
bring teachers into our laboratories, and NIH has also recently 
joined us in bringing students into our laboratories.
    Chairman Boehlert. Thank you very much. Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    My father was a farmer, and after World War II, he, like a 
lot of folks, took advantage of the GI Bill, and went to MTSU, 
it was Middle Tennessee State Teachers College at that time, 
and got a degree in agriculture. I came along, and farming 
wasn't enough, you know, to pay all the bills, so he became a 
teacher. And he taught high school science, and coached the 
girls' basketball. Now, my father was a decent, good man and a 
bright guy, but I don't know what he knew less about, teaching 
girls--or coaching girls' basketball or teaching high school 
science. And he--it would have been difficult for him, Mr. 
Decker, to, I think, inspire you, because he didn't have the 
background in science that he needed to teach that course. And 
so, I concur with Gathering Storm, and most every report we 
see, is that it is--the place you start is with the teachers, 
and educating the teachers.
    Now, Commissioner, or Secretary Spellings, I voted for No 
Child Left Behind, to the chagrin of many folks at home. 
Unfortunately, I think it has been underfunded and 
overregulated, although you are bringing some flexibility and 
common sense to it, and I congratulate you for that. But I am 
concerned that the President's American Competitiveness 
Initiative is also underfunded, and I am afraid, potentially, 
not properly prioritized, as I mentioned earlier. Of the $380 
million that is being presented, $250 million of that is 
designated for developing math coursework for elementary and 
mid schools. That is 70 percent. Now, that might be a good 
figure if you had a bigger overall figure, and I wish you did, 
but we won't get into that today.
    And so, I guess my question to you is with most all the 
reports saying that we need to put our attention on encouraging 
students to go into collaborative math/science education 
programs in college, as well as taking existing teachers and 
raising their skill level, it seems that, and not just in math, 
but across, you know, in math/science, and other areas, it 
seems that what this program is doing is focusing on developing 
a better syllabus for teachers, only in those sort of math/
science area--or the math areas.
    Can you enlighten me?
    Secretary Spellings. Yes, sir, I can. Thank you for the 
opportunity to do that.
    Let me first say that I completely agree with you that the 
teacher is key and essential, and that is, you know, where we 
are losing the battle, no doubt about it. That is why the 
President has called for ramping up advanced placement classes, 
and pre-advanced placement classes--many of those courses are 
taught in middle schools--so that we can make sure that folks 
like your dad have the necessary competencies.
    Mr. Gordon. That is a very small part of the money that you 
are spending.
    Secretary Spellings. It is $122 million of the $380 million 
initiative. Let me speak to Math Now. And I do want to come 
back to advanced placement, because we know it is a scalable, 
proven model. We need to get beyond kind of these onesies and, 
you know, anecdotal incubators of program, into something that 
is more widespread, more scalable, and aligned to state 
standards and the requirements of No Child Left Behind, in my 
opinion.
    With respect to Math Now, one of the things that I observe 
as we go around through schools is that in our elementary and 
middle schools, we lack a compelling research base, like we 
have in reading, not about particular curriculum products, but 
about the core tenets of effective practice. We need to develop 
that, and we need to fund those things just as we have done 
with Reading First.
    Mr. Chairman, I agree with you about the competitive nature 
of those grants. The perfect model, I think, is a large program 
that is scalable and competitive, just like we have done in 
reading with Reading First. We ought to do that notion in math.
    The important thing about the math/science partnership that 
we at the Department of Education run is that it is aligned to 
No Child Left Behind. While it is a formula grant, we said get 
your kids on grade level by 2014, and so, it is a combination 
of these things.
    Mr. Gordon. Am I incorrect in the way I am reading this, 
that $250 million of the $380 million is designated for 
development of math coursework for elementary and middle 
schools?
    Secretary Spellings. It is to establish--help to establish 
a research base and fund programs that are based on that, 
whether they are--some of the activities that NSF has developed 
a research understanding around or----
    Mr. Gordon. Isn't' that a relatively narrow focus?
    Secretary Spellings. No, sir. I believe that one of the 
things that is--that we are so challenged with is that the 
reason that we lose kids, and have a lack of students studying 
in our high schools is that we are not getting the pipeline 
right. We are not getting our elementary and middle school 
curriculum right. We are not seeding enough higher thinking, 
higher order thinking early enough, which needs to be done in 
that sixth through eighth grade kind of period.
    Mr. Gordon. But is a teacher that doesn't have the 
background, even if they have a better syllabus, I mean--it 
looks to me like what you are trying to do is--and it is not 
that we shouldn't be doing this, but just in terms of 
priorities, $250 million of the $380 million is going to 
develop a better syllabus for only in math and only in 
elementary and in middle schools.
    Secretary Spellings. That is also for teacher training, 
absolutely. Just like Reading First. Reading First is the--a 
model that says get a research base, get a program that is tied 
to that research base, and use that information to train your 
teachers, and that is what we mean to do with Math Now, pointed 
at elementary and middle schools.
    Mr. Gordon. Well, I compliment you on this program. Once 
again, I think it is underfunded and too narrow in scope, and I 
hope that we will have a chance to work more on it, and I----
    Secretary Spellings. Thank you.
    Mr. Gordon. I hope that you will call upon the expertise of 
the National Science Foundation that has had fifty years of 
well accepted and good programs.
    Chairman Boehlert. Thank you very much. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Where is Sputnik when we need it? I have said that in a lot 
of different speeches over the years, and that is the basic 
problem. I have been in this business for 40 years now, 
starting in 1966, when as a very young physics professor, 
concerned about what was called, pardon me, mathematical 
illiteracy and scientific illiteracy at that point, I asked 
myself what can a young, insignificant physics professor do, 
and I decided to devote my energies to training future teachers 
in both science and how to teach science. And that has served 
me well in this position now.
    But the big problem is grabbing the public's attention. As 
an example, a recent poll I saw said almost all parents agreed 
that having proper math and science education was an important 
issue in today's world. Sixty percent of them said they thought 
their children already had an adequate training in math and 
science. In other words, they just don't get it. They don't see 
the problem. So, we have a lot of work ahead of us.
    Secretary Spellings, I am going to address most of my 
questions to you, although I have many questions for everyone, 
but--and I really appreciated the work you have done, both in 
the White House, and in the Department. You have been a breath 
of fresh air in Washington in many ways, and I hope the 
bureaucracy doesn't beat you down.
    But I have several questions to pose to you, and in 
thinking about this problem, what can you do in your 
Department? NSF has a long history of working with us. They 
have good programs. They have done a superb job. You are 
breaking new ground with the Department of Education, and the 
question is what is an appropriate and effective federal role 
in this issue of math/science education, because as you know, 
there is a great aversion in certain segments of the public to 
the Federal Government doing too much. It seems to me, and I am 
asking your opinion on these, that teacher training is a very 
important thing that we can do. That seems to be the biggest 
problem at the moment. Developing teachers' acquaintance with 
and familiarity with and confidence in their ability to do math 
and science and to teach it.
    My question is, should the Federal Government also, then, 
apply, develop some teacher training standards to be used 
throughout the country, so that we have some sense of 
uniformity in this country? Something else, I think the Federal 
Government should do it. It is a very important thing. It is 
not determining curriculum, but we have a unique problem, 
because we are such a mobile nation, and as you know, both math 
and science are sequential in nature, and yet, we have 
different programs all over the country which use different 
sequences. So, it is very well possible for a math student, who 
is enrolled in a school where they teach percentage in the fall 
and fractions in the spring, transfers midyear, and get two 
semesters of one of those, let us say fractions, and no 
training in percentages at all. It seems to me it makes sense 
to develop a national sequencing of math and science programs 
that all curricula would have to meet. We wouldn't specify the 
curricula, but at least, let us unify the sequence, because so 
many people move so often, and I have an urban district. It is 
not uncommon for children to go to four different schools in 
one year. The national average is one change every four years, 
and we have to address that problems.
    Reviewing and approving curriculum material, at least 
saying what is good and appropriate and what is not, seems to 
me to be a federal role, maybe not done by your Department, but 
perhaps supported by your Department. AAAS does that. To a 
certain extent, other agencies, but most teachers, I find, and 
school boards, and administrators, don't know which are the 
good math programs, which are the poor ones, which are the good 
science programs, and which are the poor ones. Another 
possibility is standardized teachers' tests or credentialing. 
There is--that is done on a voluntary basis. Maybe that has to 
be extended.
    And another major problem that we face on a national level 
is the inconsistency of graduation requirements and university 
and college entrance requirements, and I, time after time, I 
come across cases where students are really in tough shape, 
because what they had in high school doesn't match what they 
need in their higher educational institution, and could your 
Department serve as an agency to develop some standard approach 
in that nationwide?
    I would appreciate your reaction to these.
    Secretary Spellings. Thank you, Mr. Chairman. I think you 
have some very unique perspectives, since you serve both on 
this committee, and on the House Education Committee, which 
really gives you an understanding of No Child Left Behind, and 
all that that is about, as well as the needs here and the 
interests here.
    You asked, I think, the most powerful question, really, at 
the beginning, and that is, what is the proper and appropriate 
federal role, and then, there are these various offshoot 
issues, including teachers, alignment, and all of the things 
that you mentioned, which I would love to speak to you.
    But I think firstly, with No Child Left Behind, we said 
that we expected every state to develop standards in math and 
science, that we expected them to develop measurement systems 
around those standards, and that we expected every child to get 
to grade level by 2014. So, I wonder about curriculum products 
that federal agencies develop, are they aligned to state 
standards? We have built a tremendous appetite, as you know, 
for getting to that goal line, but if those things are not 
coordinated with and aligned with, I am afraid that we are 
building a road to nowhere, maybe a little bit, with federal 
products that are not aligned with those goals.
    Also, No Child Left Behind, as you know, is a powerful 
driver of this focus on results, and I think that ought to be 
our watchword throughout the government. My other observation, 
and you talked about it, it is what I call the tell us what to 
do, and we will do it phenomenon. I mean, this lack of 
understanding about what are the core principles, what are the 
core elements to effective curriculum products? Like we have 
done in reading, phonemic awareness, phonics, alphabetic 
principle, and the like. What are those correlates in math, and 
I think we do have--and science. The sequencing issue. I do 
think we have a responsibility to do those sorts of things, and 
I think the National Math Panel, that will be a joint effort of 
all of us, can be a part of that.
    Finally, I think what we need to do, and most powerfully, 
particularly as we look at the results before us, we must go to 
scale on some effectiveness programs. We, you know, this is 
from my state days, the programs that were funded by the 
Department of Education or NSF in the old days, brought many 
times, our most capable teachers together, who were teaching 
four and five AP classes, largely at magnet schools, for summer 
institutes. They loved getting together, fed on each other, 
perhaps it helped them stay in the classroom longer. But what 
we need to work on is Representative Gordon's dad, the people 
who are in our classrooms today, teaching out of field. How are 
we going to get them and their skills ramped up and ratcheted 
up very quickly? That is, to me, the raging fire.
    The other thing, I think, and I know you know, and this 
body voted on it yesterday as part of the Higher Ed 
Reauthorization, is the need to get more expertise in the 
classroom from the community broadly. Why can't a NASA 
scientist teach in our schools? How can we find ways to 
engage--I know IBM has committed 1,200 of their mid-career 
professionals into the teaching professions. How can we get 
other expertise from the community into our classrooms?
    Finally, let me address some of the particular things that 
you mention. I spoke to the teacher issue. We need to make sure 
our client is the teacher who lacks the skill, not our most 
capable, most engaged teachers. The sequence issue, the 
National Math Panel can, I think, be helpful, and I completely 
agree with you about the lack of alignment between high schools 
and higher education, and my hope is that through the Academic 
Competitiveness Grants that you all just authorized as part of 
the reconciliation, which will provide additional Pell aid, and 
requires me as Secretary to define a rigorous course of study, 
determine who has taken that, and describe for each State, 
actually, each State will determine one, and make some 
linkages, finally, between the expectations of our higher 
education and the kind of student and preparation that is 
coming out of our high schools. We have put some incentives for 
students, and for the system on the table, $790 million worth 
of resources this very year, and I think that can be a powerful 
tool in doing that.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired. Madam Secretary, this committee doesn't build 
bridges to nowhere--well, committee. We chart a pathway to the 
future.
    Ms. Hooley.
    Ms. Hooley. Thank you, Mr. Chair.
    Secretary Spellings, first of all, I want to thank you for 
your openness and your willing to look at some common sense 
reform of No Child Left Behind, particularly growth models, and 
I would love to work with you and share with you some of this 
information that I have.
    I have a couple of questions. As you know, I am sitting at 
this table. We have a lot of agencies that have been very 
supportive of STEM education efforts, and they have done a 
great job. And in fact, when there was the Program Assessment 
Rating Tool, or PART, if you looked at what NSF did, all of 
their programs, 10 of their programs, have been assessed, and 
they all received the very highest rating.
    So, my question is, on the basis of past performance alone, 
why the NSF has not been included in the education component of 
the American Competitiveness Initiative, and why are NSF's K-12 
STEM education programs targeted for a seven percent cut in 
this '07 budget.
    The second question is we find that elementary school math 
and science curricula frequently focuses on exploration and 
observation of natural objects and emphasis of trial and error. 
However, as students move into junior high and high schools, 
the curriculum tends to shift to textbook-dominated, with 
little emphasis on exploration. Why does this shift occur, and 
is that decision based on scientific findings?
    And then, the third question that I have for the entire 
panel is what needs to be done to recruit and train more math 
and science teachers? What programs have worked, what programs 
have not worked, and what role can this committee help--play in 
helping this cause?
    Thank you.
    Secretary Spellings. Thank you, Congresswoman. I look 
forward to visiting with you offline about the growth model 
notion, too. I am very excited about the prospects that that 
might have----
    Ms. Hooley. Great.
    Secretary Spellings.--for No Child Left Behind as well. Let 
me first say the National Science Foundation absolutely is part 
of the Academic Competitiveness Initiative, as all the agencies 
represented here are, and I think they would tell you that. We 
are working closely together, as part of the Academic 
Competitiveness Council, that was recently created, and as 
well, on other initiatives that Dr. Bement spoke to in his 
opening statement, so that we are absolutely working together, 
and intend to do more of it, and appreciate the opportunity to 
talk together today.
    With respect to exploratory, the exploratory aspect of 
curricula, those decisions, and those observations, as you said 
through local textbook adoptions and so forth, are largely made 
at the state level, and we at the Department of Education, and 
to my knowledge, I don't know that anyone here opines on the 
worth of that, but those are local decisions, local curriculum 
decisions, set around local standards and so forth, and so----
    Ms. Hooley. Do we have any--but I think it would help if we 
had some scientific basis about this is the best way to teach 
math or science. I mean, really--or not.
    Secretary Spellings. Well, and that is what I think we are 
trying to get at with the National Math Panel. What are the 
correlates? What is the proper sequence? What are the proper 
techniques? What are the correlates to what we know best about 
reading instruction that can be applied to math? As local 
school boards evaluate, and states evaluate curriculum products 
and textbooks, what ought they be looking for as the key 
elements of success? And I don't think at the federal level, we 
have done a very clear job of helping them understand that.
    With respect to teacher recruitment, I think we have to 
work on lots of fronts. I think we have to get additional 
resources from the community broadly. We have to train our 
existing teachers, who are teaching out of field, and help, 
many times, not at their election, obviously, get them the 
skills necessary. If they are teaching biology when they are 
certified in math, let us help them get biology-certified 
through advanced placement and other models. And I think we 
obviously need to expand programs like Troops to Teachers, 
Teach for America, and all those sorts of things that have 
helped us get new career professionals into our schools.
    Ms. Hooley. Okay. Thank you. Anyone else want to respond to 
that last question about what do we do to recruit math and 
science teachers?
    Dr. Bement. Yes. Thank you. Let me draw examples from two 
programs within the National Science Foundation. One, the Math 
and Science Partnership. This is the largest program we have 
ever engaged in that brings higher education together with K-12 
education in order to improve content proficiency, and also, to 
get more STEM faculty at the universities or institutes of 
higher learning engaged with education, as far as pre-service 
education is concerned.
    Now, just to give you the numbers, we are currently 
engaging 1,000 STEM faculty at 150 institutions of higher 
learning. We have 50 corporate partners that are involved in 
this as well, and it is all to improve content. The other thing 
that I would like to touch on is our Teacher Professional 
Continuum, because it is not enough to prepare teachers and get 
them to the school. It is a question of can you retain them 
over a long period of time, because the turnover in well-
trained teachers is a waste in the system, and it is something 
that we have to deal with, and while salaries is often held up 
as a major issue as far as retention, there are a lot of other 
issues as well. It has to do with resources. It has to do with 
professional development over time. So our Teacher Professional 
Continuum starts right from the stage of recruitment, and takes 
each of the various steps, to determine how we could reduce the 
barriers, and how we can improve the retention of teachers 
through professional development, and through those two means, 
getting higher education faculty involved in content 
development, and also in retaining teachers, we feel that we 
are making a contribution.
    Ms. Hooley. Yes.
    Ms. Dale. I was just going to add real quick that 
obviously, it will be a longer-term process, in terms of 
developing the best ways to recruit math and science teachers 
into the area. One thing, and I know we have talked about this 
previously, but given a workforce in the science agencies that 
you see up here, that are nearing retirement, I think this 
should probably be a much more active effort getting these 
scientists and engineers that are retiring, and figuring out 
ways in which they can transition into being science and math 
teachers throughout the country.
    Ms. Hooley. Thank you.
    Chairman Boehlert. The gentlelady's time has expired. Mr. 
Reichert.
    Mr. Reichert. Thank you, Mr. Chairman.
    Chairman Boehlert. And we have 11 minutes on this vote, so 
the chair's intention is to have Mr. Reichert conclude his 
time, and then have a wee pause, as we dash over and dash right 
back. We will try not to inconvenience you too much.
    Mr. Reichert. Thank you, Mr. Chairman. I will make this 
quick. I do have to say, however, I am not one of the 
professors or scientists on the committee. My background is law 
enforcement. I was afraid of science. My son, however, 
graduated with a major in math economics, and a minor in 
biology. My grandson and granddaughter are thoroughly involved 
in and excited about science. They are eleven and nine years 
old, so there is some progress being made, at least in our 
family.
    I want to say that, just a couple of quick questions. Are 
the scientists or engineers providing the research experiences 
required to undergo any sort of training? There has been 
discussion about that.
    Secretary Spellings. Do scientists----
    Mr. Reichert. Are the scientists or engineers providing the 
research experiences required to undergo any sort of training?
    Secretary Spellings. In teacher licensure and teacher 
participation?
    Mr. Reichert. Yes.
    Secretary Spellings. Most states, and No Child Left Behind, 
through the Highly Qualified Teacher Provisions, requires 
content knowledge for teachers. It leaves to states to describe 
how they do that, through their State licensure programs and 
the like, so it does vary around the country, to the extent 
that happens, but the law does require that they have a content 
basis, as opposed to a pedagogical basis.
    Mr. Reichert. Anyone else? You each run math and science 
partnership programs, and these programs were specifically 
designed by Congress to enhance coordination between NSF and 
the Department of Education. How are you coordinating your 
activities?
    Dr. Bement. Well, let me say several ways in which we are 
coordinating our activities, and let me first emphasize that it 
occurs at every level within the two agencies. At the agency 
level, at the program level, and also, at the project level.
    And at the agency level, we are very much involved in 
cosponsoring studies, like at the National Academy of Sciences, 
for example, on education. I am involved in a very important 
board in the Department of Education. And at the program level, 
the Math and Science Partnership between NSF and the program at 
the Department of Education is very much intertwined. For 
example, two-thirds of the partners that we support in the 31 
states are very closely coupled with the state math and science 
partnership programs that are supported by the Department of 
Education, so there is a direct transfer of not only 
information, but knowledge, between the two programs.
    Furthermore, we both have an MSPNet, Math and Science 
Partnership Net, which disseminates information from both of 
our programs to the general public, and beyond that, we are 
working with the Department on their Math Panel, and also, 
their Science Panel, to exchange experience, and I would say 
that in some of the toolkits that they are developing, some of 
the information and evidence that goes into the construction of 
those toolkits is coming out of the NSF Math and Science 
Partnership program, so we are linked in many ways, all the way 
from the agency level to the project level.
    Mr. Reichert. Thank you.
    Secretary Spellings. Let me answer the question this way, 
and that is, and I love that NSF's motto is ``Where Science 
Begins,'' and Dr. Bement talked about the four million students 
that are touched by their programs. We have 40 million students 
in our K-12 system broadly, and so, I think, you know, we look 
to NSF to incubate and provide information about some things 
that work, and then, we at the Department of Education, aligned 
around No Child Left Behind's requirements for results for all 
students, try to help get those to scale through state math and 
science partnerships and the like. So it is very much a hand-
in-glove sort of effort.
    Mr. Reichert. Thank you. I yield, Mr. Chairman.
    Chairman Boehlert. Six minutes to go. Well, we are going to 
have to go over and vote. Would you like to be recognized? You 
can get it in like in three or four minutes?
    Mr. McCaul. Thank you, Mr. Chairman.
    Chairman Boehlert. You are recognized.
    Mr. McCaul. And I will be very brief. I was meeting with 
the President yesterday in the White House, Madam Secretary, 
and he said what a great job you are doing, and I always think 
that that is important to hear what your boss is saying.
    Secretary Spellings. Thank you for that.
    Mr. McCaul. I think you have great security.
    Secretary Spellings. And thanks for that, too.
    Mr. McCaul. And thank you for the work you are doing. I am 
from Austin, and had the University of Texas and I want you to 
comment just real briefly, because our time is limited, on the 
advanced placement program, as it has worked in Texas, and how 
the Administration intends to apply that nationwide through the 
new initiative the President has talked about. And then lastly, 
the private sector angle, which you have referenced to, I think 
it is so important that we integrate that with the public 
school system.
    Secretary Spellings. Thank you for that medium speed pitch 
over the plate question. As you know, advanced placement, 
particularly since Bush served as governor of Texas, has been a 
huge priority of not only the government officials, but also 
the private sector and the philanthropic sector, like through 
the O'Donnell Foundation, and we have seen tremendous 
improvement, particularly with our minority students. The 
President was in town, in Dallas, at Townview Magnet School, 
just a few weeks ago, and saw just these tremendous kids, so-
called at-risk kids, all of them knocking the top off these 
advanced placement tests. We have learned that providing 
incentives not only for students, but for teachers to get 
interested and participate in those programs, has provided 
major, major value added, and the results are there. Since you 
are from Austin, also my hometown, I also want to put in a plug 
for the U-Teach Program that the National Academies report is 
so high on as well, which has people first as mathematicians 
and scientists, and then teachers, and that, too, has been very 
supported by the private sector and the philanthropic sector as 
well, so----
    Chairman Boehlert. Madam Secretary, I am going to ask you 
to pause, as we go over to vote, but the Texans love it, and I 
just want to refer to Dr. Decker, who had the advantage of 
being born in upstate New York and raised in upstate New York. 
We will take a wee pause.
    [Whereupon, at 11:20 a.m., the Committee recessed, to 
reconvene the same day at 11:53 a.m.]
    Mr. Ehlers. [Presiding] Please. By that, I mean please sit 
down.
    Okay, we have an unusual situation. There was supposed to 
be one vote. It is turned into two votes, because the Minority 
Leader is taking this opportunity for a privilege motion on the 
floor. So, I--other vote, I would come back, Mr. Boehlert would 
vote, and then come back, but he is detained there, and so I 
will preside in the meantime.
    It is a bit unusual. There are no Minority Members here. I 
would be happy to recognize any if they show up, but I will 
proceed with various questions in the meantime.
    First of all, I want to thank all of you very much for 
being here, and one comment I would make, which is not a 
question, but I know it is a concern to Secretary Spellings, 
because we have talked about it before, and also to some of 
you. You have all done a fantastic job of developing good 
educational programs, which are of great value to many 
different schools. I could pull in a number of other members 
from other departments, they are doing the same thing. I can 
pull in the American Chemical Society, and a number of 
professional societies. They are doing the same thing.
    I developed an idea some years ago, unfortunately could not 
persuade enough people here to pass it into law, but I proposed 
that one legitimate good program the Federal Government could 
do would be to develop a website in which all of these 
different programs that are developed by you, by the private 
sector, by educational institutions, would all be on that 
website, and then, there would be reviews from users, just as 
amazon.com has reviews from readers. Teachers who use the 
programs would write in their reviews, give anywhere from one 
to five stars, and would--and you would have a complete system, 
or a good catalog, so any teacher teaching a topic could go to 
that website, say today, I am going to talk about guppies, or 
today, I am going to deal with the gas laws in my high school 
chemistry class, whatever, just type in the issue, there might 
be five or six special programs that would come up. The teacher 
could read the reviews, download everything she needed for the 
one she picks as the best, and we could go on with this.
    Everyone I have talked to thinks this is a wonderful idea. 
It could be done either in the National Science Foundation or 
the Department of Education. My idea originated to do it as 
using the Eisenhower Clearing House, which existed at that 
time, which has fallen on bad times. It doesn't matter how it 
is done, but I--it really bothers me that all of you are doing 
this great work, and much of it, it just gets publicized by 
word of mouth from one teacher to another. We have to, as a 
government, systemize that, so that every teacher everywhere in 
this country has access to all these programs, and can take 
advantage of all the good work you do.
    Okay, you can tell that my dad was a pastor, because I have 
just given you a sermon, and now, go forth and do good work.
    Dr. Bement. Amen.
    Mr. Ehlers. Yeah, amen. So, try to set this up and make it 
a working element.
    I have several additional questions. One problem that I 
think we have in education is that every program, and not just 
yours, but every program, tries to aim at every student, from 
the most gifted to the most challenged. Now, how do you balance 
your programs, to make sure that our top students are getting 
what they need to be encouraged to go on, while still making 
sure that the equity is such that students who cannot succeed 
without special attention can still make the grade in your 
different programs? And this time, we will start right to left, 
so Dr. Decker, do you have any comments or ideas on that? How 
do you meet the needs of every student? What ideas do you have?
    Dr. Decker. Dr. Ehlers, actually----
    Mr. Ehlers. Could you turn on your microphone, please?
    Dr. Decker. It is on.
    Mr. Ehlers. Well, just pull it closer to you, then.
    Dr. Decker. Oh, okay. Sorry. Yeah, the programs that we run 
are mostly aimed at teachers, and what we have seen through our 
way of choosing teachers for those programs, we have done it by 
their national programs, we are selecting teachers from 
different areas of the country, urban areas, rural areas, and 
we are, I think, through that program, sort of affecting 
students at all levels. The diversity of students, the poor 
students, the good students, and that has been kind of our 
approach to it. We really focus on the teachers.
    Mr. Ehlers. And what about your program in Argonne 
Laboratory? You have two things going on. What was it, Dardene 
School at Argonne, but also Leon Letterman was doing some 
things out of Fermilab. Weren't they aimed at students?
    Dr. Decker. Yeah, the--I am not familiar with the one at 
Argonne. The Letterman School, I think really is sort of an--if 
I remember right, it is----
    Mr. Ehlers. I guess it is on Fermilab, both of them.
    Dr. Decker. Yeah, that is--correct.
    Mr. Ehlers. That is aimed at students, correct?
    Dr. Decker. Yeah, that focuses on--it is more of an 
institute that focuses, really, on the good students, if I 
recall correctly, and at this point, I don't believe that the 
Department directly supports that school.
    Mr. Ehlers. Okay. General Kelly.
    Brigadier General Kelly. That is a tough question, Chairman 
Ehlers.
    As I mentioned in my testimony, we have six different 
mandates which require us to tackle the total spectrum of 
education. We try to encourage the best and the brightest, and 
at the same time, we have got programs to attract females, 
under-represented minorities, and students from low income 
families, regardless of their academic ability. So, you will 
find ours is an eclectic mix, and we haven't been able, I 
don't--first of all, I don't think we can just focus on--given 
the existing authorizations, on the best and the brightest of 
the youth. We have got to take a much broader approach to it.
    Mr. Ehlers. I totally agree, and let me just--an editorial 
comment. That is essential for the survival of manufacturing in 
this country, because we need workers who understand the basic 
principles of mathematics and science in the workplace, or they 
simply won't have jobs, and we can't compete. Ms. Dale.
    Ms. Dale. Achieving the right balance, in terms of under-
represented students, students that are really gifted, et 
cetera, is actually one of the charges that Secretary Spellings 
has given us, within the context of the Academic 
Competitiveness Council, which she chairs, and it is something 
that we will actually be grappling with over the coming months. 
And I would like to take this opportunity to thank Secretary 
Spellings and her leadership at the Department of Education, 
because I think what she is doing, in terms of, you know, a 
separate Tiger Team with NASA, NSF, Department of Education, 
Department of Energy, the agencies that you see up here, that 
have been meeting for quite some time to gain synergies within 
education, but also, this Competitiveness Council.
    It is extremely important to pull all these elements 
together within the Federal Government, and focus on; do we 
have unnecessary duplication? Are we actually creating the 
right synergies, and also, another thing that is critically 
important within NASA, do we have the right evaluation tools? 
And I think we do in some of our programs, but not all, and we 
will be looking for best practices as we go through this 
interagency coordination.
    Specifically within NASA, we have a mix of how we target. 
In terms of the best and the brightest, we target them through 
a graduate research program, and also, our undergraduate 
research program, and those are opportunities for both 
internships, and also, money for fellowships. We are also 
targeting intensely under-represented communities, those that 
are not typically represented in science, technology, 
engineering, and mathematics, and that comes through a whole 
host of programs in NASA, including Explorer Schools, SEMAA, 
which is the Science, Engineering, Mathematics Aerospace 
Academy, the Minority Undergraduate Science and Technology 
Scholarship Program, and several other. But I think it is 
something that we will continue to grapple with under Secretary 
Spellings' leadership.
    Thank you.
    Mr. Ehlers. Thank you. Dr. Bement.
    Dr. Bement. Yes, thank you, Dr. Ehlers.
    I will cite three programs to give an example. One is our 
ATE program, which focuses on community colleges, and tries to 
bridge from community colleges to secondary education and K-12 
schools, and also, the bridges between community colleges and 
four year colleges or universities, and to, again, provide 
content preparation, and reduce the loss of students through 
lack of retention.
    The second program would be a series of programs in 
broadening participation to get more under-represented 
minorities, more women, more persons with disabilities, to 
enter the STEM field, and then, to provide them support, either 
scholarship support or motivational support, all the way 
through to the doctorate, if necessary, a bridge to the 
doctorate.
    The third area I would cite is our GK12 fellowship program, 
which brings graduate students into the elementary and 
secondary schools, primarily to overcome some of the 
misunderstandings on what inquiry-based means and what rigor 
means. In the minds of some teachers, rigor is memorizing the 
periodic table, whereas to a scientist, what rigor means is 
being able to go into the periodic table, and understanding the 
relationship of structure to properties for a particular 
element. And in the case of inquiry-based learning, to many 
teachers, that means I ask the questions, and the students have 
to answer the questions, whereas what our graduate students are 
trying to impart is no, it is the other way around. We need to 
teach the students to ask the questions, but also, to develop 
evidence to help back up their understanding of the answer.
    So, in these ways, we are not only dealing with the most 
gifted students, but also, the people that are the students 
that have issues having to do with learning, learning 
disabilities, or perhaps, need more motivation, need role 
models, need encouragement, as they go through their education.
    Secretary Spellings. Thank you, Mr. Chairman. Great 
question. As you know, that is exactly what No Child Left 
Behind is all about is every single group of students, poor, 
minority, special education students, and the like, and I 
think, you know, we have put the highway in place to hold 
ourselves accountable for the achievement of each of those 
students.
    My experience is, as I travel around, is we are starting to 
see states and localities stretch their accountability systems 
and round out their accountability system with additional 
curricular areas, and as well, let us ask ourselves not just 
how many kids are merely passing the tests, or on grade level, 
but how many kids are acing the test? How many superstars do we 
have, and continuing to raise the bar for all students.
    I am a firm believer in what gets measured gets done, as 
you know, and I think when we put that kind of focus, we will 
see those sorts of results. As you know, No Child Left Behind 
also has a teacher focus. The dirty little secret in education, 
not so secret any more is with some of our most experienced, 
most effective teachers are in our least challenging 
educational environments, and vice versa. And with the highly 
qualified teacher provisions, and the enforcement abilities 
there, you heard me talk about the 40 percent of the high 
schools who offer no advanced placement, I think that is the 
first place we go to focus on, you know, our most effective 
professionals allocated and charged with educating some of our 
most challenged students, particularly, as you said, if we 
intend for those people to be employed in the workforce of the 
21st Century.
    I appreciate Administrator Dale's comments about the 
Academic Competitiveness Council. I have given them the 
assignment to look at who is their client, as we look at these 
various programs, and find ourselves with the right mix of our 
most gifted, as well as every student, and the opportunity that 
they may or may not have in this changing world.
    Mr. Ehlers. Excuse me. I am going to have to learn more 
about the Tiger Team. It sounds intriguing. And I assume you 
are all using Macintosh computers, too, with the new Tiger 
Operating System. I had to get that one in. I hope that your 
idea of what you can measure gets done, if that comes to the 
Congress, it could really revolutionize things around here.
    Secretary Spellings. Uh-oh.
    Mr. Ehlers. Quick question for Dr. Decker. There is a lot 
of interest in some quarters, not all, but in some quarters, in 
creating a statute giving a lot of additional--creating a lot 
of additional programs at the Department of Energy. My bias is 
more towards giving clear education authority to the 
Department, and then letting you build on existing efforts.
    Are there any gaps in your programs now that you would most 
like to fill, and what would you spend additional educational 
funds on? Furthermore, do you need any new legislation to 
create any new, specific effort? Maybe you weren't even aware 
of the interest around here in writing this, statutory 
instructions for you.
    Dr. Decker. I don't believe we----
    Mr. Ehlers. Pull your microphone closer again, there.
    Dr. Decker. Oh, I am sorry. It wasn't on.
    Mr. Ehlers. Oh. Okay.
    Dr. Decker. Sorry.
    Mr. Ehlers. That could explain it.
    Dr. Decker. Dr. Ehlers, I am not intimately familiar with 
those bills. I am not aware of any additional authorities that 
the Department needs in education. In our current programs, 
where we bring K-12 in-service teachers, and pre-service 
teachers in, we are expanding by about a factor of three or so, 
and with our '07 budget request.
    Could we do more? The answer is probably, and we will 
certainly look at that for the future.
    Mr. Ehlers. Okay. Thank you. Secretary Spellings, I would 
just like to continue, getting back to this Academic 
Competitiveness Council. I assume that is what you call the 
Tiger Team. What is the purpose of it, how are you going to 
measure success? How are you going to determine which programs 
are continued or expanded, and which programs are eliminated? 
And I am particularly concerned, because I know the National 
Science Foundation, which has always been the bulwark of math/
science education, has lost funding in the last few years, and 
I hope that this is not a forerunner of some continuing 
deleterious effects for the Foundation.
    Secretary Spellings. No, sir. It is not. And that would not 
be our agenda at all. This Competitiveness Council was created 
as part of the Deficit Reduction Act at the early part of this 
year, and we have already met. I have given them the 
assignment, firstly, of inventorying each and every program, 
who it serves, and what is their evidence--what sort of 
evaluation have they undergone, and so, they are hard at work 
doing that. We intend to have the work of this group completed 
within a year, by February of next year.
    I think we all know that we wouldn't be having this hearing 
if we were using the $3 billion that we spend in this 
government at my Department and all the rest of them as 
effectively as possibly, and that we need to make sure that we 
are as smart as we can be with the programs we have, and as 
well as figuring out what the gaps are, and what we need to 
fill in, and for whom. And so, the first order of business is 
to inventory each of those, share information about overlaps 
between them, and then bring some of these policy issues to the 
forefront for you, as well as for us in the Administration.
    Mr. Ehlers. Okay, thank you. Anyone else wish to comment on 
that here? Who is all involved in that? NSF and NASA, all of 
you are?
    Secretary Spellings. Plus the National Institutes of 
Health, plus the Justice Department, in various things they do 
over there. And just a full complement of federal agencies that 
are specified in the statute.
    Mr. Ehlers. Okay. Well, thank you very much. I will 
probably have to go, and Mr. Boehlert should be back 
momentarily, so----
    Dr. Bement. Mr. Chairman.
    Mr. Ehlers. Yes.
    Dr. Bement. If you have a moment, I would like to bring to 
your attention something that came to my attention yesterday, 
which I think would be of interest to you.
    This is a newspaper article from the Pittsburgh Post-
Gazette reporting on the Franklin Regional School District, and 
their performance in an international competition. The Franklin 
Regional fourth graders scored second highest in the world on 
the Third International Mathematics and Science Study, and--
actually, they tied with Korea, and in the higher grades, the 
tenth grade students actually scored second highest in the 
world, just a little bit below Sweden, and if you look at their 
proficiency scores on the state tests, for both math and 
reading, in eighth grade, 90 percent of the school people 
scored proficient or advanced in math, 86 percent did so in 
reading, and in grade three, the figures were 92 percent in 
math, and 85 percent in reading. Really quite an outstanding 
achievement.
    Mr. Ehlers. There are a number of those remarkable success 
stories in our nation, and the point is to spread the wealth, 
so to speak, and make sure that that----
    Dr. Bement. The reading scale----
    Mr. Ehlers.--those are not uncommon situations----
    Dr. Bement. Right.
    Mr. Ehlers.--but very common. I think that is the goal we 
all have. With that, I will be happy to yield the chair back to 
its rightful owner, Congressman Boehlert.
    Chairman Boehlert. Excuse the rude interruption. The 
Speaker doesn't check with the Chairman of the Science 
Committee to determine the schedule, and we are reverting back 
over on the floor right now to the old fashioned partisanship. 
I have never seen partisanship at a higher level in this 
institution in all my years here, and I came 42 years ago as a 
young staff member, and I have never seen the level of 
tolerance sink to greater depths. It is unfortunate. So, we 
have got a privilege resolution over there now that we are 
dealing with.
    Be that as it may, let me ask, and we are not going to keep 
you here, because you have all got other demanding schedules. 
What we will do is submit some additional questions in writing, 
and we would very much appreciate timely responses, but the one 
thing, Madam Secretary, this is your first appearance before 
us, and you probably will notice the smile on the face of the 
gentleman to your left, because he knows, when he comes up 
here, we are like a paid cheerleading squad for NSF, but we--I 
happen to think very strongly, and this is shared by my 
colleagues, that NSF does so many things the right way, and so, 
once again, I want to salute you.
    But I also don't neglect paying attention to other 
departments, and when you come here before this committee, it 
is not for confrontation. It is for cooperation. We are trying 
to sort of sort things out, and figure out the best way to 
proceed. And so, we are not trying to play gotcha with our 
questions, but we are really trying to elicit something more 
than just what is on the script, and whether it is this 
Administration or any Administrations. Of course, people from 
the executive branch are going to come up and put the best 
light on what their contribution is to the program under 
discussion, and--but we try to get beyond that, and one of the 
things that I have been disturbed about for the longest time is 
the fact that we are not able to attract to the classroom some 
of the best and brightest for teaching positions, and 
particularly, in the math and science area. It is not that our 
classrooms are filled with teachers who are not committed, who 
are not dedicated. They are, but in so many instances, we have 
our youngsters being taught maybe calculus or chemistry by 
someone who majored in French or history, dedicated, 
professional teachers, but not a major in their disciplines.
    So, many years ago, partnering with a colleague of mine 
across the Capitol, Senator Jay Rockefeller, we developed a 
scholarship for service program. Initially, it was called the 
Boehlert-Rockefeller Program, and that didn't excite many 
people, so we renamed it after the founder of Intel. It is now 
called the Noyce Scholarship Program. And I think that 
personifies some of the problem areas that we are talking 
about, and were brought to light in the ``Rising Above the 
Gathering Storm'' report, which got a lot of people's 
attention, and I am glad it did. We have this program that 
provides stipends, scholarships, if you will, for juniors and 
seniors in college, majoring in science, math, or engineering, 
in exchange for an agreement to teach two years in our public 
school system for every year of the stipend. But the problem 
has been, it initially was not funded at all. We had 
authorizations, and we had feel-good press releases saying we 
have authorized this program, but authorizations aren't worth 
anything in and of themselves, unless they are followed by 
appropriations, and to the credit of the current 
Administration, we started funding the program, but only at a 
modest level, $9 million. That is all NSF has to work with.
    So, I would imagine if I asked all of you for an 
indication, could you use more money, you would all raise your 
hand and say yes, but I know the process, and these are 
difficult, challenging budgetary times. But I would like to 
close with Dr. Bement addressing the question of scholarship 
for service, and is it working, and do you have any anecdotal 
information you can share with us?
    Dr. Bement. Thank you, Mr. Chairman. Yes, it is working. It 
is a very important program, and our evaluations have been very 
positive. It is my goal to continue to increase this program. 
You will note that even though it is at a very small level, we 
were able to get it up about 11 to 12 percent in the '07 
budget, but it--and I agree with you. It deserves more funding.
    Chairman Boehlert. And Madam Secretary, we are moving on a 
trend, and we are doing it in some other agencies, and Mr. 
Rohrabacher of our committee has been particularly enamored 
with this concept, scholarship for service, and we have added 
that to NASA's authorization. Does that make a lot of sense to 
pursue that approach?
    Secretary Spellings. Sure, and we have done some other 
things that are akin to that. Loan forgiveness, that has been 
raised to $17,500 from $5,000 for teachers who are going to 
teach in those fields, and the Academic Competitiveness Grants, 
the additional Pell resources that you all have just made 
available to folks who are studying in those fields. I mean, I 
think there are different approaches to do this, but you know, 
the more teachers we can get in our schools that have math and 
science capability, the better off we are going to be, no 
doubt.
    Chairman Boehlert. And what do I tell the youngsters of 
America of all persuasions, that an education, early, solid 
foundation in the math and sciences open up unlimited 
opportunities and career fields, and but--and I think they get 
that message, but then, when they graduate from college, Johnny 
and Suzie, for example, outstanding academic record, great 
resume, in terms of their proficiency in the sciences or math, 
and--but they are facing the prospect of maybe a $25,000 
outstanding loan obligation they have got to begin paying back, 
and Johnny and Suzie might want to get married and start 
raising their own family, and we can understand that. So, do 
they take the offer to teach in the school system, or do they 
follow the dollars and get maybe twice what they would get if 
they go in the academic route, if they go with the Fortune 500 
company. More often than not, they follow the dollar for all 
the reasons I previously mentioned, so I just would hope that 
you would continue to be as supportive as you have been, and we 
will work with you to try to convince the people downtown, as 
they develop the budget numbers, to provide more money in this 
arena, because it really works, and it achieves a desired 
objective.
    With that, let me recognize Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Madam Secretary, I know you have to leave, but there are 
two of us that are left, and we would like very much to just 
make comment, at least. My comment is, I so hope you are using 
this passion and brilliance that you have brought here today--I 
mean, you are an amazing woman, thank you--to help the 
Administration get the big picture about freezing early 
childhood education, about under-funding No Child Left Behind, 
and about student cuts that are equaling--student aid cuts over 
$12 million, so--billion dollars. So, I just hope you will take 
that out of here, and know you have got a lot of people behind 
you, and appreciate who you are.
    You ask the question, why can't a NASA scientist teach in 
the classroom? Well, I have to tell you--I am not a NASA 
scientist. I was a management consultant, human resources 
consultant before I became a Member of Congress, and I was 
invited to teach at the community college, and teach basic 
human resources management, and you know, I have got the 
personality and the energy, and I certainly had the smarts, but 
you know what? I taught this class, and then, we would have a 
test, and I would have true and false questions that true and 
false were both right. I didn't know how to write a test. I 
mean, that is why what we need, you know, if you bring experts 
in the field, they have got to--I mean, maybe the scientist 
wouldn't have to give a test, but there is something lacking, 
and we need to help those other people. So, that would be 
something I thought was important.
    And then, the other--a quick question. People say to me, 
``Woolsey, you have been there fourteen years. What is the best 
trip you have ever been on?'' And without a question, the 
Antarctica. South Pole, Science Committee. There is nothing 
like it. But the most important impression that I got out of it 
was summertime, science and math teachers coming to the 
Antarctica, working in the labs at McMurdo Station, and 
learning and getting reinvigorated for coming back to the 
classroom, and carrying out their discipline. We----
    So, my question is, are we doing enough of this? Are we 
funding it? Is--not for Members of Congress. It was very, very 
good for us, every one of us. But for the educators, the 
teachers. Ms.--Dr.----
    Dr. Bement. We have a program called Research Experience 
for Teachers, and this is one of the programs that you are 
making reference to, but we involve teachers in all kinds of 
programs throughout the Foundation. Some of them may deal with 
oceanography. Some of them may deal with long-term ecological 
research sites, and if we involve the teachers, we also involve 
the students. So, this is a very important intervention in 
developing motivation, and also, in increasing interest in the 
STEM fields especially.
    Ms. Woolsey. Thank you. General Kelly.
    Brigadier General Kelly. We have two programs, one I 
mentioned in my testimony, Teacher at Sea, and while, we can't 
duplicate the Antarctic, we can, at least, put a teacher on a 
NOAA vessel that is out on a research mission, and they go our 
for extended periods of time, and our experience is that it 
does just what you said. It really revitalizes, reenergizes the 
teacher, and quite frankly, she becomes a bigger advocate for 
science than he or she was before they went.
    We also have, at a smaller level, over the summer, we 
attempt to get teachers into some of our weather forecast 
offices, to work with forecasters and at our National Training 
Center. And our experience is, if you can get the teacher with 
practicing scientists, there is almost a natural chemistry that 
goes between both of them, and that helps. And your answer to 
your question, what federal bureaucrat would you know that you 
would ask could you do more, who would say no, no, I couldn't 
do more. Of course, anyone would----
    Ms. Woolsey. No, no. Of course, we could.
    Brigadier General Kelly. Yeah. You certainly could do more.
    Ms. Woolsey. All right. Thank you, I am going to yield.
    Chairman Boehlert. And this is the final question, because 
we made a commitment to our panel, who are very busy people. 
Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I assume that Ms. 
Woolsey, when she said her best trip was to Antarctica, the 
best company on her trip was her trip to Iraq.
    Ms. Woolsey. That was a good one.
    Mr. Miller. Ms. Spellings, my questions are for you. I very 
much agreed with your discussion with Ms. Woolsey that 
decisions about how to teach math and science should be based 
upon tough minded determinations about what works and what 
doesn't, and that that should be based upon clear-eyed, 
methodologically sound, dispassionate research. I have a couple 
of questions.
    First of all, the charter school study from 2004. That 
was--the final volume of that was not published by the 
Department. It became public because the New York Times filed a 
Freedom of Information Act request. It turned out that the 
study concluded that charter school students were not doing as 
well, were not performing as well, as students in traditional 
public schools.
    Your Department said that the reason it was not published 
was not that--the conclusions were politically inconvenient. It 
was because it was scientifically unsound. It was bad science. 
It was methodologically unsound. The conclusions were not 
supported by the data, whatsoever. It was bad science. I assume 
that that critique was reduced to writing, that there was a 
report, there were memoranda, there was correspondence.
    Ms. Spellings, Secretary Spellings, would you release that, 
those written documents that contain your Department's 
critique, so the scholars in the area can both look at the 
report, and your Department's criticisms of it, and judge both? 
Would you agree to do that, Ms. Spellings?
    Secretary Spellings. Congressman, I will go back and 
investigate that. My memory is, a somewhat distant memory, is 
that there was division among the peers and so forth. Let me 
investigate what was at issue, but certainly, materials of the 
Department of Education that are not specifically precluded are 
available through the Freedom of Information Act and the like.
    Mr. Miller. Okay. Well, then a second study was on 
bilingual education, and again, that has not been released yet. 
We understand that the Department decided not to release it, 
again, based on the same kind of criticism about the soundness 
of the science behind it, which concluded that bilingual 
education programs worked better for students for whom English 
was a second language than did English only instruction. The 
Bush Department--the Bush Administration's view has been that 
English only is the preferred method of teaching, and this 
study commissioned by the Department reached a different 
conclusion. Again, it was not released. I understand that the 
Department has now agreed with the scholars who performed it 
that they can release it on their own without the distribution 
or the stamp of approval.
    Would you also release the--any documents within the 
Department that contain the Department's criticism of the 
methodology of that study?
    Secretary Spellings. I will certainly investigate both of 
those things, and get back with you about all of that 
information. Let me clarify, though, that the Department of 
Education does not have an opinion for or against English only. 
No Child Left Behind is about doing what gets kids onto grade 
level by 2014, and those are decisions that are made at the 
state and local level.
    Mr. Miller. Okay. But Madam Secretary, you would agree that 
the usual scholarly method is to publish a report, and have the 
scholars who prepared that report defend, in public, criticisms 
of their methodology and of their conclusions, and that by 
releasing both the Department's critiques and the reports 
themselves, we can have that debate, the scholars can have that 
debate.
    Secretary Spellings. So long as it meets particular 
standards of evidence and the like. When the Department of 
Education, or NSF, or any of these agencies puts their seal of 
approval----
    Mr. Miller. Right.
    Secretary Spellings.--on a piece of work, it carries 
tremendous weight.
    Mr. Miller. Yeah. Madam Secretary, I am not asking the 
Department to put the seal of approval on. What I want to know 
is why the Department did not.
    Secretary Spellings. Let me----
    Mr. Miller. And if I assume that that has been reduced to 
writing, those criticisms reduced to writing, if those could be 
released, so the scholars in the area could look, take a hard, 
dispassionate look at the study, the methodology, the 
conclusions, and the Department's criticisms, the reason the 
Department said that it would not put a stamp of approval or 
release those results, we could have a debate, a helpful 
debate, within the scholars in this field.
    Secretary Spellings. I will certainly follow up on the 
issues you have raised, Congressman. Thank you.
    Mr. Miller. And then finally, I understand the Department 
has ten regional research laboratories. Our staff on this 
committee has gotten anonymous notes thrown over the transom 
that those regional offices do regularly release reports that 
do, with wide fanfare and circulation, that support the 
Administration's policies, but there are various reports that 
have not been released, again because the criticism is that 
they are methodologically unsound, that they were bad science, 
but there seems to be a pattern of those reports being the ones 
that do not support the Administration's policy preferences.
    Will your Department release any reports prepared by the 
educational research regional research labs, and the criticisms 
of them within the Department, so that scientists or scholars 
in this area can judge the methodology, the research, the 
conclusions, and the criticisms of them?
    Secretary Spellings. I am not familiar with these 
allegations about the research labs that you have mentioned, 
and so, let me likewise investigate those, as well.
    Mr. Miller. Okay. Do you know if----
    Chairman Boehlert. Mr. Miller--the gentleman's time has 
expired, and we have been generous going over the time, and we 
will give you every opportunity to submit additional questions 
in writing.
    Mr. Miller. Okay.
    Chairman Boehlert. But we do have a commitment, and we 
are--overextended our time.
    Thank you all so much for serving as resources to this 
committee. We are in this together. Let us go forward. Hearing 
adjourned.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]


                               Appendix:

                              ----------                              

                   Answers to Post-Hearing Questions
Responses by Margaret Spellings, Secretary, Department of Education

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  What are the one or two most important steps the Federal 
Government should be taking to improve K-12 science and math education 
and what is the role of your agency in taking those steps? What is the 
single most effective program your agency runs to help take those 
steps? How do you know that that program has been effective?

A1. The most important role the Federal Government can take to improve 
K-12 math and science education is to effectively implement the No 
Child Left Behind Act of 2001 (NCLB). NCLB provides the framework for 
setting standards and measuring progress against them. Reading and math 
are the foundational skills of science. Without mastery of both, 
knowledge of the science, technology, engineering and math (STEM) 
fields is impossible. We must continue to hold schools accountable for 
teaching all children to the highest standards in the early grades 
under NCLB. And we must expand NCLB's accountability principles to our 
high schools, while helping older students who have fallen behind in 
reading and math. It is important that our high schools graduate more 
students with strong skills in the STEM fields--not only to prepare 
them for the challenges they'll face in college and the global 
workforce, but to encourage them to enter STEM fields themselves.
    With regard to your questions on the single most effective K-12 
math and science program administered by my agency, the only program 
administered by the Department of Education that focuses exclusively on 
K-12 math-science is the Mathematics and Science Partnerships program. 
Because that program has not yet been through a rigorous evaluation, I 
am unable to make any definitive statement about its impact or 
effectiveness.

Q2.  What do you think constitutes a quality program evaluation? Are 
there examples from your department or others of program evaluations 
that could serve as models? Which federal agencies have been most 
effective at conducting program evaluations? How is the Academic 
Competitiveness Council going to determine the effectiveness of the 
various federal education programs?

A2. Science teaches us to rely on research and data before reaching 
conclusions. In teaching science and math, educators must know, 
practice, and share what works. We must therefore insist on research-
based instructional practices and data-driven education policies. Part 
of the work of the Academic Competitiveness Council (ACC) is to review 
the evaluations for all federal math and science programs. The ACC has 
asked each agency to submit information on the evaluations for each of 
its programs. Once this information is received the Council will 
consider the extent to which those studies incorporate the elements of 
a rigorous evaluation, such as randomized controlled trials or well-
matched comparison groups. The Council will then determine, based on 
that review, which Federal STEM programs have real evidence of 
effectiveness as demonstrated through rigorous evaluations.

Questions submitted by Representative Bart Gordon

Q1.  During the hearing, Mr. Miller inquired into the Department of 
Education's reasoning behind refusing to publish the two DOE sponsored 
studies.

     The first incident involved the completion of the third part of a 
long running study evaluating charter school performance in educating 
children. SRI International conducted the study and produced a final 
report in 2004. The study concluded that children in charter schools 
didn't perform as well in state testing as children in traditional 
public schools. However, the results of the study weren't publicized 
because the Department of Education refused to release them.

     The second case brought up by Rep. Miller involved a final report 
prepared by a Department of Education commissioned panel on bilingual 
education. Funded with $1 million, the expert panel surveyed the 
existing research and concluded that bilingual education works better 
in educating children for whom English is a second language than does 
an English only approach. Once again, the Department of Education 
refused to publish the results of the study. After months of 
negotiation, the Department released its copyrights to a private 
publisher.

     Mr. Miller asked that the Secretary release Departmental records 
that explain the rationales for failing to put these reports out as 
Department of Education reports. However, there are consequences to 
these actions that stretch beyond the rationale for a decision to 
publish or not. One consequence of the Department withdrawing its 
support for these reports is that, even if an outside publishing scheme 
can be arranged by the report authors as in the case of the bilingual 
education study, such publications will lack the broad, publicly-
subsidized distribution and promotion that would come with the 
Department's support. Reports that have the advantage of Departmental 
subsidy are much more readily available to the public and the expert 
community than reports that are denied such support.

     To say it another way, ``officially'' sanctioned reports come to 
enjoy the subsidy of the taxpayer in advertising and distribution, thus 
advantaging them in public discourse on education policy. Reports that 
are not so lucky must make their own way as best they can, assuming the 
authors are granted the right publish, making it much harder for those 
reports to muscle their way into public discussion.

     Please provide to the Committee a description of how the 
Department provides for the release of approved reports. In other 
words:

        <bullet>  What kind of public relations effort is made (news 
        releases, advertisements in educational publications, mailings 
        to researchers or practitioners, web efforts, contracts with 
        outside sources to assist in raising the visibility of the 
        report)?

        <bullet>  How many copies of a major research report are 
        typically printed?

        <bullet>  Are copies of the report made available through DVD, 
        Web pages or through other means of distribution? Who bears the 
        costs of these alternative distribution means?

        <bullet>  In distributing printed copies of reports approved by 
        the Department, what proportion of recipients are typically 
        charged for copies of the report?

A1. Prior to receipt of these questions, we responded to Representative 
Miller, who had already written directly to the Department about these 
reports. I have enclosed a copy of our response.
    In response to your other questions, publication practices within 
the Education Science Institute and across the Department vary 
depending on the type of report, the subject matter, and the audience 
for the report. For example, the Institute recently released the 
National Assessment of Title I: Interim Report to Congress. The report 
was announced through the Institute's listserv, 700 paper copies were 
printed, and it is available for downloading through the Institute's 
web page. There was no press release and no public relations effort. 
This is the normal pattern for IES reports, except that most are not 
printed--the Institute depends on web distribution of pdf files as the 
primary means of public access. A very small number of IES reports 
receive extensive publicity. For example, reports from the National 
Assessment of Education Progress (NAEP), the most recent being the 
assessment results for science, are released at press conferences, are 
generally covered by news outlets such as C-SPAN, are printed in runs 
of thousands, have dedicated web sites, and are supported by briefings 
and outreach to States, associations, Congress, and the press. Other 
reports in this category are the annual report on the Condition of 
Education and the recent report from the National Assessment of Adult 
Literacy. All printed reports of the U.S. Department of Education are 
available free to the public from Ed Pubs.

Q2.  Over the past year, accusations have come to the attention of 
Committee staff regarding a ``scrubbing'' of the Department of 
Education's Education Resources Information Center (ERIC) database. 
ERIC is a database of education related literature.

        <bullet>  Would you please inform the Committee whether any 
        citations of any material, in any form, have been removed (or 
        otherwise shielded from being reported in a search) from the 
        ERIC database during the past year?

        <bullet>  Have the criteria for including materials in the ERIC 
        database changed at all since 2001?

        <bullet>  If any items have been removed from the database, or 
        made otherwise unavailable, please index each item removed, and 
        list the reason the item was removed from the database. We 
        would prefer to learn that no items have been removed or made 
        unavailable to searching and we hope you can reassure us on 
        this score.

A2. With regard to the question about the possible ``scrubbing'' of the 
Institute's Education Resources Information Center (ERIC) database, I 
assure you that no ``scrubbing'' has occurred. There have been a 
relatively small number of deletions from the system for particular 
technical reasons. For example, a small number of full-text entries 
have been removed at the request of copyright holders, and duplicate 
entries have also been removed. Additionally, a technical error 
occurred in the fall of 2005 when a content aggregator working under a 
subcontract with ERIC downloaded to the ERIC site a massive number of 
records containing basic bibliographic information--8,768 of these 
records (e.g., obituaries and news items) were subsequently removed 
because they were not appropriate for ERIC. With these small 
exceptions, all historical records in ERIC are intact.
    Further, we have recently launched an initiative to digitize 
historical holdings, which are now largely on microfilm. This will 
substantially enhance public access to the ERIC database.
    The criteria for including materials in the ERIC database have 
changed since 2001. Prior to 2004, the work of ERIC was carried out by 
16 separate clearinghouses, each with its own procedures and standards 
for including materials in the ERIC database. With the award of the new 
ERIC contract in 2004, we adopted new standards and criteria for 
selecting journals and non-journal materials for the ERIC database that 
are applied by content experts working for ERIC. The selection criteria 
are described at http://www.eric.ed.gov. The new ERIC is more 
comprehensive, cost-effective, and user-friendly than the previous 
version of ERIC.

Q3.  Regarding Reading First, please provide the Committee with 
information regarding conflict-of-interest assessments or disclosure of 
interest requirements that the Department conducts when you:

        <bullet>  appoint advisory panels;

        <bullet>  award grants;

        <bullet>  award contracts.

     If the materials are too voluminous, you may answer this question 
by reference to those materials, but please provide the referenced 
materials to the Democratic staff.

A3. In awarding Reading First grants, the Department convened expert 
review sub-panels that evaluated State applications against statutory 
criteria and made recommendations to Reading First program officials as 
to whether an application should be funded or needed to be revised to 
address certain deficiencies. Applications that met all established 
criteria were recommended for funding.
    The statute does not require the Department to screen the review 
panelists for conflicts of interest. The panelists are not hired by the 
Department as government employees and are therefore not subject to the 
federal conflict-of-interest laws and regulations. Furthermore, as a 
formula program, Reading First is not subject to the procedures we 
generally use in panels that evaluate discretionary grants. However, 
although not required by statute to do so, the Department did screen 
panelists for potential conflicts of interest. Applying the basic 
criteria used in screening panels in the discretionary grant area, we 
required expert reviewers to complete a questionnaire about direct and 
indirect conflicts of interest, including their connection to potential 
grantees and to commercial products that might be identified in 
applications.
    The Office of the General Counsel and the program office 
administering the program reviewed and evaluated the questionnaires to 
determine if any conflict of interest existed, and the program office 
used those determinations in forming the review panels. In some 
instances, we eliminated a reviewer from consideration because we 
determined that he or she had too many conflicting interests to serve 
effectively as an expert reviewer. In some other cases, an identified 
potential conflict of interest was resolved by ensuring the proposed 
reviewer did not review the proposal giving rise to the potential 
conflict. For example, proposed reviewers who were employed by a State 
government were not assigned to review the proposal submitted by their 
State. Likewise, a proposed reviewer who either authored or co-authored 
a commercial product mentioned in a particular proposal was not 
assigned to review that proposal. All proposals were screened prior to 
review assignments to ensure that no reviewer was assigned to review a 
proposal from which he or she was recused. In most instances, no direct 
or indirect conflict was identified.
    In response to the third question, awarding contracts related to 
the Reading First program, the Department has used only Department 
staff as reviewers. All Department staff serving as contract reviewers 
have been advised by the Department's Contracts and Acquisition 
Management (CAM) office about conflict-of-interest requirements, and 
have signed the standard disclosure forms used by CAM for this purpose. 
It is also my understanding that CAM staff followed their normal 
procedures to help ensure that the contractors selected had no 
organizational conflicts of interests.
    In response to a recent Inspection Report issued by the 
Department's Office of Inspector General concerning the Reading First 
program, I have committed to have staff from our Grants Policy and 
Oversight Staff and the Office of the General Counsel to review and 
expand the protocol for reviewing potential conflicts of interest when 
the Department uses outside review panels, to include both formula and 
discretionary grant panels. We are taking other steps to address the 
recommendations in the Inspection Report.

Q4.  At the hearing, you made the claim that, ``Long-term trends show 
that more reading progress was made among nine-year-olds between 1999-
2004 than in the previous 28 years combined.'' Could you please 
disclose the factual basis for this claim? In your response, please 
include the underlying data supporting this assertion.

A4. In 1971, the average reading score for nine-year-olds on the 
National Assessment of Educational Progress long-term trend assessment 
was 208. By 1999, the average reading score had risen to 212, a gain of 
four points. In 2004, the average reading score was 219, a gain of 
seven points from 1999. The seven points is larger than the four-point 
gain made between 1971 and 1999.

Q5.  The Department of Education funds ten regional research labs 
around the country. Committee staff have received information that 
those labs are required to submit any item that they wish to post on 
their web site to the Department for approval prior to posting, if the 
item was produced with any Departmental money.

        <bullet>  Does the Department have such a requirement for any 
        or all of its regional labs?

        <bullet>  If so, when was this policy instituted?

        <bullet>  If so, does the Department simply approve or 
        disapprove of the materials or does the Department actively 
        edit the substance of the materials?

A5. The Institute has recently re-competed its 10 regional educational 
labs. The new contract requires each lab have a web site hosted by the 
Institute and that materials posted to the lab's web site conform to 
the Institute's data-quality requirements. There are four reasons for 
this requirement. The first is that the Institute is responsible by law 
for ensuring that reports that are generated by its contractors meet 
the scientific standards set out in the Education Sciences Reform Act. 
The second is that, in many cases, the regional lab contracts represent 
a small fraction of the business of the corporate entities that hold 
lab contracts. Under previous practice, the regional labs posted 
content on their web site that was supported by the Institute and mixed 
it together with content that was supported by other funders. A user 
finding content on the web site of, for example, the Northwest Regional 
Education Laboratory had no easy way to determine the provenance of 
that content and could easily assume that it was done pursuant to the 
lab contract and met the standards of the Institute. The third reason 
is that having the lab web sites hosted at the Institute allows all of 
their content to be indexed and searchable by users through the same 
portal and search process that subsumes other reports and materials 
produced by and for the Institute. The fourth reason is economy--the 
marginal costs for the Institute to host 10 regional lab web sites is 
small compared with the costs of each of those labs hosting its own web 
site.

Q6.  The Department of Education funds a company to operate a ``What 
Works Clearinghouse (WWC).'' The WWC web page indicates that their 
mission is to ``provide educators, policy-makers, researchers, and the 
public with a central and trusted source of scientific evidence of what 
works in education.''

     Just this month a very prominent researcher on math education, Dr. 
Alan Schoenfeld of Berkeley, published an account of his efforts to 
advise the WWC in their efforts to devise standards for evaluating what 
works to improve math instruction. Dr. Schoenfeld was invited by WWC to 
produce an essay for a special edition of the journal ``Research in 
Middle Level Education Online'' with a plan for WWC to publish a 
hardcover version subsequently.

     Dr. Schoenfeld wrote his essay, which challenged the methods used 
by WWC to evaluate math education research. Dr. Jere Confrey, an expert 
in education methods who has chaired a prestigious 2005 National 
Research Council panel on math curriculum assessments, also produced an 
essay. Her essay criticized the very underpinnings of the WWC effort. 
WWC staff produced their own papers which they intended to publish as 
well to make the case for what they had accomplished and why they were 
taking the approaches that they had. The end result would have been a 
very lively survey of WWC's approach to evaluating education research 
designed to generate discussion in the education research and policy 
community.

     According to Dr. Schoenfeld, the Department barred WWC from 
publishing its essays, thus killing the special edition of the journal 
and the book. While Schoenfeld and Confrey were free to publish their 
work if they wanted to, the Department's step effectively suppressed 
dialogue in the education research community and amounts to censorship.

        <bullet>  If WWC has to submit its work to the Department for 
        clearance by political appointees, in what meaningful sense is 
        WWC independent from the Department? Why should they be 
        considered a ``trusted source of scientific information'' when 
        their work is subject to censorship by the Department?

        <bullet>  The Department has made repeated claims in recent 
        years that it wishes to use science to guide its policies. 
        However, the actions reported by Dr. Schoenfeld reflect an 
        effort to suppress publication and dissemination of ideas, 
        opinions and findings. Such a step flies in the face of good 
        practice in the research community. Please explain how 
        suppressing informed discussion and publication is consistent 
        with scientific values?

        <bullet>  The information provided by the Department indicates 
        that the Math, Now! panel is to be modeled on the National 
        Reading Panel. One of the criticisms of the reading panel is 
        that they didn't have the time or resources to do an adequate 
        review of the full scope of literature on reading. The 
        Department has apparently used WWC to search the Math education 
        literature and evaluate it. It would be useful to know if what 
        WWC has identified as ``meaningful'' research will act as the 
        filter for what you would have a math panel consider as valid 
        research. Will the work of the WWC be used in any way to 
        support the proposed ``Math, Now!'' panel?

A6. Professor Alan Schoenfeld has asserted that the Institute 
``suppressed'' a report he wrote that was critical of the processes 
used by the What Works Clearinghouse (WWC), a project of the Institute 
carried out by contract with the American Institutes for Research 
(AIR). Dr. Schoenfeld was hired by AIR to serve as a content advisor 
for a review of mathematics materials and curricula. AIR proposed to 
the Institute that it would edit an issue of an on-line journal 
published by the National Middle Schools Association that would contain 
essays by Dr. Schoenfeld and others. This activity was not covered 
under the terms of the contract and AIR was informed that time spent on 
it could not be charged to the government. Consequently, AIR withdrew 
from the project. Dr. Schoenfeld was informed of this and notified that 
he was free to pursue publication of his essay on his own. He did so. 
Nothing was suppressed or censored.
    With respect to the question about the relationship between the WWC 
and the National Mathematics Panel, I expect that the Math Panel will 
find the WWC reviews of mathematics curricula useful. But the Math 
Panel will set its own standards of evidence and will determine what it 
considers meaningful research.

Q7.  In response to a question at the hearing, you mentioned that other 
agencies that sponsor STEM education activities will be involved in the 
education component of the American Competitiveness Initiative, even 
though the funding is designated only for programs at the Department of 
Education.

        <bullet>  In what ways will other agencies participate in the 
        initiative?

        <bullet>  Do you anticipate any funds being transferred from 
        the Department of Education to other agencies?

A7. The American Competitiveness Initiative proposes to double the 
collective budgets of NSF, DOE Office of Science and NIST Core. By 
increasing research funding, ACI funding will contribute significantly 
to the training of STEM undergraduates, graduate students and post-docs 
who are integrally involved in this research. In the case of the NSF, 
the President's budget request includes increased funding for the 
Education and Human Resources Directorate as well as the research 
directorates.
    I would also like to note that ACI includes a STEM evaluation 
program that aligns with the work of the Academic Competitiveness 
Council (ACC). Through the ACC, all agencies with STEM education 
programs are coming together to determine which programs are most 
effective in improving STEM education at all levels and to consider how 
to optimize the federal investment in STEM education.
    The President's 2007 budget request does not transfer any programs 
from Education to other agencies.

Q8.  Will the Academic Competitiveness Council develop a coordinated, 
cross-agency STEM education budget with identified priorities and 
agencies roles and responsibilities, and if not, why not?

A8. The ACC will be focusing on areas as set forth in the statute--to 
identify federal education programs with a mathematics and science 
focus; identify the target populations being served by such programs; 
determine the effectiveness of such programs; identify areas of overlap 
or duplication in such programs; and recommend ways to efficiently 
integrate and coordinate such programs. The improved integration and 
coordination of STEM education programs that results from the ACC will 
help focus these efforts while still allowing the agencies to 
prioritize among these and other programs to achieve their mission 
needs.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The President's American Competitiveness Initiative includes $380 
million in new funding for STEM education programs at the Department of 
Education. However, at the same time, the budget request cuts over $1 
billion in funding for several programs that improve science and math 
achievement. Programs are eliminated that help to close the digital 
divide; that boost college preparation and graduation rates among high-
risk students--including rigorous college math and science prep 
classes; and that ensure high-risk students stay in school and earn 
high school diplomas--the students we will need to attract to science 
and math to ensure we meet future demands for scientists and engineers.

     Two of the programs eliminated, TRIO Upward Bound and GEAR UP, 
received passing grades in OMB's Program Assessment Rating Tool (PART) 
assessment process. Students participating in TRIO Upward Bound are 
four times more likely to earn an undergraduate degree than those 
students from similar backgrounds who do not participate in the 
program.

     Such programs are important because, although Blacks and Hispanics 
constitute about 24 percent of the U.S. population, they fill only 10 
percent of science and engineering positions in the U.S. workforce 
(Science and Engineering Indicators, 2006). The education programs 
eliminated in this budget proposal are the kinds of programs that will 
help address this imbalance.

        <bullet>  How is this budget proposal consistent with the 
        President's statement in the description of the American 
        Competitiveness Initiative that ``the bedrock of America's 
        competitiveness is a well-educated and skilled workforce''? Why 
        isn't it simply false advertising to tout funding increases 
        largely for some limited math curriculum development, while 
        slashing $1 billion from education programs that will add to 
        the well-educated and skilled workforce the President rightly 
        says is essential for American competitiveness?

A1. The Administration is proposing $380 million for programs in the 
American Competitiveness Initiative to strengthen the capacity of 
schools to improve instruction in mathematics and science. We believe 
that these activities should be a national priority. Keeping our 
competitive edge in the world economy requires focused policies that 
lay the groundwork for continued leadership in innovation, exploration, 
and ingenuity. America's economic strength and global leadership depend 
in large measure on our nation's ability to generate and harness the 
latest in scientific and technological developments, and improving K-12 
students' abilities in mathematics and science is the first step in 
that process.
    Because of limited resources, the President is seeking to eliminate 
programs that are ineffective or duplicative, or do not reflect an 
appropriate federal role in education. In some cases, program 
activities are allowable under other existing programs. For example, 
districts seeking funds to integrate technology into teaching and 
learning may use other federal program funds, such as funds from their 
Improving Teacher Quality State Grants and Title I Grants to Local 
Educational Agencies. The President's proposed High School Reform 
initiative would provide a more comprehensive and more effective 
approach to improving high school education and focusing on increasing 
student achievement for all students. States and local school districts 
could choose the most promising strategies to meet these critical 
goals, including continuing activities that grantees carry out under 
programs like GEAR UP and TRIO's Talent Search and Upward Bound.

Q2.  What are the reasons for eliminating successful education programs 
that target high-risk students and that have been shown to be 
effective, particularly since they also help improve science education?

A2. The Administration believes that a more comprehensive approach to 
addressing the needs of high school students is long overdue. 
Redirecting funds from programs like TRIO's Upward Bound and GEAR UP to 
the proposed High School Reform initiative would eliminate a disjointed 
approach that has not served all students well.
    The Administration's PART assessment of Upward Bound found that the 
program is ``Ineffective'' because it has limited overall impact on 
high school and early college outcomes. Although roughly two-thirds of 
Upward Bound students enroll in college, research data suggest that the 
majority of Upward Bound participants would have enrolled in college 
regardless of their participation in the program. Upward Bound was 
found to have significant effects for higher-risk students with low 
educational expectations, but services have not been sufficiently well 
targeted to these students.
    GEAR UP is another program that has not been able to demonstrate 
results in achieving key outcomes, such as increasing high school 
graduation and college enrollment rates. The PART assessment of GEAR UP 
found positive early results, but no data are available to determine 
whether GEAR UP services lead to positive long-term impacts. More 
importantly, GEAR UP services, like those of Upward Bound, are not 
designed to meet the needs of all students in all schools.
    The Administration's High School Reform proposal would provide 
States with the flexibility to better prepare all students for college, 
especially low-income students and students who attend schools that 
fail to make adequate yearly progress under NCLB. Additionally, it 
would require a State plan for improving high school education and 
increasing student achievement, and it would hold States accountable 
for improving the academic performance of at-risk students, narrowing 
achievement gaps, and reducing dropout rates. More so than programs 
like Upward Bound and GEAR UP, the High School Reform proposal would 
give States the resources and flexibility to focus on critical needs 
that affect all their students, including such things as adequate math 
and science preparation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Arden L. Bement, Jr., Director, National Science 
        Foundation

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  What are the one or two most important steps the Federal 
Government should be taking to improve K-12 science and math education 
and what is the role of your agency in taking those steps? What is the 
single most effective program your agency runs to help take those 
steps? How do you know that that program has been effective?

A1. To maintain America's preeminence in science and engineering, we 
must augment our nation's research enterprise by fostering innovation 
in K-12 science and mathematics education. Sustained federal support is 
critical to a comprehensive approach, including:

        <bullet>  Research on science, technology, engineering and 
        mathematics (STEM) learning for both teachers and students;

        <bullet>  Development of challenging STEM instructional 
        materials;

        <bullet>  Assessment of student and teacher knowledge;

        <bullet>  Evaluation of project and program impacts; and

        <bullet>  Implementation of proven STEM interventions in the 
        Nation's schools.

    NSF has specific programs that address each component of this 
within its comprehensive approach.
    The Foundation's K-12 STEM education programs are administered 
primarily through the Education and Human Resources (EHR) Directorate, 
although programs in the Research and Related Activities Account also 
support K-12 education and outreach activities. Within EHR all programs 
focus on educational research, development, and evaluation in the STEM 
disciplines.
    For example, within EHR's Division of Research on Learning in 
Formal and Informal Settings programs support a range of activities, 
including research on: (1) the integration of formal and informal 
learning; (2) developing and testing new materials and curricula; (3) 
new pedagogical techniques; (4) content and pedagogy education for K-12 
teachers; (5) educational activities outside of the classroom; and (6) 
the application of new technologies to education. These programs are 
vitally important cogs in our nation's K-12 STEM education machinery.
    As with all basic research, many of NSF's investments in research 
and education require years to develop and, thus, outcomes can be 
judged only retrospectively. Nevertheless, assessing performance of our 
programs is critical to all of NSF's strategic planning efforts. NSF 
employs a multiple, mixed-methods approach to evaluation. In general, 
our investments are judged to be effective. The impacts of our 
investments are determined in multiple ways using qualitative and 
quantitative techniques, including external assessment by Committees of 
Visitors (COVs) and the Advisory Committee for Government Performance 
and Results Act (GPRA) Performance Assessment, and by using the Program 
Assessment Rating Tool (PART) developed by OMB. PART assesses program 
performance in four areas: purpose, strategic planning, program 
management, and program results. It also complements and reinforces 
GPRA, emphasizing links between budget and performance. All the 
programs within NSF's People goal have been rated effective by the 
PART. In addition, NSF's science education programs have additional 
evaluation requirements:

        <bullet>  All EHR solicitations require every education project 
        to have a sound project-level evaluation.

        <bullet>  Several programs have contractual support for 
        program-specific on-line data collection systems to monitor 
        program activities and outputs on an annual basis and to 
        document trends over time. Other programs have made grant 
        awards for an annual self-assessment monitoring collection or 
        an annual program data collection system. (See Attachment A.)

        <bullet>  Third-party evaluations are also used to determine 
        the impact of various programs. These studies are conducted so 
        that in any given year approximately a third of the education 
        programs will be engaged in evaluation planning and evaluation 
        capacity building efforts, another third will be involved in 
        on-going evaluation studies, and the final third will have 
        recently completed their independent evaluation studies and 
        will be in the process of assessing the results of the 
        evaluation. While the bulk of NSF's programs are found to be 
        fully successful in these evaluations, NSF uses the results 
        from these evaluations to improve programs that are not rated 
        fully successful.

    NSF is not alone in its awareness of the need to evaluate the 
effectiveness of its programs. The Academic Competitiveness Council 
(ACC) is an effort led by the Department of Education to identify and 
assess federal math and science education programs and make 
recommendations for coordinating federal spending on STEM education. 
ACC representatives from all of the federal agencies with STEM 
education programs have been meeting since early March.

Q2.  The National Science Foundation administers many education 
programs through the Education and Human Resources Directorate but it 
also supports education activities within the research directorates. 
How do you coordinate these activities across the foundation? How do 
you share best practices within the foundation, from program to program 
or directorate to directorate?

A2. Coordinating education activities across NSF is a priority. We 
strive to integrate research and education through our programs and 
funding activities. This is done in many different ways. Most of the 
coordination is through program director interactions. In addition, EHR 
has periodic joint senior staff meetings with each of the research 
directorates to discuss existing collaborations and identify additional 
opportunities for cross-directorate collaborations. These meetings 
provide ample opportunity to coordinate education activities across the 
Foundation.
    Best practices are shared within the Foundation in similar ways. 
For example, NSF's Science and Technology Centers (STCs) have an 
Education and Outreach component and STCs are now explicitly evaluated 
on research, education, diversity, and knowledge transfer--to the point 
where they have strategic plans for education and diversity. This is a 
direct attempt to ensure that the education activities of STCs 
incorporate best practices in both education and diversity. A similar 
process exists for Engineering Research Centers in the Directorate for 
Engineering's Division of Engineering Education and Centers.
    One of EHR's roles in most cross-disciplinary initiatives like 
nanotechnology and the former Foundation-wide Information Technology 
Research (ITR) Priority Area is to promote best practices in the 
integration of research and education based on knowledge gained through 
education activities in EHR. This normally takes the form of 
incorporating some form of assessment into the cross-disciplinary 
activities.
    EHR Program Officers are often involved in discipline specific 
education and outreach programs such as Broadening Participation in 
Computing in the directorate for Computer and Information Science and 
Engineering and Cyberinfrastructure Training, Education, Advancement 
and Mentoring in the Office of Cyberinfrastructure.
    In addition, during recent meetings of the National Science Board's 
Committee on Education and Human Resources, various NSF Assistant 
Directors have provided briefings on their activities that support the 
integration of research and education.

Attachment A

       Evaluation Activities for NSF's Science Education Programs

<bullet>  The following programs have contractual support for a 
program-specific on-line data collections system to monitor program 
activities and outputs, such as the number of students obtaining STEM 
degrees, on an annual basis and to document trends over time:

        <bullet>  Math and Science Partnership

        <bullet>  Centers for Research Excellence in Science and 
        Technology

        <bullet>  Louis Stokes Alliances for Minority Participation

        <bullet>  Graduate Teaching Fellows in K-12 Education

        <bullet>  Integrative Graduate Education and Research 
        Traineeships

        <bullet>  Robert Noyce Scholarship Program

        <bullet>  Graduate Research Fellowships

<bullet>  The following programs have made grant awards for an annual 
self-assessment monitoring collection or an annual program data 
collection system:

        <bullet>  Historically Black Colleges and Universities 
        Undergraduate Program

        <bullet>  Tribal Colleges and Universities Program

        <bullet>  Model Institutions for Excellence

        <bullet>  Advanced Technological Education

        <bullet>  Alliances for Graduate Education and the 
        Professoriate

<bullet>  It is anticipated that approval for the implementation of 
monitoring systems for the STEM Talent Expansion Program and the 
Informal Science Education program will be granted in FY 2006.
                   Answers to Post-Hearing Questions
Responses by Shana L. Dale, Deputy Administrator, National Aeronautics 
        and Space Administration

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  What are the one or two most important steps the Federal 
Government should be taking to improve K-12 science and math education 
and what is the role of your agency in taking those steps? What is the 
single most effective program your agency runs to help take those 
steps? How do you know that that program has been effective?

A1. One step already taken is for federal agencies to continue to 
replicate the National Reading Panel model, which determined the 
instructional model and content for reading. This process is already in 
work with the recently announced National Science Panel. Second, the 
Government should review science and math content developed through 
federal agency research and development programs and then assess how 
this content can be used to support teacher pre-service and in-service 
education. Each of these areas is being taken up by the recently formed 
Academic Competitiveness Council chaired by the Secretary of Education.
    With regard to NASA's role, in the first example, NASA is working 
with other federal agencies bilaterally (NSF & Education) & 
multilaterally (Department of Education-coordinated Tiger Team and the 
National Science and Technology Council Committee on Science 
subcommittee on Education, Workforce & Diversity) to provide input to 
the development of the recently announced National Science Panel. In 
the second example is NASA's Langley Research Center pre-service 
program which uses the Agency's unique content, people and facilities 
to train pre-service educators. NASA's unique program content is 
provided for in-service teacher training through NASA's Network of 
Educator Astronaut Teachers, NASA Explorer Schools and the Aerospace 
Education Services Program, each of which develops NASA-based content 
consistent with and complementary to the national and individual state 
education standards.
    NASA's Explorer Schools (NES) program is one of many innovative 
projects focused on STEM education that the Agency makes available to 
support students, teachers, and families in all 50 States, DC and 
Puerto Rico. The NES program was recently chosen as one of the Top 50 
Government Innovations for 2006 by the Ash Institute for Democratic 
Governance and Innovation. Through this selection, the NES program was 
recognized for being one of the most innovative, creative and results-
oriented efforts in the Government according to the award criteria. The 
National Selection Committee on Innovation in American Government will 
name the most innovative agencies, from among the top 50, in July 
during a ceremony in Washington.
    NES provides school teacher & administrator teams working with 
under-served or under-represented populations at the 4-9 grade levels 
with enhanced teaching and learning in STEM education through 
professional development, stipends, grants and curricular support based 
on NASA resources.
    NES performance is annually measured and analyzed through internal 
and external data collected from surveys, focus groups and observations 
of all target audiences; students, teachers, and families. This 
includes a formal assessment by Wheeling Jesuit College experts in 
education evaluation. Measures of success include:

    Benefits to Teachers

        <bullet>  Teachers were asked to identify specific benefits and 
        challenges they encountered when implementing the program. 90 
        percent of surveyed team leads responded that they were 
        satisfied with the program. 94 percent expressed they benefited 
        ``a lot to some'' from the program. School teams report the 
        program had a rejuvenating effect on them.

        <bullet>  Teachers who have been teaching for ten or twenty 
        years repeatedly acknowledge the impact NES has in expanding 
        their instructional capabilities in addition to building their 
        confidence for teaching science and mathematics. Following 
        extensive training in specific areas, teachers feel more 
        confident in presenting NASA-focused material to their students 
        while at the same time being able to better convey its 
        relevance. A fifth grade science teacher in the Program 
        observes, ``I am not just teaching the facts but am able to 
        explain why these things are important and how they are used in 
        the world.''

    Benefits to Students

        <bullet>  88 percent of surveyed team members have indicated 
        the NES program benefited students. Results from student 
        questionnaires indicate the program increased student interest 
        in STEM disciplines as a result of exposure to exciting NASA 
        science resources and curriculum, astronaut visits, 
        communication with NASA scientists through DLN, and special 
        student and family events. Across the data sources, students 
        report being inspired by attending a NASA Explorer School.

        <bullet>  Students report learning more about STEM topics and 
        show interest in pursuing more STEM experiences and knowledge. 
        Students showed significant growth in how successful they think 
        they will be in a career requiring scientific ability. Although 
        data is not available for all schools, early indicators show an 
        increased performance on homework, school tests, and even state 
        achievement exams. At Bay Saint Louis, Mississippi, the NES 
        Team focused on engaging students with more challenging 
        learning opportunities. Pre- and post-tests indicated that the 
        new teaching methods were extremely effective in delivering 
        content and sparking student interest. ``Our school scores 
        increased from a level 3 (on a scale from one to five) to a 
        level 5. We had earned the distinction of being an exemplary 
        school. When we further evaluated the scores, we recognized the 
        impact of NES participation in significant ways.''

    Increased Use of Technology

        <bullet>  The NES program increased technology use by students 
        and teachers by providing schools with funds to purchase 
        technology, such as video-conferencing equipment and with 
        opportunities for connectivity to other schools and science 
        experts. ``We have obtained video-conferencing equipment and 
        our students have been able to participate in distance learning 
        with NASA Centers.'' Teachers rated the impact of the program 
        on their use of the knowledge and skills in the application of 
        science, technology, engineering, mathematics, and geography at 
        a level of 4.5 on a scale of one to five and the impact of the 
        program on their use of the knowledge and skills in 
        instructional technology for students at 4.5.

Q2.  NASA administers education programs through the Office of 
Education but it also supports education activities in other 
organizational units, including mission directorates, centers, and 
other offices. How do you coordinate these activities across NASA? How 
do you share best practices within NASA, from directorate to 
directorate or center to center?

A2. The Assistant Administrator for Education is the responsible 
official for ensuring all aspects of NASA are maximizing their 
potential to highlight the Agency's people, resources, and facilities 
in support of the Nation's education efforts to develop the skilled 
workforce necessary to achieve the Agency's goals and objectives. The 
primary mechanism for this close coordination is the Education 
Coordinating Committee (ECC).
    Chaired by the Assistant Administrator for Education, the ECC 
includes representatives from Office of Education, each Mission 
Directorate and NASA Center, the Office of Human Capital Management, 
the Office of Diversity and Equal Opportunity, and other Mission 
Support offices as needed to ensure that workforce requirements are 
identified and met, and that education efforts are aligned and focused 
on building the future workforce. Members of the ECC speak 
authoritatively on behalf of their organizations.
    The ECC is a collaborative structure that maximizes NASA's ability 
to maintain an integrated education portfolio and strategically manage 
the implementation of numerous programs, projects and activities in a 
distributed system. To accomplish the Education Outcomes outlined in 
the NASA Strategic Plan, the ECC plans and strategizes collaboratively, 
allowing the Assistant Administrator of Education to assess and 
evaluate the health of the entire education portfolio. The ECC provides 
an overarching Agency structure where issues are fully discussed. The 
ECC also provides checks and balances for effective internal control 
and ensures the successful achievement of education goals and 
portfolio. With input from the ECC, the Assistant Administrator for 
Education maintains control of architectures, strategy and top-level 
requirements, while Mission Directorates and the Office of Education 
maintain control of schedules and budgets for their own programs. NASA 
Centers execute and implement programs, projects, and activities and 
have a voice on the ECC to ensure coordination, integration, and 
teamwork.
                   Answers to Post-Hearing Questions
Responses by Brigadier General John J. Kelly, Deputy Under Secretary 
        for Oceans and Atmosphere, National Oceanic and Atmospheric 
        Administration

Questions submitted by Chairman Sherwood L. Boehlert

Q1a.  What are the one or two most important steps the Federal 
Government should be taking to improve K-12 science and math education 
and what is the role of your agency in taking those steps?

A1a. The Federal Government should help state and local officials 
ensure there is a strong connection between Science, Technology, 
Engineering and Mathematics (STEM) education and everyday science 
applications to help motivate students and enable them to see the value 
of their education. The Federal Government needs to hold states 
accountable for ensuring that every math and science course is taught 
by a teacher who is highly qualified in those subjects, as is required 
by the No Child Left Behind Act. NOAA works to understand the Earth 
system in the areas of weather, climate and ecosystems and for 
providing that information to the public to inform decision-making to 
increase social, economic, and environmental prosperity. NOAA is able 
to provide daily, applied examples of the importance and applications 
of these sciences for the general public, as part of a larger effort to 
increase interest and performance in the sciences. NOAA is an active 
participant on the Academic Competitiveness Council (ACC). The Council 
provides a forum to coordinate the federal effort in science, 
technology, engineering and math education to establish common goals, 
harmonize approaches, and develop consistent standards of evaluation. 
NOAA is involved in all three of the ACC working groups, K-12, higher 
education, and informal education.

Q1b.  What is the single most effective program your agency runs to 
help take those steps? How do you know that that program has been 
effective?

A1b. The only K-12 program in which NOAA is proposing to participate in 
FY 2007 is The JASON Project. JASON, founded in 1989 by Dr. Robert D. 
Ballard, is a nonprofit educational organization headquartered in 
Ashburn, VA. Its mission is to inspire in grade-school students an 
interest in science, math, and technology through hands-on, real-world 
scientific discovery. NOAA has requested $1 million in our FY07 budget 
for The JASON Project, which has previously been supported by NOAA 
(FY05-06) through earmarked funds. The $1 million request is the 
appropriate level for this program given the current constrained fiscal 
environment.
    The JASON Project focuses on scientific expeditions with 
supplemental science and geography curricula. JASON reaches a million 
fourth-ninth grade students and 20,000 teachers every year and combines 
authentic science and classroom curriculum with video and tele-presence 
to enhance environmental and scientific literacy and to promote NOAA 
sciences.

Q2.  The National Oceanic and Atmospheric Administration (NOAA) 
administers education programs through the Office of Education but it 
also supports education activities in other operating branches, such as 
the Office of Oceanic and Atmospheric Research and the National Ocean 
Service. How do you coordinate these activities across NOAA? How do you 
share best practices within NOAA, from branch to branch?

A2. The NOAA Office of Education serves as the primary point of contact 
for NOAA on education issues. The Director of Education coordinates 
with NOAA programs for which education is an important element, through 
the Education Council and other education mechanisms as appropriate and 
administers programs within NOAA whose primary purpose is education. 
Programs administered through the Office of Education include the 
Educational Partnership Program, Environmental Literacy Grants, and the 
Hollings and Nancy Foster Scholarship programs.
                   Answers to Post-Hearing Questions
Responses by James F. Decker, Principal Deputy Director, Office of 
        Science, U.S. Department of Energy

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  What are the one or two most important steps the Federal 
Government should be taking to improve K-12 science and math education 
and what is the role of your agency in taking those steps? What is the 
single most effective program your agency runs to help take those 
steps? How do you know that that program has been effective?

A1. We are of the opinion that the two most important ways the Federal 
Government can improve science and math education is first to help 
ensure that there is a highly qualified teacher in every classroom and 
second, to help ensure that students have the opportunity in their 
schools to study science and math every day of the school year and 
every year throughout their K-12 education. The President's ``No Child 
Left Behind'' initiative has put great emphasis on providing a 
qualified teacher in every classroom. Providing opportunities for 
professional development for science and math teachers is an area where 
the Department of Energy (DOE) and the national laboratories have 
played and will continue to play a valuable role.
    One education program that we feel has been effective in this 
regard is the Laboratory Science Teacher Professional Development 
(LSTPD) activity within our Workforce Development for Teachers and 
Scientists program. Created in 2004, LSTPD is an in-service teacher 
professional development program targeting the Nation's K-12 science, 
technology, engineering, and math (STEM) teachers with an emphasis on 
middle and high school. The primary LSTPD goal is to create a cadre of 
STEM teachers who have the proper math and science content knowledge 
and scientific research experience to perform as leaders and agents of 
positive change in their local and regional education communities. A 
primary expected outcome of the program is that participating teachers 
will better educate and inspire students to study and become more 
involved in academic and extracurricular STEM activities, eventually 
raising student achievement on standardized tests and ultimately 
leading to more highly qualified students pursuing STEM majors in 
college. To achieve these results, the program provides K-12 classroom 
teachers long-term, mentor-intensive professional development through 
scientific research or research-like opportunities at the national 
laboratories over a three-year period.
    The evaluation of the LSTPD is in part based on components 
completed by the participants: a content knowledge self-assessment; a 
professional development plan; a professional practice inventory; and 
an education module that is submitted by each participant. Several 
teachers have also submitted research abstracts, papers, and posters 
related to their research at the national laboratories. The program 
uses the teachers to collect data that will support the program 
evaluation and also be useful to the teachers in their classrooms and 
in their own professional development.
    An independent educational testing and evaluation company, 
WorldViews, LLC conducted an external evaluation in May of 2005 and 
found the program to be a success in its pilot year. A full evaluation 
of the impact of this program will be done in 2008. Evaluation will 
include but not be limited to: evidence of improved content knowledge 
through testing of teachers; review of teacher work portfolio, 
technical/scientific publications, and presentation; classroom 
assessments by outside evaluators; evidence of leadership shown by 
teachers organizing/presenting workshops and instituting new classes or 
programs in their respective school systems such as Advanced Placement 
courses, science fairs, and science. bowls; and evidence of impact on 
students, as shown by more students taking advanced or elective science 
and math courses and participating in science fairs and science bowls, 
more students pursuing science, math, and engineering majors, and 
improved standardized test scores. This evaluation will be repeated at 
year ten of the program.

Q2.  The Department of Energy (DOE) Office of Science administers 
education programs through the Office of Workforce Development for 
Teachers and Scientists but it also supports education activities in 
other ways, including through overhead-funded programs at the National 
Laboratories. How do you coordinate these activities? How do you share 
best practices within DOE, especially among the National Laboratories?

A2. Each year the Workforce Development for Teachers and Scientists 
(WDTS) program convenes a meeting of representatives from all the 
national laboratory education offices to discuss how the laboratory 
educational programs can be leveraged and how the laboratories can work 
together. During this four-day meeting, laboratory education directors 
and staff review the past year's results and evaluations, and share 
best practices and outreach efforts. They also set the plans for how 
the laboratories will work together in common national programs, such 
as those in teacher professional development.
    WDTS also provides a central online system for all the laboratories 
to list their educational opportunities and through which students, 
mentors, and faculty can.

Question submitted by Representative Bart Gordon

Q1.  The energy authorization bill passed last year has important 
initiatives in science and technology education including the Science 
and Engineering Education Pilot Program (SEEPP) headed by Oak Ridge 
Associated Universities contained in Section 983. In light of the 
President's increased interest in science education in the State of the 
Union Address, will the Administration use the requirement to spend 0.3 
percent of its energy research and development budget on science 
education to get a jump start on this and other priority science 
education efforts?

A1. The Energy Policy Act authorizes appropriations for Section 983 for 
FY 2007, 2008, and 2009 under the Energy Enhancement Fund. Office of 
Science staff have met with representatives of the university consortia 
regarding their initial proposals and have begun investigating how we 
would work towards ensuring a productive end. There is no funding in 
the 2007 budget for this pilot program. The Department of Energy (DOE) 
has not yet formulated a response to the 0.3 percent budget assessment 
called for under the Energy Enhancement Fund.
    This issue has been somewhat overtaken by events including the 
recent establishment of the statutorily-mandated Academic 
Competitiveness Council (ACC). We are reluctant to move forward with an 
entirely new program at DOE until the ACC completes its inventory of 
Federal math and science education programs and presents findings and 
recommendations on a government-wide basis.

</pre></body></html>
